<html>
<title> - THE WATER RESOURCES DEVELOPMENT ACT OF 2020: STATUS OF ESSENTIAL PROVISIONS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]





 
   THE WATER RESOURCES DEVELOPMENT ACT OF 2020: STATUS OF ESSENTIAL 
                               PROVISIONS

=======================================================================

                                (117-9)

                             REMOTE HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 23, 2021

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
 
 
 
 


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                            ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
45-341 PDF           WASHINGTON : 2021                              
                             
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
BRIAN J. MAST, Florida               DONALD M. PAYNE, Jr., New Jersey
MIKE GALLAGHER, Wisconsin            ALAN S. LOWENTHAL, California
BRIAN K. FITZPATRICK, Pennsylvania   MARK DeSAULNIER, California
JENNIFFER GONZALEZ-COLON,            STEPHEN F. LYNCH, Massachusetts
  Puerto Rico                        SALUD O. CARBAJAL, California
TROY BALDERSON, Ohio                 ANTHONY G. BROWN, Maryland
PETE STAUBER, Minnesota              TOM MALINOWSKI, New Jersey
TIM BURCHETT, Tennessee              GREG STANTON, Arizona
DUSTY JOHNSON, South Dakota          COLIN Z. ALLRED, Texas
JEFFERSON VAN DREW, New Jersey       SHARICE DAVIDS, Kansas, Vice Chair
MICHAEL GUEST, Mississippi           JESUS G. ``CHUY'' GARCIA, Illinois
TROY E. NEHLS, Texas                 ANTONIO DELGADO, New York
NANCY MACE, South Carolina           CHRIS PAPPAS, New Hampshire
NICOLE MALLIOTAKIS, New York         CONOR LAMB, Pennsylvania
BETH VAN DUYNE, Texas                SETH MOULTON, Massachusetts
CARLOS A. GIMENEZ, Florida           JAKE AUCHINCLOSS, Massachusetts
MICHELLE STEEL, California           CAROLYN BOURDEAUX, Georgia
                                     KAIALI`I KAHELE, Hawaii
                                     MARILYN STRICKLAND, Washington
                                     NIKEMA WILLIAMS, Georgia
                                     MARIE NEWMAN, Illinois
                                     Vacancy
                                     
                                     
            Subcommittee on Water Resources and Environment

 GRACE F. NAPOLITANO, California, 
               Chair
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
DANIEL WEBSTER, Florida              EDDIE BERNICE JOHNSON, Texas
JOHN KATKO, New York                 JOHN GARAMENDI, California
BRIAN BABIN, Texas                   ALAN S. LOWENTHAL, California
GARRET GRAVES, Louisiana             TOM MALINOWSKI, New Jersey
MIKE BOST, Illinois                  ANTONIO DELGADO, New York
RANDY K. WEBER, Sr., Texas           CHRIS PAPPAS, New Hampshire
DOUG LaMALFA, California             CAROLYN BOURDEAUX, Georgia
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
BRIAN J. MAST, Florida               SALUD O. CARBAJAL, California
JENNIFFER GONZALEZ-COLON,            GREG STANTON, Arizona
  Puerto Rico                        ELEANOR HOLMES NORTON,
NANCY MACE, South Carolina             District of Columbia
SAM GRAVES, Missouri (Ex Officio)    STEVE COHEN, Tennessee
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)




                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, and Chair, Subcommittee on Water Resources 
  and Environment:
    Opening statement............................................     1
    Prepared statement...........................................     3

Hon. David Rouzer, a Representative in Congress from the State of 
  North Carolina, and Ranking Member, Subcommittee on Water 
  Resources and Environment:
    Opening statement............................................     4
    Prepared statement...........................................     5

Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:
    Opening statement............................................     5
    Prepared statement...........................................     7

Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................    50

Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    75

                               WITNESSES

Matthew J. Strickler, Secretary of Natural Resources and Chief 
  Resilience Officer, Commonwealth of Virginia:
    Oral statement...............................................     9
    Prepared statement...........................................    11

Eugene D. Seroka, Executive Director, Port of Los Angeles:
    Oral statement...............................................    18
    Prepared statement...........................................    19

Mary Ann Bucci, Executive Director, Port of Pittsburgh 
  Commission:
    Oral statement...............................................    22
    Prepared statement...........................................    24

Michael F. Piehler, Ph.D., Director, UNC Institute for the 
  Environment:
    Oral statement...............................................    26
    Prepared statement...........................................    28

Chad Berginnis, C.F.M., Executive Director, Association of State 
  Floodplain Managers:
    Oral statement...............................................    30
    Prepared statement...........................................    31

                       SUBMISSIONS FOR THE RECORD

Submissions for the Record by Hon. Grace F. Napolitano:
    Statement of Melissa Samet, Senior Water Resources Counsel, 
      National Wildlife Federation...............................    66
    Letter of March 23, 2021, from Michael W. Johnson, President 
      and CEO, National Stone, Sand, and Gravel Association......    73

Letter of March 23, 2021, from James D. Ogsbury, Executive 
  Director, Western Governors' Association, Submitted for the 
  Record by Hon. Sam Graves of Missouri..........................    75

                                APPENDIX

Questions to Matthew J. Strickler, Secretary of Natural Resources 
  and Chief Resilience Officer, Commonwealth of Virginia, from:
    Hon. Grace F. Napolitano.....................................    89
    Hon. Garret Graves of Louisiana..............................    89

Questions to Chad Berginnis, C.F.M., Executive Director, 
  Association of State Floodplain Managers, from:
    Hon. Grace F. Napolitano.....................................    91
    Hon. Garret Graves of Louisiana..............................    92
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             March 19, 2021

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Water Resources and 
Environment
    FROM:   Staff, Subcommittee on Water Resources and 
Environment
    RE:       Subcommittee Hearing on ``The Water Resources 
Development Act of 2020: Status of Essential Provisions''



                                PURPOSE

    The Subcommittee on Water Resources and Environment will 
meet in open session on Tuesday, March 23, 2021, at 11:00 a.m. 
in the Rayburn House Office Building, Room 2167, and via Cisco 
Webex, to receive testimony related to the implementation of 
the Water Resources Development Act (WRDA) of 2020. The purpose 
of this hearing is to provide Members with an opportunity to 
review the implementation of U.S. Army Corps of Engineers 
(Corps) projects and policies included in WRDA 2020, and 
discuss those that will have the greatest impact on clearing 
maintenance backlogs, modernizing our water resources 
infrastructure, and getting critical assistance to communities.

                               BACKGROUND

    The Corps is the federal government's largest water 
resources development and management agency and is comprised of 
38 district offices within eight divisions.\1\ The Corps 
operates more than 700 dams; has constructed 14,500 miles of 
levees; and maintains more than 1,000 coastal, Great Lakes, and 
inland harbors, as well as 12,000 miles of inland waterways.\2\
---------------------------------------------------------------------------
    \1\ See https://www.usace.army.mil/locations.aspx.
    \2\ See https://www.crs.gov/Reports/R45185#fn1.
---------------------------------------------------------------------------
    Navigation was the earliest civil works mission, such as 
when Congress authorized the Corps to improve safety on the 
Ohio and Mississippi Rivers in 1824. Since then, the Corps' 
primary missions have evolved and expanded to include flood 
damage reduction along rivers, lakes, and the coastlines, and 
projects to restore and protect the environment. Along with 
these missions, the Corps is the largest generator of 
hydropower in the nation, provides water storage opportunities 
to cities and industry, regulates development in navigable 
waters, assists in national emergencies, and manages a 
recreation program.\3\
---------------------------------------------------------------------------
    \3\ See generally, https://www.usace.army.mil/Missions/Civil-Works/
Hydropower/; https://www.gao.gov/products/GAO-17-500; and https://
www.usace.army.mil/missions/civil-works/recreation/.
---------------------------------------------------------------------------
    To achieve its mission in planning, designing, and 
constructing water resources development projects, the Corps 
utilizes a planning process that seeks to balance economic 
development and environmental considerations as it addresses 
water resources challenges.\4\
---------------------------------------------------------------------------
    \4\ See Summary of Subject Matter Subject, Hearing of the 
Subcommittee on Water Resources and Environment, entitled ``Proposals 
for a Water Resources Development Act of 2020'', Jan. 9, 2020.
---------------------------------------------------------------------------
    The first step in a Corps project is to study the 
feasibility of the project. This can be done in two ways.\5\ 
One, if the Corps has previously conducted a study in the area 
of the proposed project, the new study can be authorized by a 
resolution of either the House Committee on Transportation and 
Infrastructure or the Senate Committee on Environment and 
Public Works (pursuant to 33 U.S.C. 542); however, the 
Committee on Transportation and Infrastructure has not adopted 
a new study resolution since 2010. Two, if the area has not 
been previously studied by the Corps, then an Act of Congress 
is necessary to authorize the study--usually through a WRDA 
bill.
---------------------------------------------------------------------------
    \5\ See id.
---------------------------------------------------------------------------
    During the feasibility study phase, the corresponding 
Corps' district office prepares a draft study report containing 
a detailed analysis on the economic costs and benefits of 
carrying out the project and identifies any associated 
environmental, social, or cultural impacts.\6\ After a full 
feasibility study is completed, the results and recommendations 
of the study are submitted to Congress in the form of a report 
approved by the Chief of Engineers (referred to as a Chief's 
Report). If the results and recommendations are favorable, then 
the subsequent step is Congressional authorization for 
construction of the project through a WRDA bill.
---------------------------------------------------------------------------
    \6\ See id.
---------------------------------------------------------------------------
    The Corps can also utilize Director's reports to further 
water resources projects, which are signed by the Director of 
Civil Works, when such projects are determined to be within the 
scope of an existing authorization.\7\
---------------------------------------------------------------------------
    \7\ See U.S. Army Corps of Engineers, ``Planning Community 
Toolbox'', 
https://planning.erdc.dren.mil/toolbox/
library.cfm?Option=Direct&Group=Main&Item=Director
%20Report&Sub=None&Sort=Default
---------------------------------------------------------------------------

                   STATUS OF WRDA 2020 IMPLEMENATION

    WRDA 2020 was signed into law as Division AA of the 
Consolidated Appropriations Act, 2021 (P.L. 116-260) on 
December 27, 2020.\8\ Traditionally enacted biennially, water 
resources development bills are the principal legislative 
vehicles to authorize studies, projects, and policies carried 
out by the Corps.
---------------------------------------------------------------------------
    \8\ A section-by-section of WRDA 2020 can be found at https://
transportation.house.gov/download/wrda-section-by-section.
---------------------------------------------------------------------------
    WRDA 2020 authorized 46 Chief's Reports, eight Director's 
Reports, 27 new feasibility studies, and six comprehensive 
river basin studies. The bill also included several 
modifications to existing Corps policy provisions, program 
updates, and expanded authority for operations.
    As part of implementing WRDA 2020, the Corps must consider 
whether new agency guidance is necessary to execute specific 
provisions created or amended within the bill; not all changes 
to Corps' statutes and policies require additional 
implementation guidance.

INVESTING IN OUR PORTS, HARBORS, AND INLAND WATERWAYS

    Marine transportation is essential to supporting the U.S. 
economy through the movement of imported and domestic goods. 
According to the Congressional Research Service (CRS), 
oceangoing vessels carry more cargo to and from the United 
States than all other modes combined (air, trucks, rail, and 
pipeline).\9\ This accounts for 80 percent of the total 
merchandise trade volume for the country.\10\ Simultaneously, 
our inland waterways annually move about 600 million tons of 
cargo, valued at approximately $250 billion.\11\ Barging via 
the inland waterways represents the lowest carbon footprint and 
highest fuel-efficiency among other modes of surface 
transportation.\12\
---------------------------------------------------------------------------
    \9\ https://www.crs.gov/Reports/
R43222?source=search&guid=dc51bbd2aa55499184e5ad6
10aa4e590&index=0.
    \10\ See id.
    \11\ https://www.iwr.usace.army.mil/Portals/70/
IWUB%20Annual%20Report%2033rd%20for
%202020%20Dec20%20Final.pdf.
    \12\ See id.
---------------------------------------------------------------------------
    WRDA 2020 included several key provisions to improve the 
operation, maintenance, and construction of Corps' navigation 
projects, including:
    <bullet>  Section 101 authorizes the full utilization of 
funds from the Harbor Maintenance Trust Fund(HMTF) by allowing 
increasing appropriations from both prior collections and the 
balance of the HMTF outside a discretionary budget cap for the 
dredging and maintenance needs at ports and harbors across the 
country.
    <bullet>  Section 102 directs the Corps to expend 
designated percentages of HMTF resources towards emerging 
harbors, donor and energy transfer ports; Great Lakes ports; 
and commercial strategic seaports, as well as modifies the 
``expanded use'' definitions for donor and energy transfer 
ports and emerging harbors.
    <bullet>  Section 104 modifies the authority created by 
section 2106 of the Water Resources Reform and Development Act 
of 2014 (P.L. 113-121) for additional measures at donor and 
energy transfer ports.
    <bullet>  Section 109 provides a 10-year modification to 
the cost share for construction of projects on the inland 
waterways, increasing the federal resources available for the 
construction and major rehabilitation of inland waterways 
projects and ensuring the continued reliability of locks and 
dams throughout the system.

BUILDING RESILIENT COMMUNITIES

    Many existing Corps' facilities and infrastructure projects 
were constructed in the early to mid-1900s. As a result, 
approximately 95 percent of the dams managed by the Corps are 
more than 30 years old, and half have reached or exceeded their 
50-year project lives.\13\ The Corps' ability to manage its 
aging infrastructure is coupled with the need to balance 
multiple authorized purposes. In addition, the Corps continues 
to respond to the challenges of extreme weather events, 
strengthening storms, and sea level rise--each of which create 
unique strains on water infrastructure, and require diverse 
approaches to meet the complex needs of communities relying on 
it.
---------------------------------------------------------------------------
    \13\ The National Academies Press, Corps of Engineers Water 
Resources Infrastructure, https://www.nap.edu/read/13508/chapter/3, at 
62.
---------------------------------------------------------------------------
    WRDA 2020 includes several provisions intended to modernize 
the Corps' approach to evaluating and executing water resources 
development projects, as well as to increase the overall 
resiliency of water resources development projects, including:
    <bullet>  Section 110 requires the Corps to issue final 
agency-specific procedures to implement the water resources 
principles and requirements which will help ensure 
comprehensive analysis of the benefits and costs for future 
water resources development projects.
    <bullet>  Sections 111 and 113 direct the Corps to evaluate 
the potential impacts of changing climatic conditions, extreme 
weather events, and sea-level rise in future water resources 
development projects, and to provide technical assistance to 
non-federal interests for greater resiliency planning.
    <bullet>  Sections 114, 115, and 116 emphasize the 
incorporation of nonstructural or natural or nature-based 
features in water infrastructure, while ensuring their 
affordability and effectiveness at meeting a community's need.
    <bullet>  Section 125 provides additional direction to the 
Corps for the beneficial use of suitable dredged material 
associated with Corps' projects.
    <bullet>  Section 221 directs the Corps to analyze and 
report to Congress on the benefits and consequences of 
including water supply and water conservation as a primary 
mission of the Corps.

ENSURING ACCESS AND AFFORDABILITY NATIONWIDE

    Typically, both the feasibility study and construction 
phases of a Corps' project require the non-federal project 
sponsor to contribute to the cost of the project. The cost of a 
study is typically shared 50 percent by the federal government 
(subject to appropriations) and 50 percent by the non-federal 
project sponsor.\14\ The cost share split for the construction 
phase varies slightly depending on the project purpose.\15\ The 
Committee has received testimony that meeting cost-share levels 
can be difficult for communities with affordability 
concerns.\16\ Additionally, rigid reliance on requiring that a 
Corps project be justified on a ``national economic 
development'' basis can preclude smaller, rural, and 
economically disadvantaged communities from partnering with the 
Corps to address local water resources development 
challenges.\17\
---------------------------------------------------------------------------
    \14\ See section 105 of the Water Resources Development Act of 1986 
(33 U.S.C. 2215).
    \15\ See sections 101, 102, and 103 of the Water Resources 
Development Act of 1986 (33 U.S.C. 2211, 2212, and 2213).
    \16\ See e.g. Hearing of the Subcommittee on Water Resources and 
Environment, entitled ``Concepts for the Next Water Resources 
Development Act: Promoting Resiliency of our Nation's Water Resources 
Infrastructure (November 19, 2019)''.
    \17\ See id. For a more detailed description on the issues related 
to benefit/cost analyses, see also, The National Academies Press, 
Analytical Methods and Approaches for Water Resources Project Planning, 
https://www.nap.edu/read/10973/chapter/5.
---------------------------------------------------------------------------
    WRDA 2020 makes important strides to better enable 
communities of all affordability levels and economic status to 
participate in the Corps process and access the expertise or 
water infrastructure they need. It also helps ensure that the 
Corps provides wider community engagement and consultation with 
such communities in the Corps process. Examples of provisions 
in WRDA 2020 that address access and affordability concerns, 
include:
    <bullet>  Section 112 requires the Corps to update its 
environmental justice policies and ensures that the Corps 
provide meaningful consultation with minority communities, low-
income communities, and tribal communities affected by water 
resources development projects.
    <bullet>  Sections 117, 118, and 165 provide the Corps with 
additional flexibility in addressing the water resources needs 
of rural, small, or economically disadvantages communities.
    <bullet>  Section 119 authorizes the Corps to work with 
communities facing repetitive flooding in developing and 
implementing permanent measures to reduce emergency flood 
fighting needs.

                               CONCLUSION

    On March 8, 2021, the Corps published in the Federal 
Register its framework for soliciting public comment and 
conducting stakeholder listening sessions for implementation of 
WRDA 2020.\18\ The Corps has stated that the public comment 
period for implementation of WRDA 2020 provisions will end on 
May 7, 2021.\19\
---------------------------------------------------------------------------
    \18\ See 86 Fed. Reg. 13346 (March 8, 2021)
    \19\ See id.
---------------------------------------------------------------------------
    The Committee on Transportation and Infrastructure will 
continue to oversee the Corps' implementation of all of the 
provisions enacted in WRDA 2020, and ensure these provisions 
are applied consistent with Congressional intent.

                               WITNESSES

    <bullet>  Matthew J. Strickler, Secretary of Natural 
Resources, Commonwealth of Virginia
    <bullet>  Gene Seroka, Executive Director, Port of Los 
Angeles
    <bullet>  Mary Ann Bucci, Executive Director, Port of 
Pittsburgh Commission
    <bullet>  Michael F. Piehler, Ph.D., Director, UNC 
Institute for the Environment
    <bullet>  Chad Berginnis, Executive Director, Association 
of State Floodplain Managers


   THE WATER RESOURCES DEVELOPMENT ACT OF 2020: STATUS OF ESSENTIAL 
                               PROVISIONS

                              ----------                              


                        TUESDAY, MARCH 23, 2021

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:59 a.m. in 
room 2167 Rayburn House Office Building and via Cisco Webex, 
Hon. Grace F. Napolitano (Chair of the subcommittee) presiding.
    Present in person: Mr. DeFazio, Mr. Rouzer, and Dr. Babin.
    Present remotely: Mrs. Napolitano, Mr. Huffman, Ms. Johnson 
of Texas, Mr. Garamendi, Mr. Lowenthal, Mr. Delgado, Mr. 
Pappas, Ms. Bourdeaux, Mr. Carbajal, Mr. Stanton, Ms. Norton, 
Mr. Katko, Mr. Graves of Louisiana, Mr. Weber, Mr. LaMalfa, Mr. 
Westerman, Mr. Mast, and Ms. Mace.
    Mrs. Napolitano. Good morning. I call this hearing to 
order.
    Today's hearing will focus on the Water Resources 
Development Act of 2020, and the policies we enacted in that 
legislation late last Congress. Let me begin by asking 
unanimous consent that the chair be authorized to declare 
recess at any time during the hearing.
    Without objection, so ordered.
    As the chair of today's hearing, I will make a good-faith 
effort to provide every Member experiencing connectivity issues 
an opportunity to fully participate in the proceedings. Please 
let the committee staff know as soon as possible if you are 
experiencing connectivity issues or have technical problems. It 
is the responsibility of each Member seeking recognition to 
unmute their microphone to speak. To avoid any inadvertent 
background noise, I request that every Member keep their 
microphone muted when not seeking recognition to speak. Should 
I hear any inadvertent background noise, I will stop and 
request the Member to please mute their microphone.
    And finally, to insert a document into the record, please 
have your staff email it to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="296d464a5c444c475d5a7d0f6069444840450741465c5a4c074e465f07">[email&#160;protected]</a>
    Now, to the topic of the hearing. Today, we will begin this 
subcommittee's oversight of the U.S. Army Corps of Engineers by 
discussing steps to implement the Water Resources Development 
Act of 2020. The Corps is, simply put, the Nation's premier 
water resources agency. Congress has vested the Corps with 
significant responsibility to carry out vital projects for 
navigation, flood damage reduction, ecosystem restoration, 
water supply, and a host of other very critical project 
purposes.
    It is critical that the Corps prioritize immediate 
implementation of the critical policies enacted in WRDA to 
address the protection and well-being of our communities and 
environment, as well as to meet the maintenance needs of our 
water resources infrastructure, both of which are so critical 
to our national, regional, and local economies. This committee, 
on a bipartisan basis, has successfully enacted four 
consecutive Water Resources Development Acts since 2014. 
Regular enactment of WRDAs is critical because of the 
predictability it provides to local sponsors, who partner with 
the Corps for the development of feasibility studies for future 
water resources development projects.
    At the same time, regular enactment of WRDAs also gives 
Congress the opportunity to provide regular oversight and 
direction to the Corps on how it should develop and implement 
these projects.
    The subcommittee has a very unique interest in how the 
Corps implements WRDA laws. We want to know that the Corps 
implements the law expeditiously as Congress intended, and 
ensure the Corps remains responsive to national, regional, and 
local priorities and to a changing climate with the proper 
budget to address these issues.
    WRDA 2020 demonstrated the strong bipartisan support for 
increasing the resiliency of our infrastructure, and finally 
providing the Corps with the tools outlined over a decade ago 
to address new and increasing challenges to our water 
infrastructure in a way that improves our environment, 
addresses social inequities, and stimulates economic 
opportunity.
    I am specifically interested in WRDA provisions we included 
that improve the National Dam Safety Program, the inclusion of 
nature-based alternatives, and the consideration of a 
community's water supply needs as a primary mission for the 
Corps. My district includes Corps dams built many years ago, 
over 50 years ago, that need both safety improvements and 
revisions of their outdated water control manuals to more 
effectively help communities with their water supply.
    I am also proud of policies in WRDA 2020 that will engage 
more communities, especially minority and Tribal communities, 
in the Corps process and provide them with better access to 
those beneficial projects.
    I hope those provisions addressing environmental justice 
concerns, repetitive flooding, and affordability will be among 
the top priorities for the Corps' implementation.
    I would also like to emphasize the importance of changes 
made in WRDA 2020 that unlock additional funds for harbor 
maintenance needed around the country. My region includes the 
largest ports in the Nation, the Port of Los Angeles, and the 
Port of Long Beach. I am glad to have Gene Seroka--hello, 
Gene--from the Port of Los Angeles here today to discuss the 
backlog of maintenance needs at our ports and harbors, and how 
WRDA 2020 will provide critical support in ensuring the 
viability and efficiency of our ports for decades to come.
    The committee leadership sent a letter to President Biden 
on February 12th urging the administration to move quickly to 
unlock the trust fund and spend the harbor maintenance dollars 
authorized in the bill.
    I would like to thank the entire panel of stakeholders who 
are here today who will help us to understand the impacts and 
the importance of these policies once they are fully 
implemented. As the Corps develops implementation guidance for 
the policy provisions included in WRDA 2020, your perspectives 
and insight will be critical to prioritizing issues that will 
have the greatest benefit to our Nation.
    [Mrs. Napolitano's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Grace F. Napolitano, a Representative in 
Congress from the State of California, and Chair, Subcommittee on Water 
                       Resources and Environment
    Good morning.
    Today, we will begin the Subcommittee's oversight of the U.S. Army 
Corps of Engineers by discussing steps to implement the Water Resources 
Development Act of 2020.
    The Corps is--simply put--the nation's premier water resources 
agency. Congress has vested the Corps with significant responsibility 
to carry out vital projects for navigation, flood damage reduction, 
ecosystem restoration, water supply, and a host of other project 
purposes.
    It is critical that the Corps prioritize immediate implementation 
of the critical policies enacted in WRDA to address the protection and 
well-being of our communities and environment, as well as to meet the 
maintenance needs of our water resources infrastructure--both of which 
are so critical to our national, regional, and local economies.
    This Committee, on a bipartisan basis, has now successfully enacted 
four consecutive Water Resources Development Acts since 2014.
    Regular enactment of WRDAs is critical because of the 
predictability it provides to local sponsors, who partner with the 
Corps for the development of feasibility studies for future water 
resources development projects.
    At the same time, regular enactment of WRDAs also gives Congress 
the opportunity to provide regular oversight and direction to the Corps 
on how it should develop and implement these projects.
    This Subcommittee has a unique interest in how the Corps implements 
WRDA laws. We want to know that the Corps implements the law as 
Congress intended, and ensure that the Corps remains responsive to 
national, regional, and local priorities and to a changing climate.
    WRDA 2020 demonstrated the strong, bipartisan support for 
increasing the resiliency of our infrastructure, and finally providing 
the Corps with the tools outlined over a decade ago to address new and 
increasing challenges to our water infrastructure in a way that 
improves our environment, addresses social inequities, and stimulates 
economic opportunity.
    I am specifically interested in WRDA provisions we included that 
improve the National Dam Safety Program, the inclusion of nature-based 
alternatives, and the consideration of a community's water supply needs 
as a primary mission area for the Corps. My district includes Corps 
dams built many years ago that need both safety improvements and 
revisions of their outdated water control manuals to more effectively 
help local communities with water supply.
    I am also proud of policies in WRDA 2020 that will engage more 
communities--especially minority and Tribal communities--in the Corps 
process and provide them with better access to these beneficial 
projects.
    I hope that those provisions addressing environmental justice 
concerns, repetitive flooding, and affordability will be among the top 
priorities for Corps implementation.
    I would also like to emphasize the importance of changes made in 
WRDA 2020 that unlock additional funds for harbor maintenance needs 
around the country. My region includes the largest ports in the nation, 
the Port of Los Angeles and the Port of Long Beach.
    I am glad to have Mr. Gene Seroka from the Port of Los Angeles here 
today to discuss the backlog of maintenance needs at our ports and 
harbors, and how WRDA 2020 will provide critical support in ensuring 
the viability and efficiency of our ports for decades to come.
    I would like to thank our entire panel of stakeholders who are here 
today, who will help us to understand the impacts and importance of 
these policies once they are fully implemented.
    As the Corps develops implementation guidance for the policy 
provisions included in WRDA 2020, your perspectives and insight will be 
critical to prioritizing issues that will have the greatest benefit to 
our nation.

    Mrs. Napolitano. And at this time, I am very pleased to 
yield to my colleague, the ranking member of our subcommittee, 
Mr. Rouzer, for any thoughts he may have.
    Mr. Rouzer. Thank you, Chair Napolitano, for holding this 
hearing, and thank you to our witnesses for being here today to 
discuss the important work of the Army Corps of Engineers. In 
particular, I would like to thank Dr. Michael Piehler, director 
of the Institute for the Environment at the University of North 
Carolina at Chapel Hill, for taking the time to appear with us 
today and provide his expert testimony.
    Welcome, Dr. Piehler.
    I am proud to serve on this committee, which has passed 
four major, transformational WRDA laws during the last four 
Congresses to improve our Nation's water resources 
infrastructure. Given this tremendous accomplishment, I would 
like to see the Corps expeditiously implement the significant 
reforms made by these laws. As we look forward to future water 
resources legislation, one issue that cannot be overlooked is 
the inland and coastal flooding that has occurred across the 
Nation. All areas in North Carolina, from coastal and 
surrounding counties to the mountains, have experienced 
significant flooding events on numerous occasions. Most 
recently in November, Tropical Storm Eta hit North Carolina 
hard, resulting in flooding that caused 12 deaths, required 
dozens of people to be rescued, and caused more than $20 
million in damages.
    In addition, there has been Hurricane Florence in 2018, 
Matthew in 2016, Floyd in 1999, and Fran in 1996, to name just 
a few of these devastating flood events.
    Historic flooding, such as this should spur us to reexamine 
infrastructure, to ensure it is updated and capable of 
protecting life and property. These disasters pose an important 
question to Congress: What can we do to help prevent future 
flooding? Equally important, how can we improve infrastructure 
within our States to reduce the risk of dam and levee breaches, 
flooded homes and businesses, and to better protect our coast?
    In addition to storm events, we have seen significant 
economic loss in places throughout the country where barges and 
boats can no longer navigate our inland waterways. Much of this 
waterborne commerce is dependent on infrastructure that was 
initially constructed in the 1970s, 1960s, or earlier, and it 
is quickly approaching the end of its design life.
    So, as we reflect on this flooding--the hardship and 
devastation it brings--and the other issues our Nation faces 
with aging water infrastructure, it is important for this 
committee to continue its bipartisan commitment to work and 
pass critical water resources legislation. Our citizens cannot 
afford the devastating effects of floods to their homes, farms, 
businesses, and communities. We owe the American people our 
absolute best efforts to help with this.
    I look forward to hearing about the implementation of WRDA 
2020 from our witnesses and the previous but more recent WRDAs, 
as well as hearing constructive ideas from the experts that we 
have before us today.
    [Mr. Rouzer's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. David Rouzer, a Representative in Congress 
 from the State of North Carolina, and Ranking Member, Subcommittee on 
                    Water Resources and Environment
    Thank you, Chair Napolitano, for holding this hearing, and thank 
you to our witnesses for being here today to discuss the important work 
of the Army Corps of Engineers. In particular, I'd like to thank Dr. 
Michael F. Piehler, Director of the Institute for the Environment at 
the University of North Carolina at Chapel Hill, for taking the time to 
appear here and provide his expertise today.
    I'm proud to serve on this committee, which has passed four major, 
transformational WRDA laws during the last four Congresses to improve 
our Nation's water resources infrastructure. Given this tremendous 
accomplishment, I would like to see the Corps expeditiously implement 
the significant reforms made by these laws.
    As we look forward to future water resources legislation, one issue 
that cannot be overlooked is the inland and coastal flooding that has 
occurred across the Nation.
    All areas of North Carolina--from coastal and surrounding counties, 
to the mountains--have experienced significant flooding events on 
numerous occasions. Most recently, in November, Tropical Storm Eta hit 
North Carolina hard, resulting in flooding that caused 12 deaths, 
required dozens of people to be rescued, and caused more than $20 
million in damages. In addition, there was Hurricane Florence in 2018, 
Matthew in 2016, Floyd in 1999, and Fran in 1996, to name a few even 
more devastating events. Historic flooding such as this should spur us 
to re-examine infrastructure, to ensure it is updated and capable of 
protecting life and property.
    These disasters pose an important question to Congress: what can we 
do to help prevent future flooding? And equally importantly, how can we 
improve infrastructure within our states to reduce the risk of dam and 
levee breaches, flooded homes and businesses, and to better protect our 
coasts?
    In addition to storm events, we've seen significant economic loss 
in places throughout the country where barges and boats can no longer 
navigate our inland waterways. Much of this waterborne commerce is 
dependent on infrastructure that was initially constructed in the 
1970s, 1960s, or earlier, and is quickly approaching the end of its 
design life.
    So, as we reflect on these floods--the hardship and devastation 
they bring--and the other issues our Nation faces with aging water 
infrastructure, it is important for this committee to continue its 
bipartisan commitment to work and pass critical water resources 
legislation. Our citizens can't afford the devastating effects of 
floods to their homes, farms, businesses, and communities. We owe the 
American people our absolute best efforts to help them on this.
    I look forward to hearing about implementation of WRDA 2020 and the 
previous but more recent WRDAs as well as hearing constructive ideas 
from our witnesses on addressing future water resources infrastructure 
needs.

    Mr. Rouzer. Madam Chair, I yield back.
    Mrs. Napolitano. Thank you, Mr. Rouzer.
    At this time, I am pleased to yield to the chairman of the 
full committee, Mr. DeFazio, for any thoughts he may have.
    Mr. DeFazio. Thank you, Madam Chair. We are kicking off now 
what will be the fifth consecutive 2-year reauthorization of 
the Water Resources Development Act. This was initiated by my 
predecessor and friend, Bill Shuster, after many years of 
erratic reauthorizations and long lapses many times. And I want 
to thank those who were key in this legislation last year, my 
ranking member, Sam Graves; the chair, Grace Napolitano; and 
former subcommittee ranking member Bruce Westerman; and I know 
now that Dave Rouzer is going to be a great partner, and we are 
going to get the fifth one in a row done.
    The last year authorized the construction of all 46 pending 
reports. Of course, the Corps does have a substantial backlog, 
and needs additional funding, and that is something to be 
discussed as we move forward. But regular enactment of WRDA 
sends a signal of predictability, both to the Corps and to non-
Federal sponsors that we can and will, even in a bitterly 
divided Congress, on a bipartisan basis, authorize water 
resources development projects in a transparent and efficient 
manner, and, hopefully, address local challenges, a number of 
which the ranking member mentioned regarding his State.
    It also was a finalization of something that I started 
working on not with Bill Shuster, but with Bud Shuster, his 
dad, who chaired this committee in the 1990s, and that was 
unlocking the Harbor Maintenance Trust Fund. This was a long 
struggle. Twice in the minority, when Bill was moving the bill, 
I got this committee to unanimously support unlocking the 
Harbor Maintenance Trust Fund, but twice, Speaker Ryan had the 
Rules Committee pull it out of the bill. Luckily last year, 
Speaker Pelosi was totally in concert with unlocking the Harbor 
Maintenance Trust Fund, and we finally got it done.
    And this year, I expect the Corps--the Corps has told us 
that they have the capacity to fully obligate $2 billion. That 
will be the largest 1-year expenditure that I can remember for 
the backlog of needed harbor maintenance around the country.
    And, then, I want to thank, again, my ranking member, Sam 
Graves, for joining me in a letter earlier this year to the 
Biden administration to say, please, in your budget, fully 
utilize these funds. And I am hopeful that we will see that 
reflected in the near future. It also gave some recognition to 
the inland waterways, which were also mentioned by the ranking 
member.
    I visited some that were in Conor Lamb's district that 
actually were built in the 19th century, the end of the 19th 
century. We had some great engineers back then, but these 
things have a life limit, and we are losing and have potential 
to lose critical inland navigation of the most efficient way to 
move freight, which is on water. We have got to maintain this 
fabulous system that we inherited from the very early days, 
actually, of the Republic.
    Also, we gave the Corps some new direction that they build 
and rebuild a resilience to climate-change effects. That will 
be sea level rise, severe weather events, and other issues that 
we know are going to arise with more frequency over the coming 
years, and also that the needs of economically disadvantaged, 
minority, rural, and Tribal communities are better addressed.
    There are times where the Corps has not recognized Tribes 
as sovereign nations with whom they have to have meaningful 
dialogue before moving forward with projects which impact them.
    It also directs the Corps, finally, to implement changes to 
planning guidance that Congress established in 2007--that's 14 
years. I think we can get that done. The changes in principles 
we put in will maximize sustainable development, protect and 
restore the functions of natural systems, and affordably 
address the needs of economically disadvantaged, rural, small, 
and Tribal communities, and it fully integrates resiliency into 
the Corps' planning and design process to help our communities 
meet the future challenges of changing hydrologic conditions, 
and repetitive and more frequent flooding events.
    The 2020 bill also assured that all communities, especially 
communities with socioeconomic challenges, have a path forward 
in getting the tools they need for flood protection and 
ecosystem restoration. And it finally directs the Corps to 
update its policies related to environmental justice and ensure 
water resources development projects can help to ameliorate 
disproportionate and adverse health and environmental impacts 
on low-income and minority communities and Indian Tribes.
    So Madam Chair, I thank you for holding this hearing today, 
and kicking off what I fully expect to be the fifth consecutive 
successful bipartisan reauthorization of water resources, and 
who knows, maybe even the Senate will be able to pass it this 
time without having to put it into a yearend budget deal.
    And I also, if you would just give me license, I just want 
to say that it is good to see our first witness here today, 
Matt Strickler. Matt was a key member of my staff when I was 
the ranking member on the Natural Resources Committee a number 
of years ago, and I congratulate him on the position he has 
adopted, and look forward to his testimony.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Madam Chair.
    In many ways, the Water Resources Development Act (WRDA) for 2020 
was ground-breaking in providing direction to the U.S. Army Corps of 
Engineers for carrying out critical navigation, flood damage reduction, 
and environmental restoration projects.
    First, the bill continued the tradition restarted by former Chair 
Bill Shuster of moving a new, bipartisan WRDA each Congress--
representing the fourth consecutive WRDA since 2014.
    That would not have been possible without the partnership of 
Ranking Member Sam Graves, Subcommittee Chair Grace Napolitano, and 
former Subcommittee Ranking Member Bruce Westerman, who worked hard in 
developing this critical legislation--and knowing the new Subcommittee 
Ranking Member, David Rouzer, I feel confident that this Congress we 
will enact the fifth WRDA in a row.
    WRDA 2020 also successfully authorized the construction of all 46 
pending Reports of the Chief of Engineers that were studied and 
transmitted to Congress since the last WRDA was signed into law. This 
was a record number of Chief's Reports, almost matching the number of 
authorized projects in WRDA 2016 and 2018 combined.
    Regular enactment of WRDAs send a signal of predictability to the 
Corps and to non-federal sponsors that Congress can and will, on a 
bipartisan basis, authorize water resources development projects in a 
transparent and efficient manner--and hopefully address local water 
resources challenges.
    But what sets WRDA 2020 apart from other recently enacted WRDAs is 
the significant policy reforms that were included in the bill--and in 
my mind, none was more important than one I have worked to enact for 
nearly two decades on the Harbor Maintenance Trust Fund.
    WRDA 2020 finally ensures the full utilization of the Harbor 
Maintenance Trust Fund by unlocking critical funds collected from 
shippers for harbor maintenance that have sat idle in the Trust Fund 
for decades.
    The Corps has already informed the Committee that it has the 
capability to obligate the $2 billion in critical maintenance dredging 
funds authorized in WRDA for the coming fiscal year.
    In addition, over the next decade, WRDA 2020 authorizes continually 
increasing amounts of annual maintenance funding to a point where we 
should not only spend down the estimated accrued $10 billion balance 
currently in the Trust Fund, but also address the complete backlog of 
maintenance dredging projects, for all sizes of ports, within the next 
few years.
    Ensuring that the funds collected for harbor maintenance are used 
to maintain the safety and reliability of our nation's ports is just 
common sense. And, again, I want to thank Ranking Member Graves for 
joining me in a letter earlier this year urging the Biden 
administration to make sure these funds are utilized.
    WRDA 2020 also recognizes the important role that the inland 
waterways play in our nation and provides a cost share shift to help in 
completing construction of much needed inland projects for 10 years.
    The bill will also be remembered as providing the strongest 
direction yet to the Corps on ensuring that future water resources 
development projects are both resilient to the challenges posed by 
climate change, as well as reflect the needs of economically-
disadvantaged, minority, rural, and tribal communities.
    For example, this legislation directs the Corps to finally 
implement changes to its planning guidance that Congress established in 
2007.
    These critical revisions to the Water Resources Principles, 
Requirements, and Standards will ensure that future Corps' projects 
will maximize sustainable development, will protect and restore the 
functions of natural systems, and affordably address the needs of 
economically-disadvantaged, rural, small, and tribal communities.
    In addition, WRDA 2020 further integrates resiliency into the Corps 
planning and design process, helping communities meet the current and 
future challenges of changing hydrologic conditions and repetitive and 
more frequent flooding events.
    Thanks to WRDA 2020, taxpayer dollars will be focused on robust 
infrastructure that will contribute to the resiliency of communities 
across the country, and where appropriate, utilize natural and nature-
based features for providing long term, flooding and storm damage risk 
reduction.
    WRDA 2020 also ensures that all communities, especially communities 
with socio-economic challenges, have a path forward in getting the 
tools they need for flood protection and ecosystem restoration.
    And this legislation, finally, directs the Corps to update its 
policies related to environmental justice to ensure that water 
resources development projects help to ameliorate disproportionate and 
adverse health and environmental impacts on low-income and minority 
communities and Indian tribes.
    Madam Chair, the Water Resources Development Act is essential to 
communities throughout the country that depend on the efficient, safe, 
and affordable use of ports, harbors and inland waterways.
    Our economy, our safety, and our environment will benefit from 
quick and thorough implementation of the policy reforms in WRDA 2020.
    I am proud of our work on this bill, and I urge the Biden 
administration and the Corps to quickly implement the critical reforms 
included in this transformational WRDA.

    Mr. DeFazio. With that, I yield back the balance of my 
time.
    Mrs. Napolitano. Thank you, Mr. DeFazio, and I couldn't 
agree with you more.
    We will proceed to hear from our witnesses who will testify 
with us today. Thank you for being here and welcome.
    On today's panel we have Matthew Strickler; the chair of 
the full committee just introduced him. Mr. Strickler is 
secretary of natural resources for the Commonwealth of 
Virginia.
    Gene Seroka, executive director of the Port of Los Angeles, 
California.
    Mary Ann Bucci, executive director, Port of Pittsburgh 
Commission.
    Michael Piehler, director, UNC Institute for the 
Environment.
    Chad Berginnis, executive director, Association of State 
Floodplain Managers.
    Without objection, your prepared statements will be entered 
into the record, and all witnesses are asked to limit their 
remarks to 5 minutes.
    Secretary Strickler, it is good to see you, again, and I 
truly appreciate the work you did previously for Chairman 
Grijalva, and working with me and my staff when you were on the 
House Natural Resources Committee. I am glad you are here today 
in your current role with the State of Virginia, and you may 
proceed.

    TESTIMONY OF MATTHEW J. STRICKLER, SECRETARY OF NATURAL 
    RESOURCES AND CHIEF RESILIENCE OFFICER, COMMONWEALTH OF 
  VIRGINIA; EUGENE D. SEROKA, EXECUTIVE DIRECTOR, PORT OF LOS 
ANGELES; MARY ANN BUCCI, EXECUTIVE DIRECTOR, PORT OF PITTSBURGH 
COMMISSION; MICHAEL F. PIEHLER, Ph.D., DIRECTOR, UNC INSTITUTE 
  FOR THE ENVIRONMENT; AND CHAD BERGINNIS, C.F.M., EXECUTIVE 
       DIRECTOR, ASSOCIATION OF STATE FLOODPLAIN MANAGERS

    Mr. Strickler. Well, thank you, Chairwoman Napolitano, and 
Chairman DeFazio, for your kind words and for having me here 
this morning, and Ranking Member Rouzer, as well, and all the 
members of the subcommittee. It is good to see you. I 
appreciate being here to talk today on the important topic of 
the Water Resources Development Act of 2020.
    As was mentioned, my name is Matt Strickler. I serve as 
secretary of natural resources and the chief resilience officer 
to Virginia Governor Ralph Northam.
    Virginia faces massive challenges in adapting to the new 
reality created by climate change and sea level rise. And as we 
tackle these challenges, the provisions of WRDA 2020 and 
increased Federal engagement will be crucial.
    When our special assistant for coastal adaptation and 
protection, retired U.S. Navy Admiral Ann Phillips, testified 
before this subcommittee in November 2019, she detailed the 
specific threats to Virginia's coastal communities, and I refer 
you to her statement from that hearing, as well as my longer 
written testimony that I have submitted today for that 
background.
    Admiral Phillips also outlined Governor Northam's executive 
actions to create a comprehensive framework for coastal 
planning in Virginia, and to institute the country's strongest 
flood risk management standard. Since then, we have developed 
and released the Virginia Coastal Resilience Master Planning 
Framework and are on track to complete our first project-driven 
master plan by this fall.
    We have also joined RGGI, the Regional Greenhouse Gas 
Initiative, and are dedicating nearly half of the proceeds from 
carbon allowances to our Community Flood Preparedness Fund, for 
fighting both coastal and inland flooding. These are big steps, 
but even the most proactive States can't fight this battle on 
their own.
    Virginia will need the assistance of the Federal Government 
and U.S. Army Corps of Engineers, specifically. Through the 
development of our Master Planning Framework, Virginia has 
advanced five key principles for adaptation and resilience. And 
while they are included in a coastal plan, these principles are 
largely applicable to river and flood plains as well. They also 
align with many of the reforms this committee developed in WRDA 
2020.
    First, Virginia is committed to acknowledging climate 
change and its consequences and basing decisionmaking on the 
best available science. Steps in WRDA 2020 to ensure the Corps 
quantifies efforts to address sea level rise or inland flooding 
in cost-benefit analyses will help Virginia as it weighs which 
projects it should prioritize.
    This will also help us understand the true effectiveness of 
different approaches, as well as the costs and risks associated 
with incompatible development.
    As Virginia works to identify and address socioeconomic 
inequality and enhance equity through adaptation, several 
provisions of WRDA 2020 will be useful. Directing the Corps to 
prioritize planning assistance to economically disadvantaged 
communities, and to communities subject to repetitive flooding, 
will help those that have traditionally lacked adequate 
resources. Updates to the Corps environmental justice policies 
to ensure that future projects promote meaningful involvement 
with minority communities, low-income communities, and 
federally recognized Indian Tribes, also support Virginia's 
initiatives.
    Virginia is committed to protecting and enhancing green 
infrastructure, like natural coastal barriers, and fish and 
wildlife habitat, by prioritizing natural and nature-based 
solutions. This, too, aligns with provisions of WRDA 2020. 
Supporting natural and nature-based projects by ensuring these 
alternatives are fully evaluated in any flood-risk reduction 
feasibility study carried out by the Corps is critically 
important.
    Similarly, since Virginia will utilize community and 
regional scale planning to the maximum extent possible, 
authorizing the Corps to study, design, and construct water 
resources projects for communities that have been subjected to 
repetitive flooding events and those that are receiving 
emergency flood assistance, will be helpful in directing 
resources to areas of need and to providing community scale 
planning.
    Finally, we need to understand the fiscal realities and 
focus on the most cost-effective solutions for protection and 
adaptation. Provisions of WRDA 2020 that require the Corps to 
assess and update the economic and environmental impacts of 
antiquated projects before they may be carried out is 
important, and will put Virginia on a more level playing field 
with other States as we all grapple with emerging climate 
risks.
    The policy changes from WRDA 2020 will help Virginia's 
flood preparedness efforts. While these changes are in the 
early stages of implementation, they represent major shifts in 
the Corps' approach that are necessary as to begin the daunting 
task of adapting to a rapidly changing climate. While this 
hearing is focused on implementation, we hope the subcommittee 
will consider changes in future water resources bills that will 
allow for more than 10 Corps flood risk management studies per 
year, remove the $3 million cap on such studies, and include 
Federal property in the studies. This would allow the Corps to 
play a larger and more effective role in State-level flood 
control and master planning efforts.
    Further, we would urge the Corps and the subcommittee to 
reconsider the sea level rise projections being used to 
engineer and evaluate projects. The Corps' intermediate curve 
underestimates sea level rise in Norfolk, Virginia, for 
example, by more than 2 feet in 2060, when compared to the NOAA 
intermediate high curve adopted independently by both the 
Commonwealth and the Hampton Roads Planning District 
Commission.
    I thank you for your consideration, and look forward to 
answering your questions today.
    [Mr. Strickler's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Matthew J. Strickler, Secretary of Natural 
    Resources and Chief Resilience Officer, Commonwealth of Virginia
    Chairman Napolitano, Ranking Member Rouzer and Members of the 
Subcommittee, thank you for inviting me to testify today.
    My name is Matt Strickler, and I serve as Secretary of Natural 
Resources to Virginia Governor Ralph Northam. In that capacity I 
oversee five state agencies, each of which partners with the U.S. Army 
Corps of Engineers in various capacities to protect and preserve 
natural and cultural resources.
    I also serve as the Commonwealth's designated Chief Resilience 
Officer (CRO), the primary coordinator of resilience and adaptation 
initiatives in Virginia, with a focus on addressing the consequences of 
climate change--including recurrent flooding.
    In both roles, I advance Governor Northam's agenda, which includes 
fighting climate change and related impacts, ensuring that no community 
is left behind in our adaptation and protection efforts because of 
socioeconomic disparities, and letting sound science drive decision 
making.
    As Virginia continues its proactive approach to these issues, the 
provisions of the Water Resources Development Act of 2020 (WRDA 2020) 
and increased federal engagement can provide significant assistance. I 
am glad to testify before you today on that topic.
    Please accept this testimony on the challenges Virginia faces with 
regard to climate adaptation, recurrent flooding, potential impacts of 
extreme weather and protection of lives, private property, and public 
infrastructure--including critically important green infrastructure.
                    Virginia's Climate Risk--Coastal
    Virginia's coastal region covers 8,950 square miles, or 
approximately one quarter of the state and has more than 10,000 miles 
of tidally influenced shoreline.\1\ \2\ The coastal plain extends from 
the Atlantic Ocean and Chesapeake Bay to the fall line, which runs 
approximately along Interstate 95 and marks the beginning of the 
Piedmont and the end of tidal influence in Virginia rivers.
---------------------------------------------------------------------------
    \1\ MR Berman et al., ``Virginia--Shoreline Inventory Report: 
Methods and Guidelines, SRAMSOE No. 450.'' (Comprehensive Coastal 
Inventory Program, Virginia Institute of Marine Science, 2016).
    \2\ ``State of the Coast: A Report for the Governor's Coastal 
Climate Resiliency Plan'' (Center for Coastal Resources Management, 
June 2019).
---------------------------------------------------------------------------
    Recent estimates show that 250,000 acres of land, 1,469 miles of 
roads, and property valued at $17.4 billion lie less than five feet 
above the high tide line in Virginia. Within nine feet of high tide, 
these figures jump to 490,000 acres, 4,500 road miles, and $54.8 
billion.\3\ A changing climate puts all of this at tremendous risk.
---------------------------------------------------------------------------
    \3\ Ben Strauss, Claudia Tebaldi, and Scott Kulp, ``Virginia and 
the Surging Sea: A Vulnerability Assessment with Projections for Sea 
Level Rise and Coastal Flood Risk'' (Princeton, NJ: Climate Central, 
September 2014), https://sealevel.climatecentral.org/uploads/ssrf/VA-
Report.pdf.
---------------------------------------------------------------------------
    Coastal Virginia has some of the highest relative sea level rise 
rates in the United States due to the combined effects of sea level 
rising and land subsiding.\4\ Using the National Oceanic and 
Atmospheric Administration's (NOAA) Sewell's Point tide gauge in 
Norfolk as the primary tidal data reference, Virginia has experienced 
more than 18 inches of relative sea level rise in the past 100 
years.\5\
---------------------------------------------------------------------------
    \4\ Christopher G. Piecuch, ``Origin of Spatial Variation in US 
East Coast Sea-Level Trends during 1900-2017,'' Nature, 2018.
    \5\ ``Sea Level Trends--NOAA Tides & Currents. Sewell's Point VA 
Station.,'' 2019, https://tidesandcurrents.noaa.gov/sltrends/
sltrends_station.shtml?id=8638610.
---------------------------------------------------------------------------
    Multiple studies, including those from the United Nations 
Intergovernmental Panel on Climate Change (IPCC), the National Climate 
Assessment, and NOAA Technical Report: Global and Regional Sea Level 
Rise Scenarios for the United States, report that sea level will 
continue to rise at an accelerating rate. The NOAA 2017 Relative Sea 
Level Change Scenarios for Sewell's Point (Fig. 1) predict as much as 
6.69 feet of relative sea level rise by 2100 based on the Intermediate 
High Scenario.
    Recurrent flooding in the Hampton Roads region of Virginia 
increased from 1.7 days of flooding per year in 1960 to 7.3 days per 
year in 2014.\6\ Estimates project the influences of wind and coastal 
storms could increase this number to 200 per year by 2049.\7\ Coastal 
Virginia is also vulnerable to flooding due to higher water tables as 
the sea level rises.
---------------------------------------------------------------------------
    \6\ W.V. Sweet and J Park, ``From the Extreme to the Mean: 
Acceleration and Tipping Points of Coastal Inundation from Sea Level 
Rise.,'' Earth's Future 2, no. 12 (2014): 579-600, https://doi.org/
10.1002/2014EF000272.
    \7\ A. G. Burgos et al., ``Future Nuisance Flooding in Norfolk, VA, 
From Astronomical Tides and Annual to Decadal Internal Climate 
Variability,'' Geophysical Research Letters 45, no. 22 (November 28, 
2018): 12,432-12,439, https://doi.org/10.1029/2018GL079572.
---------------------------------------------------------------------------
    The impacts of sea level rise and flooding are magnified by 
population density: Virginia's coastal region is home to more than 70 
percent of our population.\8\ Coastal regions across the United States 
are seeing population increases, with the U.S. Department of Commerce 
estimating that 47 percent of the U.S. population lives along 
coastlines, putting a significant portion of the public at risk.\9\
---------------------------------------------------------------------------
    \8\ Annual Estimates of the Resident Population for Counties in 
Virginia: April 1, 2010 to July 1, 2019 (CO-EST2019-ANNRES-51) Source: 
U.S. Census Bureau, Population Division. Release Date: March 2020
    \9\ ``National Coastal Population Report: Population Trends from 
1970 to 2020.'' (U.S. Department of Commerce, NOAA's Office of Coastal 
Management, 2018).
---------------------------------------------------------------------------
                   Virginia's Climate Risk--Riverine
    Virginia also has tremendous riverine flooding risk outside of the 
coastal zone, home to an estimated 3.4 million Virginians. Inland 
flooding in the Commonwealth is characterized slightly differently than 
coastal flooding, although the hazard and threat to safety is equal in 
comparison. There are 52,232 miles of free-flowing streams and rivers 
within the Commonwealth. Riverine flooding occurs when rain events or 
rapid snowmelt add more water into a waterway than it can hold. 
Subsequently the water rises, overtopping the river bank, and flooding 
agricultural fields, roads, or populated areas.
    Unchecked development, expanded impervious surfaces, poorly 
maintained run of river or agricultural dams and flood control 
infrastructure coupled with more intense rainfall events has 
contributed to increase inland flooding risk in Virginia, just as it 
has along our coast.
    Virginia's non-coastal localities include 66 counties and 21 
independent cities, all at risk from riverine flooding. Approximately 
599,460 properties are at risk of flooding within 30 years, which is 
27.3% of the total number of properties across the Commonwealth \10\. 
This part of the state also needs immediate attention to ensure long-
term climate resilience.
---------------------------------------------------------------------------
    \10\ (https://floodfactor.com/state/Virginia/51_fsid)
---------------------------------------------------------------------------
    In February 2020, southwest Virginia communities had severe 
flooding after experiencing heavy rain, requiring some residents to be 
rescued from their homes and resulting in damaged buildings and road 
closures.
    Tides can also impact flood risk, and they're not only found along 
the coast. Tidal waters extend inland to places like Richmond and 
Fredericksburg, as well as north, like Alexandria and Arlington, just 
five miles from the US Capitol.
    Hurricanes don't strike just coastal Virginia. In recent years, 
they hit much more of the state. In 2018, Hurricanes Florence and 
Michael tore through central and western areas of the state. During 
Hurricane Michael, the Dan River region alone suffered roughly $12.9 
million in damages. Floods aren't limited to mapped flood risk areas 
either. In fact, many of the 2,000 homes that were flooded in 2016 
during Hurricane Matthew were outside the mapped floodplain. In 2018, 
Hurricanes Florence and Michael tore through central and western areas 
of the state. During Hurricane Michael, the Dan River region alone 
suffered roughly $12.9 million in damages.
    Flooding is a statewide issue that will require a variety of 
solutions as climate impacts become more severe. This is why Virginia 
has implemented the Virginia Flood Risk management Standard (The 
VFRMS). The VFRMS is the strongest flooding elevation standard in the 
nation, setting a minimum first floor elevation, or freeboard, above 
the projected base-flood height. In addition to the VFRMS, Governor 
Northam issued Executive Order 45 which says that, State-owned 
buildings are not allowed to be constructed within flood-prone areas 
without a variance. While the VFRMS sets a freeboard standard for these 
areas, the Commonwealth will avoid building in natural floodplains and 
flood-prone areas whenever possible.
    Virginia faces a serious threat to public safety and economic 
viability from the various impacts of climate change. Storm surge from 
tropical storms and hurricanes, sea level rise, nuisance flooding, 
riverine flooding, altered hydrology, and their impacts on poorly 
planned development are just some of the issues we must address to 
ensure a resilient, thriving Virginia for generations to come. Virginia 
is taking immediate action to solve this problem. We are counting on 
the federal government and the U.S. Army Corps of Engineers to assist 
us.
                             Taking Action
    From its first cities to its fishing and farming communities, 
coastal Virginia faces massive challenges in adapting to the new 
reality created by climate change and sea level rise. We know this 
because of decades of observation and scientific research, and from 
modeling that shows what we can expect in the future. We also know the 
following:
    <bullet>  These challenges differ by region, locality, 
neighborhood, and individual, as does capacity to address them.
    <bullet>  Current federal, state, regional, and local efforts are 
insufficient to achieve a resilient coast, and are not aligned.
    <bullet>  In most cases, more work is necessary to identify the 
suite of possible solutions to specific problems posed by coastal 
hazards.
    <bullet>  There is not, nor will there ever be, enough funding to 
protect all homes, businesses, infrastructure, and other coastal assets 
where they currently exist.
    <bullet>  Low-income and minority communities are particularly 
vulnerable due to a number of factors.

    Recognizing the adaptation challenges coastal Virginia faces, 
Governor Northam signed Executive Order Number Twenty-Four (EO-24), 
Increasing Virginia's Resilience to Sea Level Rise and Natural Hazards, 
on November 2, 2018. Section 2A of EO-24 states that ``The Commonwealth 
of Virginia has a responsibility to assist local governments in 
reducing flood risk through planning and implementing large scale flood 
protection and adaptation initiatives.'' It also requires that ``The 
Chief Resilience Officer, with the assistance of the Special Assistant 
to the Governor for Coastal Adaptation and Protection, shall create and 
implement a Coastal Resilience Master Plan for coastal Virginia to 
reduce the impacts of tidal and storm surge flooding.''
    In October 2020, Governor Northam released the Virginia Coastal 
Master Planning Framework. This Framework is the result of a nearly 
two-year process initiated by the Governor in EO-24, involving state 
agencies, key stakeholders, and local and regional partners to develop 
mitigation strategies that will reduce the near-term and long-term 
impacts of natural hazards and extreme weather. This document is a 
roadmap that puts the full strength of the Commonwealth into creating a 
comprehensive Coastal Resilience Master Plan that will protect 
communities, commerce, and the coastal environment. The approach 
recognizes the scientific and fiscal realities--and challenges--that 
underserved communities in both urban and rural areas are facing, and 
emphasizes local and regional efforts to combat flooding and protect 
people and assets. The goal of the Master Planning exercise is to have 
a completed, project oriented Coastal Master Plan by the end of 2021.
    To reduce climate pollution, the Commonwealth of Virginia became 
the first southern state to join the Regional Greenhouse Gas Initiative 
(RGGI), a market-based collaborative effort among Northeast and Mid-
Atlantic states to combat climate change and reduce greenhouse gas 
emissions from the power sector, while driving economic growth.
    Legislation passed during the 2020 General Assembly session will 
permit Virginia to use 45 percent of the proceeds generated from the 
auction for community flood preparedness and coastal resilience, while 
the remainder of funds will be directed towards energy efficiency 
programs \11\.
---------------------------------------------------------------------------
    \11\ [Editor's note: the witness' testimony did not list a footnote 
for reference 11.]
---------------------------------------------------------------------------
    The RGGI proceeds directed towards resilience will fund project 
implementation, planning, research, and monitoring via the Community 
Flood Preparedness Fund Administered by the Virginia Department of 
Conservation and Recreation (DCR). DCR is also responsible for dam 
safety and floodplain management in Virginia.
       Resilience Planning, Federal Assistance and the Army Corps
    Virginia provides an interesting case study with regard to the 
state-federal partnership on disaster planning. Virginia has tremendous 
risk and is already being impacted by the effects of climate change and 
sea level rise, yet Virginia is far behind other states in disaster 
planning and federal aid to do so. This is due to several factors:
    <bullet>  Virginia has no designated federal funding source for 
flood preparedness or climate adaptation.
    <bullet>  Virginia has not had a major disaster in recent years, 
and therefore does not have significant post-disaster funding with 
which to prepare for future conditions.
    <bullet>  Virginia does not have a set of Army Corps flood control 
projects to provide the tentpoles for a coastal master plan.
    <bullet>  It is unclear how ongoing Army Corps feasibility studies 
for flood control projects in Virginia will inform our master planning 
effort or provide direction for proactive adaptation consonant with 
Virginia's goals of using natural and nature-based solutions at a 
community scale to benefit all communities regardless of socioeconomic 
standing.

    As such, Virginia's experience is likely to be similar to many 
coastal states that are moving quickly to enhance their resilience 
efforts. Unlike states like Louisiana, Texas or New Jersey, Virginia 
has been given little support or direction from the federal government 
with regard to long term climate adaptation planning. In part due to 
lack of federal leadership under the prior administration, and in part 
because of the relative newness of the threat, Virginia is charting its 
own course and starting from scratch.
    This has meant that in Virginia, localities and regions often are 
left to create their own plans. Some communities fare well, while 
others are left behind, and plans that do not take a broad view of 
impacts to neighboring jurisdictions and state and federal trust 
resources can have unintended negative consequences. This is why this 
type of planning must be done at the state and federal level, and the 
Corps must play a major role in helping to coordinate efforts and 
initiate feasibility studies and projects that protect our communities 
from flood hazards.
    Nonetheless, we are hopeful those dynamics are changing. President 
Biden has taken bold and decisive action to reduce U.S. carbon 
emissions, and to reposition the United States as a global leader in 
the fight against climate change. These steps are welcome, necessary, 
and long overdue, and the impressive climate team the President is 
assembling inspires confidence that there is much more to come.
    Recent actions by the U.S. Congress will continue to bolster our 
efforts. In the case of this committee, the reforms of WRDA 2020 align 
with our priorities for resilience planning and we are confident that 
full implementation of these reforms will help states like Virginia 
catch up in the race to adapt to a warming climate and rising seas.
        Virginia's Coastal Resilience Master Plan and WRDA 2020
    The purpose of the Coastal Resilience Master Plan (Master Plan) 
will be to reduce risk to people and property by anticipating and 
preparing for sea level rise and coastal flooding, while ensuring 
equitable treatment for all communities, and protecting the coastal 
environment.
    Understanding that significant changes are inevitable, the Master 
Plan will identify coastal adaptation and protection strategies and 
projects that keep coastal Virginia's communities, economy, and 
environment vibrant. Achieving this will require strengthening relevant 
laws and policies, leveraging funding opportunities, and coordinating 
resilience activities across local, state and federal programs.
    WRDA 2020 took steps to expand the ability of the Corps to provide 
local governments with direct resilience planning assistance (at no 
cost to the local government through the Corps' Flood Plain Management 
Services) to avoid repetitive flooding impacts, to prepare and adapt to 
climate change and extreme weather events, and to quickly recover from 
flooding events. Virginia hopes that this new program will help 
communities across the state create local resilience plans, as 
communities will be required to create plans before receiving project 
grants for the aforementioned Community Flood Preparedness Fund.
    The Norfolk Division of the Corps is an active and valuable 
participant in the Master Plan Technical Advisory Committee (TAC) and 
through that venue we hope to connect them with communities in need of 
planning assistance.
    Additional reforms from WRDA 2020 and ways their implementation 
will be of benefit are best understood through the lens of the five 
goals of Virginia's Coastal Master Plan:
Master Plan Goal 1: Acknowledge climate change and its consequences and 
        base decision-making on the best available science.
    Before Governor Northam took office, Virginia slowly advanced 
efforts to study and mitigate coastal flooding without stating 
unequivocally that climate change is the root cause of the problem. 
This approach, born of political necessity, hampered honest dialogue 
and broader understanding of the challenges we face.
    Developing resilience in Virginia's coastal localities requires 
understanding that the challenges are long-term, continually evolving, 
and varied. In order to be comprehensive and effective, our coastal 
adaptation and protection efforts must incorporate climate science. 
Decision making with regard to state and regional approaches, as well 
as specific projects, must be based on the best available information 
and relevant science. Through the Master Plan, the Commonwealth will 
adopt this approach, and will require the same of localities.

        Steps in WRDA 2020 to ensure the Corps will accurately assess 
        and quantify efforts to address potential sea level rise or 
        inland flooding when doing costs & benefit analyses for future 
        water resources projects will provide helpful as Virginia 
        weighs which projects it should prioritize for federal funding 
        requests and in the Master Plan prioritization. It will also 
        help elected officials better understand the true costs and 
        risks associated with climate change adaptation. This includes 
        understanding the potential negative impacts of traditional 
        grey infrastructure and the additional benefits of nature-based 
        infrastructure.
Master Plan Goal 2: Identify and address socioeconomic inequities and 
        work to enhance equity through coastal adaptation and 
        protection efforts.
    Across the globe and throughout history, racial and ethnic 
minorities and economically disadvantaged groups have been forced to 
inhabit the most marginal lands. In coastal areas, this often means 
lands most susceptible to flooding. The United States saw the acute 
consequences of this inequity clearly during and after major coastal 
disasters like Hurricane Katrina in 2005, Superstorm Sandy in 2012, and 
Hurricane Harvey in 2017. Chronic flooding is also an increasing 
problem for Alaska Native villages and communities like Louisiana's 
Isle de Jean Charles Tribe, that are becoming some of the world's first 
climate refugees.\12\ \13\
---------------------------------------------------------------------------
    \12\ ``Our Land and Water: A Regional Approach to Adaptation'' (LA 
Safe: Louisiana's Strategic Adaptation for Future Environments, April 
2019), https://s3.amazonaws.com/lasafe/Final+Adaptation+Strategies/
Regional+Adaptation+Strategy.pdf.
    \13\ Josh Haner, ``Carbon's Casualties: Resettling the First 
American `Climate Refugees,' '' The New York Times, October 26, 2016, 
sec. World, https://www.nytimes.com/interactive/2020/admin/
100000004731523.embedded.html?
---------------------------------------------------------------------------
    Similar issues exist in Virginia. We have coastal cities with 
significant African American populations, economically stressed rural 
coastal areas, and Native American communities with at-risk 
reservations and ancestral tribal lands. While discrete initiatives 
like the Ohio Creek Watershed Project in Norfolk are making headway in 
addressing inequity in coastal resilience, we must do more as we 
consider adaptation and protection strategies across the entire coastal 
zone. Governor Northam has created the Virginia Council on 
Environmental Justice, hired the nation's first state level Diversity, 
Equity and Inclusion Officer and taken additional steps to ensure that 
no Community is left behind when planning for rising waters and 
environmental protection.
    The Master Plan will promote coastal resilience strategies and 
projects that specifically address racial and economic inequities. We 
have the information necessary to identify the location of affected 
communities and the risks they face. We will work with these 
communities to plan, implement, and support successful and lasting 
adaptation and protection strategies. We must begin now to develop 
these strategies, which in some cases will include relocation from 
places that are or will become uninhabitable.

        There are several provisions of WRDA 2020 that could provide 
        useful in this effort. Directing the Corps to prioritize 
        planning assistance to economically disadvantaged communities 
        and communities subject to repetitive flooding events will help 
        those communizes that have thus far lacked the resources to 
        plan for this emerging threat. Virginia's Community Flood 
        Preparedness Fund will also seek to assist these communities by 
        ensuring that 25% of funds are directed to low income 
        communities.

        Requiring the Corps update its environmental justice policies, 
        regulations, and guidance to ensure that future water resources 
        development projects promote the meaningful involvement of 
        minority communities, low-income communities, and federally-
        recognized Indian Tribes is also in concert with state 
        initiatives.
Master Plan Goal 3: Recognize the importance of protecting and 
        enhancing green infrastructure like natural coastal barriers 
        and fish and wildlife habitat by prioritizing nature-based 
        solutions.
    The bounty and beauty of coastal Virginia's lands and waters have 
made the area an economic hub and a desirable place to live for 
thousands of years. While commerce has diversified from exclusively 
resource-based and agrarian pursuits, fishing, farming, forestry, and 
shellfish propagation still support many livelihoods and are a 
significant component of coastal Virginia's cultural identity. These 
occupations are also heavily dependent on environmental conditions and 
the integrity of coastal landscapes and ecosystems.
    Further, science shows us that protecting and enhancing natural 
coastal areas is critical not only to support continued production of 
renewable resources, but also to protect other key components of our 
economy and communities. Barrier islands, beaches, dunes, wetlands, 
coastal forests, and even oyster reefs and seagrass beds offer 
significant and quantifiable resilience benefits at a significantly 
lower cost than shoreline hardening. These natural features also 
provide the additional benefits of protecting water quality and habitat 
for fish and wildlife. The Master Plan will support the mutually 
reinforcing goals of coastal resilience and environmental protection by 
prioritizing the protection and enhancement of green infrastructure and 
the use of natural and nature-based solutions where effective.

        This too aligns with the provision of WRDA 2020. Reaffirming 
        the commitment to greater use of natural and nature-based 
        projects by ensuring natural and nature-based alternatives are 
        fully evaluated in any flood or storm risk-reduction 
        feasibility study carried out by Corps is important and will 
        provide helpful when Virginia seeks Corps projects to further 
        the Master Plan.

        We are also pleased that WRDA 2020 directed the Secretary of 
        the Army for Civil Works to issue final agency procedures for 
        its Principles, Requirements, and Guidelines (PR&G). The PR&G 
        will ensure that future water resources development projects 
        maximize sustainable development, protect and restore the 
        functions of natural systems, and fully-evaluate environmental, 
        economic, and societal goals, in addition to addressing 
        environmental justice concerns and ensuring meaningful 
        participation of locally-affected communities.
Master Plan Goal 4: Utilize community and regional scale planning to 
        the maximum extent possible, seeking region-specific approaches 
        tailored to the needs of individual communities.
    The Master Plan will recognize that while each region, locality, 
and community in coastal Virginia has unique characteristics, they face 
many similar challenges from sea level rise and other coastal hazards. 
A piecemeal approach to coastal resilience creates duplication of 
effort, zero-sum competition for limited resources, unintended negative 
consequences, and loss of opportunities to accomplish at scale what 
cannot be done by individual localities. Effective resilience planning 
requires collaboration, coordination, and communication at all levels 
of government, and across physical and administrative boundaries.
    The Commonwealth has a responsibility through the Master Plan to 
enhance resilience efficiently by prioritizing and coordinating 
activities among local, regional, state, and federal partners, and by 
seeking and leveraging funding opportunities to implement strategic 
coastal adaptation and protection solutions. In order to accomplish 
this, we will develop the Master Plan at regional scales, building on 
local and regional planning efforts. We will encourage creativity and 
collaboration to find solutions to local problems that fit the 
Commonwealth's broader view of resilience, while discouraging 
activities that have unintended negative consequences locally, for 
other communities, or for the environment.

        Authorizing the Corps to study, design, and construct water 
        resources projects for communities that have been subjected to 
        repetitive flooding events and have received emergency flood 
        assistance will be helpful in directing resources to areas of 
        need and to providing community scale planning. This, combined 
        with the previously mentioned reforms from WRDA 2020 will help 
        ensure that authorized projects use natural features and 
        protect entire communities, rather than just individual 
        structures.

        This authority will also help repetitive loss communities, 
        especially those in economically disadvantaged areas, obtain 
        critical flood protection, tailored to benefit their community 
        and reduce relative risk.
Master Plan Goal 5: Understand fiscal realities and focus on the most 
        cost-effective solutions for protection and adaptation of our 
        communities, businesses, and critical infrastructure.
    We must recognize that protecting every component of the built 
environment exactly where it stands today is not realistic. Science 
shows clearly that, even if aggressive reduction targets for greenhouse 
gas emissions are met, response times in the natural system will result 
in rising global temperatures and sea levels for many decades to 
come.\14\ In time, some homes, businesses, roads, and communities will 
become uninhabitable as sea level rises. This includes not only the 
underserved communities mentioned above, but wealthier communities as 
well. The nature of Virginia's coastal zone means structural solutions 
will not be practical for much of the area. Fiscal reality means we 
will never have adequate resources to armor and/or elevate large 
sections of our coastline. Further, doing so is undesirable because it 
would fundamentally alter and degrade the Chesapeake Bay and the 
ecosystems that support coastal Virginia's economy and define its 
culture.
---------------------------------------------------------------------------
    \14\ K Hayhoe et al., ``Climate Models, Scenarios and 
Projections,'' In: Climate Science Special Report: Fourth National 
Climate Assessment, Volume I, 2017 [Wuebbles, D.J., D.W. Fahey, K.A. 
Hibbard, D.J. Dokken, B.C. Stewart, and T.K. Maycock (eds.)]. U.S. 
Global Change Research Program, Washington, DC, USA, pp. 133-160, 
https://doi.org/10.7930/J0WH2N54.
---------------------------------------------------------------------------
    Acknowledging these realities, the Master Plan will prioritize use 
of natural and nature-based features to protect infrastructure that is 
critical for national security, public health and safety, and the 
economy. Using the best scientific and economic information available, 
the Master Plan will promote structural protective measures only when 
the science shows that green infrastructure will not offer sufficient 
protection, and that relocation is not possible.
    We have the knowledge and tools to identify which areas are most 
vulnerable, and which adaptation and protection approaches are most 
appropriate. We will use this information to engage and align as many 
existing local, state, and federal programs as possible to support 
development of a detailed Master Plan that is consistent with these 
guiding principles.

        There are many facets to this goal. To understand fiscal 
        realities of the Army Corps, one must look at the backlog of 
        unfunded projects and recognize that many of those projects no 
        longer support the resilience goals of state and federal 
        governments. Provision of WRDA 2020 that require the Corps to 
        assess and update the economic and environmental impacts of 
        antiquated projects before they may be carried out is important 
        and will put a state like Virginia on a more level playing 
        field with other states as we all grapple with emerging climate 
        risks.

        In addition, these increasing risks will require the need for 
        more projects and feasibility studies. A rising tide waits for 
        no one, and certainly our cities and counties cannot wait while 
        the Corps limits the number of studies to 10 per year, and 
        limits spending on studies to $3 million. This subcommittee 
        should consider allowing for changes in these limits with 
        regard to state-level flood control and master planning 
        efforts.
                       Additional Recommendations
    The various policy changes from WRDA 2020 previously mentioned are 
all important insofar as they represent directional shifts in the Army 
Corps' approach, and how the federal government evaluates and 
implements water resource projects. These changes are in the nascent 
stages of rollout and implementation, and we hope that they will be of 
great benefit to Virginia and other states as we begin the daunting 
task of adapting to a rapidly changing climate and increasing risk from 
natural disasters and extreme weather.
    Going forward, Congress must continue to push the Army Corps to 
modernize and to expand. States and local governments need more 
assistance for adaptation and mitigation planning generally. 
Specifically, we need the Corps to do more. We need more studies, more 
engagement, more solutions. Many states, like Virginia, will seek to 
implement programs that rely on natural and nature-based 
infrastructure, are community-wide and protect all types of 
communities, leaving none behind.
    There is still much work to be done. States like Virginia are 
stepping up to do their part, and we appreciate and value the 
assistance we receive from the U.S. Congress and the Army Corps. We 
appreciate the subcommittee's interest in continuing to pursue policies 
and reforms like these, which will be critical if states are able to 
meet the flooding and resilience challenges that we face.

    Mrs. Napolitano. Thank you very much, Mr. Strickler.
    And now we proceed to Mr. Seroka. It is good to see you and 
thank you for being here today and for representing the Port of 
Los Angeles, as well as hundreds of other ports in the Nation. 
Thank you for your advocacy for many years on harbor 
maintenance issues that are very important to the Nation, and 
thank you for your recent work guiding the port through the 
challenges of COVID on our port economy, public health, and 
national economy.
    You may proceed.
    Mr. Seroka. Thank you, and good morning, Chair DeFazio, 
Chairwoman Napolitano, Ranking Member Rouzer, members of the 
House Subcommittee on Water Resources and Environment, and 
other distinguished Members of Congress. Before I begin, I 
would like to take this opportunity to congratulate you, 
Chairman DeFazio, for your recent recognition as port person of 
the year by the American Association of Port Authorities. As 
well, congratulations to you, Chairwoman Napolitano, for 
receiving the U.S. Army Corps of Engineers Gold de Fleury Medal 
for your support of U.S. Army Corps projects.
    The passage of the Water Resources Development Act of 2020 
stands as a memorial for both your courage and boldness in 
pursuing reforms that are beneficial for ports and harbors 
across the United States. Thank you for this opportunity to 
testify this morning.
    My name is Eugene D. Seroka, and I am the executive 
director at the Port of Los Angeles. I also concurrently serve 
as president of the California Association of Port Authorities, 
and as board member of the American Association of Port 
Authorities.
    The Port of Los Angeles is the Nation's largest and busiest 
container port. The cargo that traverses our port reaches each 
and every one of our 435 congressional districts. This truly is 
a conversation of national significance. In 2020, we managed 
more than 9.2 million container units, which generated over 
$275 billion in economic impact, and nearly 1.6 million jobs 
nationwide.
    On average, the Port of Los Angeles accounts for over $200 
million per year in receipts that go into the Harbor 
Maintenance Trust Fund. We are grateful for the work that your 
staff and you have done to open the use of the HMTF through the 
recent passage of WRDA 2020.
    This landmark legislation included reforms we, and the 
broader port community, have sought for the last 10 years, 
including full use of HMTF revenues, a fair and equitable 
allocation framework, and expanded uses. Full use of annual 
revenues in the unspent fund balance will increase funding and 
accessibility for all types of ports across the country at a 
time when we need to invest in the competitiveness of our 
Nation's ports.
    A fair and equitable allocation framework ensures that 
every port region of the country, including traditional dredge 
ports, emerging harbors, and donor ports alike, will receive a 
fair share of the HMTF expenditure each year.
    WRDA's 2020 expanded uses definition enables ports like 
ours to address urgent maintenance needs. While we do not 
require frequent dredging, the new eligible uses will allow us 
to address $300 to $500 million worth of in-water maintenance 
projects over the next 10 years, including wharf repairs, 
replacement of berthing structures, and the all-important 
seismic upgrades.
    These reforms have an impact, and it is imperative that 
Congress and Federal agencies take additional steps. First, I 
urge Congress to implement the HMTF budget cap adjustment 
initially included in the CARES Act, and expanded in WRDA 2020. 
This will give the Army Corps of Engineers the full prior 
year's HMTF revenues, and the scheduled amounts of unspent 
collections.
    Second, as you develop spending plans for the next year, I 
urge you to implement WRDA's HMTF distribution approach. This 
would minimize any disruption to planned maintenance repairs 
and projects across the country. And third, with respect to 
donor ports, the new funding distribution mechanism for HMTF 
collections should model the system in place for section 2106. 
The protocol that we use with the Corps works well, and using 
an existing model can help avoid unintended consequences that 
may delay funding disbursements.
    Once again, thank you for the opportunity to testify on the 
importance of WRDA implementation. The port industry 
represented by AAPA stands unified in support.
    With that, I will conclude my testimony, and I would be 
happy to entertain any questions from the subcommittee.
    [Mr. Seroka's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Eugene D. Seroka, Executive Director, Port of Los 
                                Angeles
                              Introduction
    Chairwoman Napolitano, Ranking Member Rouzer, Members of the House 
Subcommittee on Water Resources and Environment, and other 
distinguished Members of Congress, thank you for your ongoing 
leadership and commitment to enacting reforms to Harbor Maintenance 
Trust Fund (HMTF) expenditures in the Water Resources Development Act 
(WRDA) of 2020. Your continued support sends an important message that 
maintaining our Nation's ports, harbors, and waterway infrastructure is 
a high priority.
    WRDA 2020 represents landmark legislation that unlocks over $9.3 
billion in unspent HMTF revenues, establishes a fair and equitable 
funding allocation framework, and promotes competitiveness for U.S. 
ports. I would also take a moment to thank the staff for their public 
service. Ryan Seiger and Camille Touton of the committee staff, and Joe 
Sheehy of Chairwoman Napolitano's personal staff, were instrumental in 
addressing the port industry's concerns and striking the balance 
required for such a legislative achievement. I realize that no bill of 
this size, scope, and significance gets done without very dedicated 
staff and I hope they know how much they are appreciated. I understand 
Ms. Touton has moved to the administration and we look forward to 
working with Alexa Williams in her new role on the committee staff.
    Thank you for inviting me to testify today on the implementation of 
WRDA 2020. I am Eugene D. Seroka, Executive Director of the Port of Los 
Angeles. With more than 33 years of experience in the maritime shipping 
industry, the last seven as a port executive director, I have first-
hand knowledge of the maintenance needs of our Nation's ports, and I 
understand the port industry's desire to see the HMTF better serve our 
ports. While the well-worn saying, ``If you've seen one port, you've 
seen one port,'' continues to ring true, and each port will have a 
unique set of challenges and needs, the port community has been unified 
in their push to put HMTF dollars to good use. The HMTF is needed for 
ports to maintain their infrastructure, stay competitive, and continue 
to serve as economic enablers for the American economy.
                  The Case of the Port of Los Angeles
    The reforms you included in WRDA 2020 will benefit the Port of Los 
Angeles--and by extension, the entire national supply chain. Together 
with our neighboring port in Long Beach, we constitute the San Pedro 
Bay Port Complex and handle nearly 40 percent of all containerized 
imports and 30 percent of all containerized exports for the Nation. 
Last year, our combined cargo volume totaled more than 17.3 million 
Twenty-Foot Equivalent Units (or TEUs, the standard measure of 
container cargo), accounting for nearly $300 billion worth of trade. 
This cargo touches every one of the 435 Congressional districts across 
the country, connecting them with 160 countries across the globe.
    Container throughput at the Port of Los Angeles alone topped 9.2 
million TEUs in 2020. We estimate that this cargo supports more than 
144,000 jobs (about one in 13 jobs) in the City of Los Angeles, 517,000 
jobs (or one in 17 jobs) in the five-county Southern California region, 
and 1.6 million jobs nationally. These estimates include direct, 
indirect, and port-related jobs.
    Our local, regional, and national impact are all enabled by our 
world-class infrastructure. The operational scale of the Port of Los 
Angeles is immense: 27 terminals, 270 berths, roughly 200,000 unique 
shippers, 1,654 annual ship calls, 100 daily trains, and 60,000 daily 
truck moves. Maintaining the infrastructure at our port is critical to 
maintaining our competitiveness and role as an economic engine. 
However, the historic defined uses of HMTF expenditure prevented the 
Port of Los Angeles from accessing this important funding source, even 
as we served as the largest single collection point for HMTF revenue 
among U.S. seaports. This is how we came to be known as an HMTF ``donor 
port.'' By way of example, in 2018 and 2019, the Port of Los Angeles 
accounted for $224.5 million and $206.6 million of HMTF revenue 
respectively but received less than 3 percent in return per year (via 
Section 2106 funding for limited expanded uses).
    This changed with the reforms approved in WRDA 2020. For donor 
ports, like the Port of Los Angeles, HMTF dollars and Section 2106 
funds can now be used for ``expanded uses'', such as dredging of 
channels, in-water infrastructure improvements, berth maintenance, and 
building seismic resiliency. These funds will be used:
    <bullet>  To repair damaged concrete wharfs at our seven container 
terminals;
    <bullet>  To replace deteriorated berthing structures at our five 
marine oil terminals;
    <bullet>  To replace and seismically upgrade dry bulk terminals, 
our cruise ship, and ferry ship facilities; and
    <bullet>  For environmental remediation of legacy sites, while also 
maintaining the authorized depth of the entire Port of Los Angeles 
complex to support safe and efficient operations.

    The benefits of these expanded uses will extend to the national, 
state, regional, and local economy supported by our Port Complex. 
Expanded uses for donor ports serves as one example of how the reforms 
included in WRDA 2020 will benefit the Nation's ports. As referenced 
earlier, the entire port industry coalesced around comprehensive HMTF 
reform, including full use of HMTF revenues, fair and equitable 
allocation of funds, and expanded uses. The significance of each of 
these reforms is important to understand.
              Full Utilization and Spend Down of the HMTF
    Approximately $1.7 billion is collected annually and deposited into 
the HMTF. Historically, these revenues are not fully expended. While 
the Water Resources Reform and Development Act (WRRDA) of 2014 did 
establish expenditure targets, which resulted in a steady increase in 
the percentage of HMTF annual revenues expended, full use of the HMTF 
revenue has remained elusive. As a result, the HMTF has a balance of 
approximately $9.3 billion in collected tax revenues, with estimates it 
will reach $14 billion in 10 years, according to the Congressional 
Budget Office.
    This all changed last year. Without a doubt, 2020 will be 
remembered for the pandemic and unprecedented economic disruption. For 
the port industry, it will also be remembered as a historic, 
breakthrough year for HMTF reform. In March 2020, the passage of the 
Coronavirus Aid, Relief, and Economic Security Act--or CARES Act--was 
critical because it included a key provision from Chairman DeFazio's 
Full Utilization of the Harbor Maintenance Trust Fund Act (H.R. 2440)--
the creation of a discretionary cap adjustment up to the levels of 
funds deposited into the HMTF in the previous year (collections plus 
interest) to be used for Army Corps of Engineers operations and 
maintenance activities. Under the CARES Act, appropriators can only 
exclude the prior year's deposits from the discretionary budget caps, 
or approximately $1.7 billion.
    Additionally, WRDA 2020 unlocked the unspent HMTF balance by 
establishing a schedule for releasing the $9.3 billion in HMTF 
collections (Section 101), beginning with $600 million for Fiscal Year 
2022, and increasing by $100 million per year, capping at $1.5 billion 
per year in 2030. A distribution approach (Section 102) outlines the 
allocation for these funds: 15 percent for emerging harbors, 12 percent 
for donor and energy transfer port programs, 13 percent for Great Lakes 
projects, and 17 percent for strategic commercial ports.
    Combined, full utilization of annual HMTF revenues and spend down 
of the HMTF balance will inject much needed funding into the 
maintenance of America's ports and harbors. Importantly, as I have 
testified in the past, full use of HMTF revenues is needed to create a 
virtuous circle wherein investment in port infrastructure supports 
additional growth in trade volumes which, in turn, supports more 
investment in our ports and harbors.
                     Fair and Equitable Allocation
    A fair and equitable allocation framework ensures every port region 
of the country--including traditional dredge ports, emerging harbors, 
and donor ports alike--receive a fair share of HMTF expenditures each 
year.
    I believe the donor port issue is both a fundamental issue of 
fairness and critical to the long-term health of the HMTF. The HMTF has 
its origins in the Water Resources Development Act of 1986 and was 
originally established as a way for users of federal channels to share 
in the associated costs of channel maintenance. It is directly levied 
on importers and domestic shippers using coastal or inland ports as a 
0.125 percent ad valorem tax on the value of imported cargo (e.g., 
$1.25 per $1,000 value).\1\ Funds can be used to pay for maintenance of 
federal channels, and certain in-water infrastructure, such as jetties, 
breakwaters, and groins.
---------------------------------------------------------------------------
    \1\ Originally, it was paid by importers and exporters; however, a 
1998 Supreme Court decision exempted exporters [United States v. United 
States Shoe Corp., 523 U.S. 360 (1998)].
---------------------------------------------------------------------------
    Ports that handle a large volume of imports, like the Port of Los 
Angeles, Port of Long Beach, Port Authority of New York and New Jersey, 
and Northwest Seaport Alliance, account for a large portion of total 
HMTF revenue. The original six ``donor ports'' \2\ accounted for 50 
percent of the annual HMTF revenues, but have received very little of 
those revenues for maintenance because their corresponding needs were 
not captured within the defined uses of HMTF funds.
---------------------------------------------------------------------------
    \2\ As defined in WRRDA 2014, these included ports of LA, Long 
Beach, New York/New Jersey, Seattle, Tacoma, and Miami.
---------------------------------------------------------------------------
    As a donor port, we are grateful that you have recognized our 
needs. WRRDA of 2014 directly addressed the donor issue by recognizing 
donor ports, allowing them a limited expansion of uses (including 
maintenance berth dredging), and making them eligible for additional 
funding (along with ``energy transfer ports'') via the Section 2106 
program. In WRDA 2020, we were encouraged to see a comprehensive 
framework established, creating minimum percentages of revenue being 
returned to donor, energy transfer, Great Lakes, and emerging harbors, 
while continuing to support traditional dredge ports.
                             Expanded Uses
    Until the 2020 reforms, HMTF expenditures were limited to the 
maintenance of the authorized depths and widths of federal navigation 
channels. For ports that require frequent dredging to maintain their 
dimensions this has been critical; however, this excludes other in-
water maintenance needs. Los Angeles does not require frequent 
dredging, but it does have a major backlog of wharf repairs and seismic 
upgrades. As described earlier in my testimony, WRDA 2020's ``expanded 
uses'' assists donor ports like the Port of Los Angeles by funding the 
maintenance projects we need most.
                      Key Issues for Consideration
    The goods movement industry underpins our economy and supports our 
standard of living. We know that this committee is keenly aware of the 
need to invest in and sustain the freight infrastructure that makes our 
work possible. The importance of our work was on full display 
throughout the COVID-19 pandemic as Americans sought personal 
protective equipment (PPE) and essential goods.
    A reliable, sustainable source of funding to support the 
competitiveness of our ports and harbors is essential to our recovery 
and long-term economic growth. Clearly, annual HMTF revenue and the 
HMTF balance is one such funding source. It is a unique and important 
revenue source that can keep our nation's ports and harbors operating 
at their maximum potential. Committee members, as you and our federal 
agencies move forward with implementing WRDA 2020, I would like to 
focus on a few areas for your consideration. Specifically, there are 
three areas that need to be addressed for implementation of these 
essential reforms:
    1.  Congress needs to assure the HMTF budget cap adjustment 
initially enacted in the CARES Act and expanded in WRDA 2020 is 
implemented as intended--with the Army Corps of Engineers receiving the 
full prior years HMTF revenues and the scheduled amount of unspent tax 
collections. This needs to be accomplished without adversely impacting 
other Corps Civil Works programs. Ideally, these funds would be 
included in the President's budget.
    2.  The HMTF distribution approach authorized in WRDA 2020 takes 
effect on October 1, 2022. It is imperative that Congress develop the 
fiscal year 2023 appropriations to include direction to implement the 
WRDA 2020 HMTF distribution approach. Without this directive language, 
I am concerned that the implementation could be delayed until fiscal 
year 2024, resulting in postponement of planned port maintenance 
repairs.
    3.  For donor ports, model the new funding distribution mechanism 
for HMTF collections after the one used in the Section 2106 program. It 
works. The Corps and the Port of Los Angeles have a system in place 
that handles disbursement of funds effectively and efficiently. 
Creating an entire new delivery system has the potential to burden both 
the Corps and recipient ports, further delaying funding disbursements.

    These three requests will ensure that the decade worth or work that 
you, the port industry, and our other industry partners put into HMTF 
reform will not have been done in vain. With your continued leadership 
and perseverance, we will have an HMTF framework in place that will 
ensure we have a well-maintained maritime transportation industry. This 
industry is vital to the manufacturers, exporters, and farmers who 
count on U.S. ports to move their products to market. It supports more 
than $5.4 trillion in commerce and employs more than 31 million people.
    For an industry that continues to deliver for the American people, 
we ask that Congress and the federal government deliver a fully enacted 
HMTF reform package.
    Thank you for your consideration.

    Mrs. Napolitano. Thank you, Mr. Seroka.
    Next, we have Ms. Mary Ann Bucci, executive director for 
the Port of Pittsburgh Commission.
    You may proceed.
    Ms. Bucci. Madam Chair Napolitano, Ranking Member Rouzer, 
Chair DeFazio, and members of the subcommittee, I thank you for 
this opportunity to be here today to talk about WRDA 2020. I 
will focus on the importance of water resource development 
legislation, Congress' role in continuing to build on previous 
successes, the need for full use of the Inland Waterways Trust 
Fund, the adoption of the Capital Investment Strategy, and the 
reinstatement of the Inland Waterways Users Board to ``Build 
Back Better.''
    America's inland waterways system is the best in the world, 
but it has its challenges as international competitors continue 
to improve their systems and facilities. More than half the 
locks and dams in the U.S. inland waterways system are past 
their 50-year design life and require attention, financial 
recapitalization, and reliability to sustain the Nation's 
economic well-being and standard of living.
    The attention starts with reinstating the Inland Waterways 
Users Board. The users board provides recommendations to 
Congress and the Secretary of the Army on investment priorities 
using resources from the trust fund, which the commercial users 
of the inland waterways have contributed for construction and 
major rehab of the inland navigation investment priorities.
    I strongly encourage the users board be reinstated, given 
that it is filled with industry leaders and subject matter 
experts. This relationship fosters collaborative conversation 
between the Corps and the stakeholders and fulfills the ``user 
pay, user say'' policy.
    The Lower Mon Project, which has encountered dramatic cost 
escalation and schedule delays, is currently funded to 
completion of construction in 2023. The project was authorized 
in 1992. However, inadequate funding forced the Corps to 
complete the project one component at a time, or as funding 
allowed. Currently, the Lower Mon Project is in its 27th year 
of construction, and the Lower Mon also experiences the most 
volume and locks on the river system.
    The second project, Olmsted Locks and Dam, was authorized 
in 1998 at $775 million. That project ballooned to $3.1 
billion. Thankfully, WRRDA 2014 had one significant reduction 
of the Inland Waterways Trust Fund, where that project alone 
went from 50 percent to 15 percent. The second provision 
authorized the users of the inland waterways taking a diesel 
fuel tax increase of 45 percent, to its current rate of $0.29 
per gallon, to contribute additional funds to get these 
projects moving. What that allowed was additional funding to be 
spent on other projects, including Chickamauga Lock and Dam and 
Kentucky Lock and Dam.
    Authorized in 2016, the Upper Ohio Navigation project, 
which will modernize and upgrade the three oldest locks on the 
Ohio River, including Montgomery Lock and Dam, was recently 
given a ``new start'' designation and awarded $22 million in 
the 2021 workplan.
    What is important is that is the first ``new start'' 
designation that was given since 2004 on any inland waterways 
construction project. It is critical to the Nation for that 
reason, so we can get other projects authorized and also to the 
Ohio River because if anything on the Upper Ohio fell, that 
would be a total lock closure in the Port of Pittsburgh.
    So since WRRDA 2014, a WRDA bill has been done every 2 
years with overwhelming bipartisan support; it has added 
efficiencies and helped move projects forward on these lock and 
dam projects, which is very important on the inland waterways. 
With the adjustments made in WRDA 2020, it is important that 
the trust fund receipts are appropriated so that we can reduce 
the inland waterways construction backlog. Many of your 
colleagues support a robust infrastructure package that will 
provide jobs, increase efficiencies, and reduce emissions. I 
would like to emphasize that the infrastructure upgrades on our 
inland waterways will help the Nation achieve those goals.
    In consultation with the users board, the Corps has 
developed a plan called the Capital Investment Strategy that 
recognizes the importance of construction and major rehab 
necessary to modernize the Nation's waterways system, using 
objective prioritization criteria and processes to focus 
investments where they matter most. As you move forward with a 
potential infrastructure package, I encourage you to include 
funding for the locks and dams.
    In closing, I want to reiterate the fact that beyond 
enabling commercial transportation, the inland waterways system 
provides recreational access, stable water supply for 
communities and industries, and facilitates hydroelectric 
power. Modernizing our ports and rivers is an investment in our 
Nation's continued economic prosperity, because many of our 
commodities and over half a million jobs are riding on our 
waterways transportation system.
    Thank you for the opportunity today, and I look forward to 
answering any questions.
    [Ms. Bucci's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Mary Ann Bucci, Executive Director, Port of 
                         Pittsburgh Commission
    Chairman Napolitano, Ranking Member Rouzer, and Members of the 
Subcommittee, I thank you for the opportunity to testify before you 
today on ``Water Resource & Development Act (WRDA) 2020: Status of 
Essential Provisions''. My testimony will focus on the importance of 
water resources development legislation, the positive changes made over 
the years, Congress's role in continuing to build on previous 
successes, the need for full use of the Inland Waterways Trust Fund 
(IWTF), and the adoption of the Capital Investment Strategy (CIS) and 
reinstatement of the Inland Waterways User Board (IWUB) to ``Build Back 
Better''.
    As Executive Director of the Port of Pittsburgh Commission, I am 
the chief executive officer responsible for carrying out the Port of 
Pittsburgh Commission's (PPC) core mission: promote efficient use of 
the inland waterway-intermodal transportation system and integrate that 
system into the economic, recreational, environmental, and intermodal 
future of the residents and industries of southwestern Pennsylvania and 
the Nation.
    As we have stated in our recently published economic impact study, 
The Port of Pittsburgh: Impact, Opportunities, and Challenges,\1\ The 
Port of Pittsburgh is fourth in tonnage among the nation's inland 
waterways ports and the 33rd busiest port among all U.S. coastal and 
inland ports as a group. The Port of Pittsburgh is also linked to--and 
is a vital part of--the nation's inland waterways system. There are 
very important mines, steel works, and power plants that use the 
waterways for shipping, cooling, material processing, and/or waste 
management. Many of these facilities are successful only because our 
geographic location--on the Allegheny, Monongahela, and Ohio Rivers--
and the 200 miles of commercially navigable waterways that include 17 
locks and dams that have been used in southwest Pennsylvania for almost 
200 years. Although the different industries use the rivers in 
different ways, the rivers are a critical resource for all of them. 
These entities are important parts of the overall U.S. economy.
---------------------------------------------------------------------------
    \1\ https://www.portpitt.com/media/
W1siZiIsIjIwMjEvMDMvMDQvM2IyY3hkc
TN2N19Qb3J0X29mX1BpdHRzYnVyZ2hfMjAyMV9FY29ub21pY19JbXBhY3RfU3R1Z
HkucGRmIl1d/
Port%20of%20Pittsburgh%202021%20Economic%20Impact%20Study.pdf
---------------------------------------------------------------------------
    Each of our locks and dams has a different story, but they often 
share state-of-the-art technology at their construction decades ago, 
multiple cycles of rehabilitation, and in some cases replacement with 
the latest construction and design techniques. Without these important 
locks and dams, our economy would be severely impacted. Inland 
waterways infrastructure projects in our region provide transportation 
cost advantages that incentivize the shipment of 30 million tons of 
cargo each year.\2\ Most notably, shipping costs for raw materials 
average 0.97 cents per ton-mile by barge compared to 2.53 cents per 
ton-mile by rail or 5.35 cents per ton-mile by truck. Furthermore, 
inland waterway transportation provides a greater benefit to the 
environment because our industry's cargo moving 647 ton-miles per-
gallon of fuel tops other key surface modes (145 ton-miles per gallon 
of fuel for trucks and 477 ton-miles per gallon of fuel for 
locomotives).
---------------------------------------------------------------------------
    \2\ 10-yr average: 2009-2018.
---------------------------------------------------------------------------
    As you all begin working on an infrastructure package in the coming 
months and WRDA 2022, it is important to recognize that while overall 
financing and management challenges facing the inland waterways system 
and the current business model for modernizing the nation's locks and 
dams have improved tremendously, there is still some work to be done.
                            Project Examples
    America's inland waterways system is the best in the world, but is 
not without its challenges, as international competitors continue to 
improve their systems and facilities. More than half of the locks and 
dams on the U.S. inland waterways are past their 50-year design life, 
with most locks and dams built in the 1930s under President Roosevelt. 
Our locks and dams, and our ports, require attention and financial 
recapitalization for dredging and channel and harbor improvements to 
maintain reliability and sustain our Nation's economic well-being and 
standard of living. That attention starts with reinstating the IWUB.
    As an advisory board established by Congress in WRDA 1986, the IWUB 
provides recommendations to Congress and the Secretary of the Army on 
investment priorities using resources from the IWTF which the 
commercial users of the inland waterways have contributed for 
construction and major rehabilitation of inland navigation investment 
priorities. Earlier this year, along with all other Department of 
Defense advisory committees, the IWUB was directed to immediately 
suspend all operations until the Department of Defense completes a 
``zero-based'' review. I strongly encourage that the board be 
reinstated given the IWUB is filled with industry leaders and subject-
matter experts with extensive experience in inland waterways 
transportation.
    This relationship has fostered candid and collaborative 
conversations between the U.S. Army Corps of Engineers (the Corps) and 
stakeholders, and fulfills the ``user pay, user say'' policy. I believe 
as I begin discussing project examples, you will understand that the 
IWUB plays a critical role in project delivery.
The Lower Mon Project
    The Lower Mon Project (Locks and Dams 2, 3, and 4), which 
encountered dramatic cost escalation and schedule delays, is currently 
funded to completion of construction in 2023, The project was 
authorized in the WRDA 1992 to replace the Braddock Dam; the Lock and 
Dam 4 and remove Lock and Dam 3. However, inadequate funding forced the 
Corps to complete the $556.4 million project one component at a time, 
or as funding allowed. Currently, the Lower Mon project is going on its 
27th year of construction, which is longer than the life of many 
Capitol Hill staffers. These locks on the Lower Monongahela River 
experience the highest volume of commercial traffic on the Monongahela 
River in terms of both tonnage locked and lockages; further, the pools 
created by these facilities provide industrial and municipal water and 
are popular with recreational boaters.
The Olmsted Lock & Dam Project
    Like Lower Mon, The Olmsted Lock and Dam Project (Olmsted) was 
authorized decades ago through the WRDA 1988 at $775 million. At the 
time, the project authorization consisted of creating a new lock and 
dam on the Ohio River between Illinois and Kentucky with two 110' x 
1200' chambers and eliminating Ohio River Locks Dam 52 and 53. The 
original projected completion date was 1998. However, the cost of the 
project ballooned to $3.1 billion. Thankfully, WRDA 2014 authorized 
many of the project delivery recommendations made by the IWUB and 
increased the threshold size of a rehabilitation project authorized to 
be cost-shared by the IWTF to $20 million with an annual inflation 
amount. One of the most widely heralded provisions of the act was the 
reduction of the IWTF portion of the cost-sharing requirement for 
Olmsted from 50 percent to 15 percent. Together with another provision 
enacted in 2014 to increase the inland waterway diesel fuel tax by 45% 
to the current 0.29 cents per gallon, this provision expedited 
completion of Olmsted by four years, saving $330 million, and allowed a 
much larger amount of IWTF funds to be spent on other projects--
including the Chickamauga Lock and Dam in Tennessee and Kentucky Lock 
and Dam in Kentucky.
Upper Ohio Navigation System Project
    Authorized in WRDA 2016, The Upper Ohio Navigation project, which 
will modernize and upgrade capacity to the three oldest lock and dam 
projects on the Ohio River, including the Montgomery Lock and Dam, was 
recently given a ``New Start Designation'', and awarded $22 million for 
completion of Pre-Construction Engineering and Design Phase and to 
begin the construction phase. When constructed, this project will mark 
the completion of one of the IWUB top priority projects. This is very 
important for the PCC and the nearby region because this marks the 
first ``New Start'' Designation since 2004 for a major inland waterways 
construction project. This is critical because a major failure on the 
Upper Ohio River would shut down the entire Port of Pittsburgh.
            Legislative Opportunities in the 117th Congress
    Since 2014, a WRDA bill has been passed every two years with 
overwhelming bipartisan support, and numerous provisions added to 
increase efficiency and help move projects forward on the locks and 
dams throughout the 12,000 miles of navigable waterways in the U.S. 
Specifically, the most significant update came in WRDA 2020 when, led 
by this Committee, Congress agreed to change the construction cost-
share for projects on inland waterways to 65-35 (65% General Treasury 
and 35% IWTF). I cannot thank the Committee enough for your support in 
modifying the cost-share.
    With the adjustments made in WRDA 2020 by this Committee, it is 
important that all the IWTF receipts are appropriated so that we can 
reduce the inland waterways construction backlog as fast as possible.
    Congress has taken meaningful steps to tackle the nation's growing 
infrastructure problem, however, WRDA is only a piece of the puzzle. 
Many of your colleagues have expressed the need for a robust 
infrastructure package that will provide jobs, increase efficiency, and 
reduce emissions, and I would like to emphasize that infrastructure 
upgrades on our inland waterways will help the nation achieve those 
goals. As required by WRDA 14, in consultation with the IWUB, the Corps 
has developed a plan, called the Capital Investment Strategy (CIS), 
that recognizes the importance of construction and major 
rehabilitations necessary to modernize the nation's inland waterways 
system, using objective, national project selection prioritization 
criteria and processes to focus investments where they matter the most. 
As you move forward with a potential infrastructure package, I 
encourage you to include funding for lock and dam modernization.
                               Conclusion
    In closing I want to reiterate the fact that beyond enabling 
commercial transportation, the inland waterways system provides 
recreational access, flood control, stable water supply for communities 
and industries, facilitates hydroelectric power, enhances regional 
economic development, and plays a supporting element to national 
defense.
    As this Subcommittee continues to consider water resources in the 
United States, I urge you to appreciate the conduit of the inland 
waterways and port system to American competitiveness and growth. 
Modernizing our ports and rivers is an investment in our nation's 
continued economic prosperity because a majority of our nation's 
commodities and over half-million jobs are riding on our waterways 
transportation system and through our ports.
    This concludes my testimony, Chairwoman Napolitano. Thank you for 
providing this opportunity to be here today to address this critically 
important subject and I look forward to answering questions from the 
committee.

    Mrs. Napolitano. Thank you, Ms. Bucci, very much.
    And next, we have Michael Piehler, Ph.D., director, UNC 
Institute for the Environment.
    And you may proceed, sir.
    Mr. Piehler. Good morning, and thank you Chairwoman 
Napolitano, Ranking Member Rouzer, the committee and staff. I 
appreciate the opportunity to share our experience with 
research and translating actionable information around flood 
resilience. North Carolina is an excellent model system to 
consider the essential provisions of WRDA 2020. Our State has a 
fairly modest 322 miles of ocean coastline, but a remarkable 
12,009 miles of inland shoreline woven throughout the coastal 
plain. With two ports and a diverse water-reliant economy, 
North Carolina has benefited tremendously from the work of the 
Corps.
    North Carolina has also had more experience than we would 
like with storms, including having had 36 hurricanes affect us 
since the late 1990s, and 6 of the 7 biggest rain events in the 
last 120 years occurred over just the last 20 years. Our 
research team was established through two programs, the 
Creativity Hubs and the Collaboratory at UNC, both of which 
target investments and research addressing societal challenges. 
Recently, our team also received a grant from the Growing 
Convergent Research program at the National Science Foundation.
    We are grateful for the taxpayers' investments in our work, 
and we are enthusiastic about the contributions we can make to 
moving coastal communities forward. Convergence research is an 
approach to formulate and apply research to tackle complex 
problems with societal relevance. It requires deep integration 
across disciplines, and, in many cases, engages and integrates 
stakeholders and end users early.
    Our team has the shared goal to provide new information to 
reduce damage from flood and storms, thus creating economic, 
environmental, and social benefits.
    A focal area for our program, Wilmington is North 
Carolina's largest coastal city and port, and it is an area 
that relies on critical natural infrastructure, including 
marshes and beaches, but faces emerging challenges such as 
harmful algal blooms. The region has an engaged citizenry and 
local governments working for environmental and economic 
balance and the inclusion of communities and resilience policy.
    Three features of our program have enhanced its 
effectiveness, and are relevant to key aspects of WRDA 2020. 
They include deep engagement with stakeholders and end users, 
connections to financial risk and models, and reliance on 
quantitative social science for our inquiries.
    Efforts to answer questions related to population well-
being require engagement with stakeholders and end users. 
Through a comprehensive effort at our program's inception, we 
developed a more robust set of project goals by incorporating 
the perspectives of the resilience community in North Carolina. 
And, at the same time, confirm that we were developing 
solutions for priority problems.
    A large portion of our program emphasizes explicit 
connections to financial considerations. Using coupled models 
which link environmental change to financial risk is a novel 
method to determine overall community risk from flooding. 
Quantifying flood risk and losses associated with insurers, 
property owners, lenders, and local governments improves each 
group's understanding of its own risk, but also acts as a basis 
for developing more sophisticated strategies for managing risk.
    This type of highly resolved analysis is unique in that it 
characterizes risk at the individual property level for 
thousands of parcels within a community, which are then used to 
aggregate distributions of risk for the entire community, while 
also identifying the holders of the risk. Considering the 
ecosystem services, the monetary value of natural processes to 
people, we were able to connect the function of natural systems 
to other financial analyses. Components of ecosystems with the 
potential to provide benefits related to flooding include 
marshes, reef-forming bivalves, and submerged aquatic 
vegetation.
    Looking first through the lens of quantitative social 
sciences, we have fused engineering, natural and social 
sciences, and policy and planning to seek solutions to the 
challenges around flooding. To date, research in this realm has 
typically focused first on the natural portion of these coupled 
natural-human systems.
    Our process began with quantitative inquiries of the human 
dimension, which results in a reframed and refocused set of 
research approaches, and solutions better suited to the needs 
of all communities. How might our experiences as a research 
team be a value to this group in implementing WRDA 2020?
    From our perspective, here are three important steps: 
Include guidance to funding recipients regarding explicit 
consideration of connections to financial systems; require a 
comprehensive stakeholder engagement program forming diverse 
teams with broad disciplinary perspectives; and include 
quantitative social science as a key component of technical 
assessments.
    Sustaining the economy and the environment around quickly 
changing aquatic systems is a grand challenge, but it can be 
met, and it is clear that WRDA 2020 is poised to contribute to 
meeting this challenge.
    Thank you very much.
    [Mr. Piehler's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Michael F. Piehler, Ph.D., Director, UNC 
                     Institute for the Environment
                             Full Testimony
    Good day, and thank you Chairwoman Napolitano, Ranking member 
Rouzer, the committee, and staff. I appreciate the opportunity to share 
our experience with research and translating actionable information 
around flood resilience. I serve as the director of the Institute for 
the Environment at the University of North Carolina at Chapel Hill. 
Since 1795 Carolina has been committed to developing new knowledge to 
help our state and our country thrive, and flooding is certainly one of 
today's prominent challenges.
    North Carolina is an excellent model system to consider the 
essential provisions of WRDA 2020. Our state has a fairly modest 322 
miles of ocean coastline but a remarkable 12,009 miles of inland 
shoreline woven throughout the coastal plain. With two ports and a 
diverse water reliant economy, North Carolina has benefitted 
tremendously from the work of the Corps in our state. North Carolina 
has an impressive extent and diversity of coastal habitats that deliver 
value to both people and the natural system. Unfortunately, North 
Carolina has also had more experience than we'd like with hurricanes, 
having had 36 storms affect the state since the late 1990s. These 
storms present threats from wind, storm surge, and precipitation. In 
records kept since 1898, six of the seven biggest rain events in North 
Carolina have occurred in the past 20 years.
    Our research team was established through two programs; the 
Creativity Hubs and the Collaboratory at UNC, both of which target 
investments in emerging research addressing grand societal challenges 
and build capacity for follow on work. The Creativity Hubs project is 
funded through the university to encourage innovative academic 
partnerships. The Collaboratory funding is an example of the investment 
made by the North Carolina General Assembly to leverage the research 
expertise of the UNC system to provide the latest research findings and 
actionable solutions to state-policy makers. Recently, we received an 
additional 5-year grant from the Growing Convergent Research program at 
the National Science Foundation. We are grateful for the taxpayers' 
investments in our work and are enthusiastic about the contributions we 
can make to moving coastal communities forward.
    Convergence research is an approach to formulate and apply research 
to tackle complex problems with societal relevance. It requires deep 
integration across disciplines and in many cases engages and integrates 
stakeholders and end users early and sustains their engagement 
throughout. It is clear that flooding is a transdisciplinary challenge 
and cannot be solved with individual expertise, but rather requires the 
integration of multiple concepts to develop new perspectives. Our team 
includes natural scientists, social scientists, and engineers who have 
the shared goal to provide new information to reduce damage from floods 
and storms, and as a result create economic, environmental and social 
benefits.
    A focal area for our program, Wilmington is North Carolina's 
largest coastal city and port. This area relies on critical natural 
infrastructure in the form of wetlands and beaches and is also facing 
emerging challenges, such as harmful algal blooms. The region has an 
engaged citizenry and local governments working for environmental/
economic balance and the inclusion of all communities in shaping and 
implementing resilience policy. Three features of our program have 
enhanced effectiveness and are relevant to key aspects of WRDA 2020. 
They include deep engagement with stakeholders and end users, an 
emphasis on connections to financial risk and models, and heavy 
reliance on quantitative social science to frame our inquiries.
    Efforts to answer complex questions related to population well-
being and how to improve it in the context of shifting and uncertain 
environmental threats require engagement with stakeholders including 
state agencies, local governments, non-governmental organizations, and 
communities. Through a comprehensive effort at our program's inception, 
we developed a more robust set of project goals by incorporating the 
perspectives and experiences of the resilience community in North 
Carolina. As a result of this initial outreach and engagement, we 
strengthened our research plan and confirmed that we were developing 
solutions for high priority problems.
    A large proportion of our program emphasizes explicit connections 
to financial considerations. Using coupled models which link 
environmental change to financial risk is a novel method to determine 
overall community risk from flooding. Quantifying the flood risk and 
losses associated with insurers, property owners, lenders, and local 
governments improves each group's understanding of its own risk, but 
also acts as a basis for developing more sophisticated strategies for 
managing risk. This type of highly resolved analysis is unique in that 
it characterizes risk at the individual property level for thousands of 
parcels within a community, which are then used to develop aggregate 
distributions of risk for the entire community, while also identifying 
the holders of this risk.
    In addition to flood impacts on human populations and on 
communities, our program emphasizes effects on natural systems because 
of their important feedbacks to regional economic activity and public 
health. Considering the ecosystem services, the monetary value of 
natural processes to people, we are able to connect to other financial 
analyses. We focus on three classes of benefits that natural ecological 
features can provide and that storms potentially disrupt. These benefit 
classes are maintenance of water quality, shoreline stabilization, and 
ecosystem sustenance. Components of ecosystems with the potential to 
provide these benefits include vegetation at land-water margins 
(forested wetlands and marshes), reef-forming bivalves (oysters, 
mussels), and submerged aquatic vegetation. An example from our work 
which has had significant application is the quantification of the 
economic value of nutrient removal by oyster reefs.
    Looking first through the lens of quantitative social sciences we 
fuse engineering, natural and social sciences, and policy and planning 
to seek solutions to the challenges around flooding. To date, research 
in this realm has typically focused first on the natural portion of 
these coupled natural-human systems. Our process begins with 
quantitative inquiries of the human dimension, which results in 
reframed and refocused research approaches and decision-making and 
solutions more in tune with the needs of all communities.
    How might our experiences as researchers be of value to this group 
in implementing WRDA 2020? From our perspective, here are three 
important steps:
    <bullet>  Include guidance to funding recipients regarding explicit 
consideration of connections to financial systems
    <bullet>  Conduct a comprehensive stakeholder engagement program, 
forming diverse teams with broad disciplinary perspectives; and
    <bullet>  Include quantitative social science as a key component of 
technical assessments.

    In summary, embracing the interconnectedness and complexity of 
managing aquatic systems opens the door for solutions to a range of 
challenges. Consider a tidal marsh created through beneficial use of 
sediments. Evaluation of the dredging operation will have been improved 
by a clear vision of the beneficial fate of the sediment generated and 
the full suite of values delivered by the marsh. Sustaining the economy 
and the environment around quickly changing aquatic systems is a grand 
challenge, but it can be met, and it is clear that WRDA 2020 is poised 
to contribute to meeting this challenge.
    Thank you.

    Mrs. Napolitano. Thank you, sir. I appreciate your 
testimony.
    And next, we have Mr. Chad Berginnis, last but not least, 
the executive director of the Association of State Floodplain 
Managers.
    You may proceed, sir.
    Mr. Berginnis. Great. Good morning, Chair Napolitano, 
Ranking Member Rouzer, and members of the subcommittee. I am 
Chad Berginnis, executive director of the Association of State 
Floodplain Managers, and I am honored to be with you today to 
discuss our views and considerations for implementing the 2020 
WRDA.
    Eureka, while it is a fitting one-word reaction by ASFPM to 
the 2020 WRDA, it is also the name of a small Missouri city 
whose story is just being written. Three days ago, the St. 
Louis Post-Dispatch wrote about this community's struggle with 
flooding, yet, many residents not wanting the traditional new 
big levee.
    Nope. Instead, with the help of the Corps, they are 
thinking about flood risk management differently. They are 
evaluating dozens of options, including some use of levees and 
floodwalls, but also buyouts, relocation, or elevation of high-
risk properties, the restoration of flood plains as water 
storage areas, and expanded use of green infrastructure.
    It also includes consideration of technologically advanced 
temporary barriers and harnessing the power of natural 
processes to store and absorb floodwaters. It is about fighting 
a more erratic and changing climate with every tool in the 
toolbox, improving community resiliency, and yet not 
transferring flooding to adjacent communities. But this, too, 
is the legacy of the 2020 WRDA; namely, expanding the Corps' 
ability to provide technical assistance in expanding the flood 
risk management toolbox.
    However, implementation of the provisions will require 
careful oversight by you, and thoughtful implementation by the 
Corps. Our written testimony identifies 11 specific actions for 
either the Corps or the committee to consider as implementation 
of WRDA 2020 unfolds. To summarize, we want to highlight four 
broad areas of WRDA 2020 that hold the greatest promise.
    First, WRDA 2020 includes a substantial agenda of 
resiliency policy improvements and expanded nonstructural, 
natural, and nature-based features as working tools in the 
Corps' toolbox for flood risk management, such as the clear 
addition of natural/nature-based alternatives, with the same 
cost sharing as structural projects, and incentives to 
recognize the nonmonetary benefits and estimates of long-term 
costs and benefits of such alternatives.
    More and more communities' leaders and the Nation are 
realizing that many of the nonstructural approaches are well 
suited to reduce risk at a systemic level and a corridor scale. 
We wish to highlight the Corps' Engineering With Nature 
initiative and recommend that the Corps fully commit to 
supporting the operationalization of EWN through the agency.
    Second is the increased emphasis on technical support for 
States, communities, Tribes, Territories, and especially rural 
and economically disadvantaged communities to assess and manage 
flood risk. ASFPM has long supported technical assistance 
programs, such as flood plain management services and planning 
assistance to States. Your improvements to FPMS in the WRDA 
2020, for example, to include helping communities avoid 
repetitive flooding impacts, adapting to changing climate 
conditions and extreme weather events, and the priority for 
economically disadvantaged communities are all-important areas 
of focus.
    We note, however, that the provision of technical 
assistance within the Corps will be limited until there is a 
fundamental restructuring of how it's provided--moving away 
from the project-based approach and embracing a programmatic 
discretionary use approach with sufficient staffing in every 
single Corps district. Another aspect of technical assistance 
is leadership and commitment to emerging technologies.
    ASFPM recommends the Corps evaluate and adopt the latest 
standards for flood abatement technologies, as well as ensuring 
suitable water testing laboratory facilities for flood fighting 
products. Third, we note the importance of the Lower and Upper 
Missouri River Comprehensive Flood Protection Studies and the 
required inclusion of both structural and nonstructural 
measures, including the setting back of levees, removing of the 
structures from areas of recurring flooding vulnerability, and 
nature-based features.
    Given the added policy flexibility, the Missouri River 
Comprehensive Flood Protection Study has the potential to 
advance efforts to expand the uses of nonstructural approaches 
in a very meaningful way.
    As was stated earlier, not only in communities like Eureka, 
but others like Arnold, Missouri, are rejecting traditional 
approaches as they eye a more integrated and comprehensive way 
to address flood risk. Finally, the directive to implement the 
water resources principles and requirements and to review and 
revise planning guidance and regulations will update woefully 
out-of-date planning guidance and assure that the PR&G requires 
Federal agencies to fully account for environmental costs and 
benefits, as well as the analysis for future conditions of 
water resources planning.
    Thank you for this opportunity to provide our thoughts to 
you today, and I am happy to answer any questions you might 
have.
    [Mr. Berginnis' prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Chad Berginnis, C.F.M., Executive Director, 
                Association of State Floodplain Managers
                              Introduction
    The Association of State Floodplain Managers (ASFPM) greatly 
appreciates the opportunity to share our views on the programs of the 
U.S. Army Corps of Engineers (Corps), and especially the implementation 
of new WRDA 2020 provisions as part of this Committee's oversight 
process.
    The 20,000 members of ASFPM are partners of the Corps, Federal 
Emergency Management Agency (FEMA) and other federal agencies at the 
state and local levels in reducing loss of life and property due to 
flooding. Our 37 state chapters are active within their states and 
often nationally as well. State and local floodplain managers and their 
private sector engineering and floodplain management colleagues 
interact regularly with the Corps at the Headquarters and District 
levels in developing and implementing solutions to flooding challenges. 
All ASFPM members are concerned with reducing loss of lives from 
flooding and our nation's growing flood-related losses. For more 
information on the association, its 14 policy committees and 37 state 
chapters, visit www.floods.org.
    Floods continue to be the nation's most frequent and impactful 
disasters every year and the costs to taxpayers continue to increase. 
While the Corps has often successfully engineered structural means of 
controlling flood waters, it is becoming increasingly apparent that 1) 
operation and maintenance costs of many projects are exceeding the 
ability of communities to pay those costs, which is their obligation; 
2) structural projects, while necessary in some instances, are 
expensive: 3) traditional projects can inadvertently increase flood 
hazards upstream, downstream, and across the river; and 4) 
nonstructural projects and natural and nature-based feature design 
approaches can often offer a less expensive, more sustainable and 
affordable means of reducing flood hazards. We greatly appreciate WRDA 
2020's provisions aimed at increasing community resiliency, especially 
for smaller, economically-disadvantaged, rural and communities that 
often have not been able to.
    To meet today's challenges of riverine and coastal flooding in an 
era of more frequent and increasingly severe storms, sea level rise, 
shore-land subsidence, and skyrocketing disaster costs, it is important 
that the Corps take a broad, more comprehensive and watershed-based 
view of overall flood risk management. The Water Resource Development 
Act of 2020 was a good step in that direction. The balance of our 
testimony will focus on where the nation goes from here, post WRDA 
2020, and delves into specific areas where a particular focus on either 
implementation or transformation needs to occur to ensure that both 
WRDA 2020 and the USACE generally are positioned to successfully the 
nation's flood problems:
    <bullet>  Strategic Direction post WRDA 2020
    <bullet>  Flood Risk Management
    <bullet>  Levee and Dam Risk Management
    <bullet>  Implementing Principles, Requirements, and Guidelines
                   Strategic Direction post WRDA 2020
``The current trajectory of funding water resources projects is not 
        sustainable.''
    This was the take-home message at the 2012 USACE Strategic 
Leadership Conference attended by ASFPM leadership as well as several 
other Corps partners. In remarks made by senior Corps leadership--with 
which ASFPM is in agreement--when you look long term, the Corps must 
change how it is doing business. An increased focus on collaboration, 
coordination, and problem solving with partners is necessary as is 
making smarter, strategic investments in infrastructure. While some of 
the highest Corps levels have recognized this, too often prior WRDA 
bills relied heavily on traditional approaches for flood risk 
management. For these reasons, ASFPM has not generally endorsed past 
WRDA bills, as the preponderance of the positive changes did not 
outweigh the detriments of primarily relying on large, structural 
approaches for flood risk reduction, while virtually ignoring the more 
holistic and long-term benefits of non-structural, natural and nature-
based solutions and not adequately supporting the needs of smaller 
communities and underserved populations. In the 2020 WRDA bill, 
Congress took substantial steps in the right direction through a number 
of measures that move the Corps in a more positive direction to address 
the pervasive and increasing flood risk in the country, therefore, 
ASFPM was pleased to be able to endorse the bill.
    The areas of WRDA 2020 which, in ASFPM's opinion, show the greatest 
promise include:
    <bullet>  A substantial agenda of ``resiliency'' policy 
improvements and expanded nonstructural, natural, and nature-based 
features as working tools in Corps for flood risk management through 
the clear addition of natural and nature-based alternatives to 
nonstructural alternatives, with the same cost-sharing arrangements as 
nonstructural projects, incentives to recognize non-monetary benefits 
and estimates of long-term costs and benefits of such alternatives, and 
the requirement to include consideration of natural and nature-based 
features to the maximum extent practical among alternatives for 
permanent measures to reduce emergency flood fighting needs for 
communities subject to repetitive flooding;
    <bullet>  An increased emphasis on technical support for states, 
communities, tribes, and territories, especially rural and economically 
disadvantaged communities to assess and manage flood risk. The 
provisions modify the authorization for the Floodplain Management 
Services program (FPMS) with direction to provide Corps assistance to 
help communities ``avoid repetitive flooding impacts, to anticipate, 
prepare for, and adapt to changing climate conditions and extreme 
weather events, and to withstand, respond to, and recover rapidly from 
disruption due to the flood hazards'' and directs the Secretary to 
prioritize assistance for economically-disadvantaged communities. It 
gives the Corps license to modernize and update the FPMS services to 
communities;
    <bullet>  Authorization of Lower and Upper Missouri River 
Comprehensive Flood protection studies to be completed in three years. 
The Lower Missouri Basin study expansion requires consideration of 
``structural and nonstructural measures, including the setting back of 
levees and removing structures from areas of recurring flood 
vulnerability'' and ``where such features are locally acceptable, 
natural features and nature-based features'' and to consult with 
agencies, tribes and stakeholders and solicit public comments on 
recommendations. The Upper Missouri River Basin Comprehensive study 
includes ``examination of the use of structural and nonstructural flood 
control and floodplain management strategies, including the 
consideration of natural features or nature-based features'' and to 
address ``the potential for the transfer of flood risk between and 
within the Upper and Lower Missouri River basins with respect to any 
changes recommended.'' These studies have considerable potential to 
advance efforts to expand use of nonstructural and natural and nature-
based features, including levee setbacks in the Missouri Basin states; 
and
    <bullet>  A directive to implement the Water Resources Principles 
and Requirements and to review and revise the Planning Guidance and 
Regulations to include an assessment of the effects of sea level rise 
and inland flooding on future water resources development projects. The 
Secretary must, no later than 180 days after enactment ``issue final 
agency-specific procedures necessary to implement the principles and 
requirements and the interagency guidelines.'' Updates to the PR&G must 
include the best available, peer-reviewed science and data on the 
current and future effects of sea-level rise and inland flooding on 
``relevant'' communities and also allow a non-Federal interest to 
request consideration of these issues in a feasibility study. Combined, 
the two directives will update woefully out-of-date planning guidance 
and assure that the PR&G requires federal agencies to fully account for 
environmental costs and benefits as well as the analysis of future 
conditions in water resource planning.

    As promising as the 2020 WRDA measures are, the nation and 
taxpayers will only see the benefits if the provisions are fully 
implemented. Progress will require considerable work and attention by 
the Corps and other agencies, communities, and other partners in the 
flood risk management community. We urge Congressional oversight to 
ensure these key changes in the flood risk management arena are fully 
implemented and that the entities responsible for action are held 
accountable. Given the increasing cost of operations and maintenance, 
funding for new starts and other projects is being proportionately 
reduced. Simply put, as a nation, we cannot afford to keep doing 
business as we have in the past.
                         Flood Risk Management
    The Corps' Flood Risk Management Program was established in 2006. 
The program's mission is to increase capabilities across all aspects of 
the agency to improve decisions made internally and externally that 
affect the nation's flood risk. It implements this mission through 
several activities, including technical assistance (and related 
programs such as FPMS, PAS and Silver Jackets), project planning and 
construction, promotion of nonstructural flood risk reduction, flood 
fighting, post flood disaster support, inter-agency coordination and 
assessing potential climate change impacts and consideration of 
adaptation measures.
Technical Assistance
    ASFPM believes there is strong potential to build on the excellent 
WRDA 2020 provisions and expand the Corps' capabilities to provide a 
greater range of solutions for communities' water resources needs 
through technical assistance. Many communities realize they cannot 
afford the operation and maintenance costs of large structural 
projects, yet there are many flood reduction approaches they can use if 
they had technical assistance to plan, evaluate, and implement them. 
Technical assistance should be seen as a cornerstone of Corps 
operations and activities. A significantly enhanced role of technical 
assistance and broad-based problem solving/planning for watershed wide 
and nonstructural solutions could happen with more effectively 
delivered federal expertise at the local level.

           From ``Answers to Questions about the Flood Risk Management Program'' on the USACE website:
----------------------------------------------------------------------------------------------------------------
 
-----------------------------------------------------------------------------------------------------------------
Q: What is the basic difference between USACE and other agencies?
A: There are very few instances where funds can be used that are not tied to specific projects. Other Federal
 agencies and most state and local agencies are funded more on a programmatic level, which allows for
 discretionary use funds. The way USACE is funded makes it difficult to provide funding for non-project-specific
 work. Specific programs are described on this and other frequently asked questions pages.
----------------------------------------------------------------------------------------------------------------

    It is still nearly impossible, however, to leverage the Corps' 
expertise on more than an ad-hoc basis, when the issue is not 
associated with a particular Corps project. While the existing 
technical assistance programs like Silver Jackets have increasingly 
helped coordinate some assistance, it remains a reality that the Corps' 
expertise is rarely available unless there is an active, specific 
federal, Corps-funded project. Other federal agencies dealing with 
flooding issues such as FEMA, NRCS, and the USGS have staff available 
through their disaster cadres, capacity building programs at the state 
level, national call centers, or distributed staff throughout the U.S. 
Each has a different model for providing federal resources at the local 
level. Given that the Corps has 38 domestic districts throughout the 
United States, the basic infrastructure exists to provide a much better 
technical-assistance role than it currently provides. By having a more 
robust technical-assistance role at every district, which is not 
project related, the research, expertise and knowledge of the Corps 
could be made much more widely available to help 20,000+ communities, 
states and territories.

    <bullet>  To achieve the ability to deliver robust technical 
assistance for flood risk reduction nationwide, the USACE must 
fundamentally reorganize to provide intentional, discretionary use 
programmatic funding for non-project related technical assistance in 
every district.

    This transformational change would not only allow the WRDA 2020 
Section 111 pilot to be successful, but would result in the USACE being 
able to provide such assistance nationwide in addition to allowing 
existing technical assistance programs to be more focused on projects 
and needs identified by states and communities where demand already 
exceeds availability.
    ASFPM believes that overall the Silver Jackets program has proven 
to be successful and should continue with maximum flexibility to 
address individual state's needs and issues. There have been many 
benefits to the Corps, and states, tribes, and local governments from 
the Silver Jackets program including better coordination and 
understanding of the various programs and agencies involved in 
comprehensive flood-risk management, identification and coordination of 
resources, and development and undertaking of collaborative projects. 
It is important; however, that all Silver Jackets POCs from the Corps 
embrace the role and vision of the program.
    The Floodplain Management Services (FPMS) program (authorized as a 
continuing authority under Section 206 of the 1960 Flood Control Act) 
can help address this need, and has provided valuable and timely 
services in identification of flood risks and flood damage. The FPMS 
program enables the Corps to support state, regional, and local 
priorities, as well as provide assistance to other federal agencies for 
greater resiliency planning and alternatives selection in addressing 
flood risks through collaboration and cooperation by developing 
location-specific flood data, which can be used to reduce overall flood 
risks. WRDA 2020 (especially Sec. 111), includes critically important 
new provisions that enhance this authority by specifying as key 
purposes ``to avoid repetitive flooding impacts, to anticipate, 
prepare, and adapt to changing climatic conditions and extreme weather 
events, and to withstand, respond to, and recover rapidly from 
disruption due to the flood hazards,'' and to place priority on helping 
economically-disadvantaged communities and communities with repetitive 
flooding. We would hope the Corps will grow this program to a universal 
service through all Corps Districts nationwide, and fully utilize the 
full annual authorization provided in WRDA 2014 of $50 million.
    Like FPMS, the Planning Assistance to States (PAS) program (Sec. 22 
of WRDA 1974) was also authorized to provide valuable and timely 
services to states in identification of flood risks and flood damage. 
This program also allows for any effort or service pertaining to the 
planning for water and related resources of a drainage basin or larger 
region of a state, for which the Corps of Engineers has expertise. 
These programs have been shown to provide significant benefits for a 
relatively small investment. By providing Corps expertise, these 
programs assist states and communities to make better informed 
decisions and to engage in more comprehensive consideration of their 
flood risk and the various options for reducing the hazard. These can 
be structural, nonstructural, nature-based, or a combination, that can 
often lead to less expensive and more sustainable solutions.
    ASFPM is concerned that PAS and FPMS are neither evenly nor 
consistently administered throughout the country. Certain Corps 
Districts have high expertise and capability with these programs and 
others do not. We know through our work with the Corps that there do 
not seem to be mechanisms or processes to comprehensively identify, 
collect, review and prioritize requests for FPMS/PAS services, review 
projects completed, and adjust program metrics in any consistent 
manner. ASFPM believes the demand for these programs far exceeds 
available resources. A few Corps Districts have staff dedicated to 
providing this FPMS and PAS technical assistance, but all Corps 
Districts should have the level of capability to provide these 
services. Another issue is that the Corps tend to ``projectize'' these 
services, versus making the technical assistance more broadly and 
widely available. If the District had more dedicated staffing for these 
programs, delivery could be easier.
    ASFPM also notes that technical assistance is especially important 
after flood disasters. Given the current structure and focus of the 
Corps--most post-disaster work has been focused on immediate response 
missions related to infrastructure and public works and flood response 
activities (flood fighting) and repair/rehabilitation work. However, 
given the Corps expertise and assets, they can also be brought to bear 
in providing technical assistance and problem-solving expertise. Again, 
however, delivery of this technical assistance has historically been 
hampered by the structural deficiencies within the Corps we noted 
earlier limiting the ability of the Corps to deliver technical 
assistance without an associated project.
Research & Development
    The Research and Development function of the Corps underpins the 
ability to provide high quality technical assistance through data, 
tools and expertise. The USACE has several promising initiatives and 
programs, but as we have seen with other R&D initiatives across the 
federal government, the difficulty lies in widespread implementation of 
these initiatives into an agency's operations.
    The first of these is the Engineering with Nature (EWN) initiative 
that is the intentional alignment of natural and engineering processes 
to efficiently and sustainably deliver economic, environmental and 
social benefits through collaboration. It incorporates the use of 
natural processes to maximize project benefits. ASFPM is very 
supportive of this initiative and is encouraged by its results and 
implementation strategy and notes that it is consistent with the 
broader focus in WRDA 2020 on nature-based solutions. The 2018-2022 EWN 
strategic plan properly focuses on expanding implementation. However, 
given the traction we have seen with other initiatives such as the 
nonstructural flood mitigation, we are concerned about its ultimate 
success.

    <bullet>  Congress focus oversight to ensure that where nature-
based solutions or alternatives have been established in law through 
WRDA 2020 and past WRDAs, that they are being operationalized by the 
USACE nationwide.
    <bullet>  The Corps should commit to fully supporting the 
operationalization of the EWN initiative throughout the agency.

    The second of these is the National Flood Barrier Testing and 
Certification Program (NFBTCP). A partnership among ASFPM, FM Approvals 
and the Corps (through the Engineer Research and Development Center 
(ERDC), the NFBTC Program is a unique public-private partnership, which 
resulted in the development of the ANSI 2510 standard and where 
commercial flood abatement products (i.e., perimeter flood barriers and 
flood mitigation pumps) are tested against that standard. The purpose 
of this program is to provide an unbiased process of evaluating 
products in terms of resistance to water forces, material properties 
and consistency of product manufacturing. Having an unbiased evaluation 
of flood protection products is a valuable research, flood fighting and 
technical assistance service for federal, state and local entities who 
use these products for flood fighting and flood loss reduction. This 
program and the Corps' participation in it aligns with Section 3022 of 
the 2014 WRRDA encouraging the Corps to use durable and sustainable 
materials and resistant construction techniques to resist hazards due 
to a major disaster and while there is no specific guidance in WRDA 
2020 related to these products--technical assistance to communities is 
definitely enhanced by the Corps participation.
    However, there are currently two barriers to optimal Corps 
involvement. First, the ERDC water testing laboratory must be upgraded 
or replaced, and be made capable of testing products being demanded by 
the marketplace. Currently, the facility is only capable of testing 
perimeter barriers to a height of 4 feet, yet manufacturers are making 
products that would protect to heights of 8-10 feet or more. We 
understand that the Corps is doing some preliminary design work on this 
and are very supportive of that effort. Second, as one of the largest 
users/purchasers of flood fighting material, it would show leadership 
as well as cooperation if Corps recognized and adopted the ANSI 2510 
standard would be for the Flood Risk Management Program--through the 
National Flood Fight Material Center--and require the standard in 
future contracts when purchasing flood fighting materials (there are 
several manufacturers that now have certified products). We note that 
there are situations where communities that are subject to repetitive 
flooding events and receive emergency flood fighting assistance. In 
previous conversations with Corps leadership on this issue, one concern 
expressed is that the ANSI 2510 standard was out of date and another 
was whether manufacturers could produce at the scale needed by the 
Corps. In fact, the ANSI 2510 standard was updated in the fall of 2020 
and includes new classes of flood abatement products.

    <bullet>  The Corps should commit to adopting the use of the ANSI 
2510 for flood abatement products including working with manufacturers 
to scale up production as needed and incorporate guidance on the use of 
these new technologies in the studies performed under Section 119 of 
WRDA 2020.
    <bullet>  ASFPM supports Corps efforts to upgrade/replace the ERDC 
water testing laboratory which would support provisions in both the 
2014 and 2020 WRDAs.
Planning and the Use of Nonstructural Flood Risk Reduction Measures
    Overall, ASFPM remains concerned about the lack of nonstructural, 
flood-risk reduction measures as part of the projects that the Corps is 
implementing. While the agency has the authority to implement a full 
array of nonstructural measures, and WRDA 2020 has added consideration 
of natural features and nature-based features in most project planning, 
thus far we are seeing too few of these measures actually being 
implemented. Yet these measures have been identified in many community 
hazard mitigation plans and other planning documents. It seems that if 
a project has not gone through a formal Corps planning process, then it 
does not formally exist. Better coordination is needed between the 
Corps and existing plans, which have proliferated in communities across 
the nation over the past 20 years (largely as a result of the Disaster 
Mitigation Act of 2000). We urge the Committee to monitor whether 
nonstructural and natural or nature-based flood-risk reduction measures 
continue to have an inherent disadvantage in most Corps programs or if 
the WRDA 2020 provisions result in meaningful changes. ASFPM encourages 
the Corps to identify and remove systemic biases against nonstructural, 
flood-risk reduction measures, especially for economically-
disadvantaged communities, and elevate the status of such measures 
strategically. This should be a key element of updating and 
implementing the Principles, Requirements and Guidelines directed in 
WRDA 2020, Sec. 110.
    ASFPM also applauds the inclusion of Sec. 216 of WRDA 2020 
``Authorization of Lower and Upper Missouri River Comprehensive Flood 
Protection,'' which includes FPMS and PAS authority to supplement these 
studies of Missouri River levees as part of a system-wide study. The 
study will look at reservoir operations and all levees to evaluate how 
the systems should be managed, (especially whether levees should be 
rebuilt, moved back (e.g. ``levee setbacks'') to reduce erosion and 
provide conveyance, or removed, and to consider if other mitigation 
options could be employed, such as buyouts or elevation of buildings, 
which would be more effective and less costly). One emerging trend that 
we have observed nationally, which might have applicability on a 
Missouri River system study, is concern over flood control--including 
large reservoir releases--and how we might make changes in the USACE 
water control manuals for flood operations to reflect new and emerging 
conditions, such as more frequent and intense storms.
    ASFPM also views the leadership role of the Army Corps of Engineers 
in the Federal Interagency Floodplain Management Task Force as a 
critical cooperation and coordination linkage with other federal 
agencies in addressing and managing the nation's flood risks. Federal 
agency coordination has deteriorated in the past decades. As federal 
agency budgets get reduced, interagency coordination is one of the 
first activities agencies cut or reduced. Yet as we experience 
increasing storm intensity and sea level rise, the need for federal 
agencies to collaborate with each other and the states is even more 
important. An example of an area where coordinated federal effort is 
critical is the development, collection, and public dissemination of 
better data and improved current and future conditions modelling with 
regard to: precipitation, storms and drought, flood risk mapping, 
stream and tidal gages, and topography (LiDAR). Two key mechanisms, the 
Federal Interagency Floodplain Management Task Force (FIFM-TF) and the 
Mitigation Federal Leadership Group (Mit-FLG) have an appropriate 
structure, but need more emphasis and more collaboration with states 
and need more dedicated resources for these efforts.
    Finally, ASPFM notes that the center of expertise for the Corps for 
nonstructural flood-risk reduction rests with the National 
Nonstructural Committee within the Planning Community of Practice. 
While we are encouraged--after a brief dissolution and reconstitution 
of the NNC the past couple of years--that there is at least some 
interest in maintaining this function within the Corps, we continue to 
be alarmed about its significant lack of human resources, the stove-
piping of the committee (within the Planning Division) and agency 
headquarters support/champion and whether this will be a barrier to the 
meaningful implementation of the non-structural and nature based 
approaches supported in WRDA 2020.
Executive Order 13690 Implementation
    A cornerstone for all agencies implementation of flood risk 
reduction under the current administration is the reinstatement of EO 
13690. ASFPM believes that concurrent with and perhaps prior to 
implementation of many of the provisions of WRDA 2020, the Corps should 
undertake the necessary steps to develop agency policies, guidelines 
and procedures to comply with the EO's requirements for a more robust 
floodplain management standard.
Project Backlog
    Congress took steps in WRDA 2020 to help address the large number 
of unfunded projects by including provisions to help USACE address the 
large project backlog. This backlog of projects extends from decades 
ago, so many of the projects on that backlog were not evaluated for 
economic, environmental or social impacts that are now required. WRDA 
established processes of certain projects and projects that have not 
been funded for 10 years. Also, USACE is required to provide Congress 
with a post authorization change report that reflects updated economic 
and environmental analyses before carrying out projects 20 years or 
more old. ASFPM strongly supports such analyses, especially in light of 
the many new WRDA 2020 requirements USACE must make in planning, 
analyzing and developing project alternatives.
                      Levee & Dam Risk Management
    Despite enormous public investment in flood ``control'' structures, 
that spending has been outpaced by development in risky areas and 
development in the watershed that increases runoff and flooding, and by 
the gradual deterioration of the protection provided by those 
structures. As the public grows to recognize the risks associated with 
levees, communities are working to evaluate the various actions they 
can take in response to those risks: levees can be repaired and 
improved or set back from the river to relieve pressure and erosion on 
the levee; homes, businesses and infrastructure at risk can be 
relocated to reduce risk and restore floodplain function. Waters can be 
detained upstream or adjacent to the stream by re-opening areas closed 
to flood storage and conveyance, such as Napa, California did; and 
measures can be combined to achieve the most effective results with 
scarce public dollars, with a particular eye to reducing the long-term 
operations and maintenance (O&M) costs for communities and taxpayers. 
WRDA 2020 has made substantial progress in this direction, particularly 
in the area of planning new projects, and it will be important to help 
the Corps with vigorous implementation of these new authorities going 
forward.

    <bullet>  In implementing Sections 114, 115, 116, 119 and 123 of 
WRDA 2020, the Corps should adopt specific policies and guidelines for 
new or reconstruction of levees that encourage increased use of levee 
setbacks from the water's edge to preserve riparian areas, reduce 
erosion and scour, reduce flood levels and flooding risks, and to allow 
natural floodplain ecosystems to better serve their natural functions.

    ASFPM would like to note some positive developments in recent years 
regarding levee and dam risk management and how they positively impact 
some of the new planning provisions of WRDA 2020, including Sections on 
Resiliency Planning Assistance (Sec 111) and directing the Corps to 
update its policies on environmental justice (Sec 112). The first of 
those has been the development of and public access to the National 
Levee Database (NLD) and National Inventory of Dams (NID). ASFPM was 
pleased to see the opening of the NLD for public access in 2018 (this 
follows the public access to NID, which occurred in 2015). This is an 
important evolution in levee and dam risk management to ensure the 
public has access to essential information regarding these flood-risk 
management structures. According to NLD, there are nearly 26,000 miles 
of levees with nearly 45,000 levee structures having an average age of 
57 years. Second, was the Corps' new policy on Emergency Action Plans 
(EAPs) and required inundation mapping (EC 1110-2-6074). This policy 
standardizes inundation mapping and establishes inundation mapping 
requirements for dams and levees. Third, the Corps and FEMA's more 
recent decision to publicly publish information on levee and dam 
failure inundation mapping in the national databases, with limited 
exclusions is essential. Information including levee risk descriptions 
and inundation mapping is already available in the NLD, where 
available. Similar information for Corps dams is in the process of 
being developed or formatting with a target of having it public 
``facing'' in the NID later this year. The public availability of this 
data will help property owners and communities make better informed 
flood risk decisions, and plan for and respond to adverse flooding 
incidents. It will also help FEMA meet one of the mapping requirements 
in the 2012 Biggert-Waters National Flood Insurance Program 
reauthorization, which required mapping of all residual risk, including 
failure inundation areas associated with dams, levees, and other water 
control structures. Public availability is especially critical in 
economically disadvantaged communities that often do not have the means 
to hire consultants or experts to develop or find these important data. 
In addition, flood risk resiliency planning simply cannot happen when 
critical inundation information is unavailable.
    Unfortunately, most other federal agencies that own, operate, or 
regulate these structures cling to the post 9/11 policy artifact that 
heavily restricts access to failure and other key information for 
``critical infrastructure.'' We commend the Corps for their leadership 
in making this critical flood risk information publicly available and 
suggest that Congress urge other federal agencies to follow the example 
and groundwork forged by the Corps and begin to publish this critical 
data for their flood control infrastructure.

    <bullet>  Congress should mandate that inundation mapping developed 
by all federal government agencies and/or associated with federal 
programs for dams and levees and other flood control infrastructure be 
made publicly available.

    It has come to light in recent years that many levees on the 
Mississippi River have been raised above their authorized height. This 
will result in more flooding across the river or upstream and 
downstream of that higher levee because the water has to go somewhere. 
This can lead to ``leapfrog levee,'' where levee owners on the other 
side of the river then raise their levee higher, and the cycle 
continues. We were quite pleased to see that Congress in WRDA 2020--
particularly in Title II provisions considering Great Lakes basin and 
in the Lower Mississippi River and Lower Missouri River basins has 
encouraged development of more comprehensive Corps basin-level reviews 
and studies that should shed light on levee systems overall effects on 
flood hazards and the values of nonstructural approaches and natural 
and nature-based features as management measures in addressing these 
basins' flood risks. We urge close attention to these studies and how 
they are utilized to inform decisions regarding levee repairs and 
rehabilitations in specific instances so as not to exacerbate risk in 
other areas. Such basin-wide planning and updating is needed in many 
basins across the country.

    <bullet>  ASFPM urges strong continued federal oversight to 
maintain levees at authorized levels. This should be done by the Corps 
or FEMA, and it must be adequately enforced.

    Finally, the National Dam Safety Program Act authorized the High 
Hazard Potential Dam Rehabilitation Program (HHPD) which provides 
grants to states to help rehabilitate the highest risk dams in their 
states. After first implementation in 2019, it was apparent that 
improvements to the authorizing language were needed. ASFPM, in 
coordination with the American Society of Civil Engineers (ASCE) and 
the Association of State Dam Safety Officials (ASDSO), worked with FEMA 
and Sen. Feinstein's office to propose changes which clarify grant 
eligibility requirements and better define technical terms. ASFPM 
supported the inclusion of a floodplain management planning requirement 
for communities impacted by a dam in the HHDP. WRDA 2020, Sec. 132 WRDA 
2020 legislation also improved the language for the floodplain 
management planning requirement. ASFPM believes that such plans must be 
practical and implementable so that those impacted can better 
understand flood risk and take steps to mitigate against the residual 
risk. These changes improve the implementation of this critical program 
that will help address safety issues for state regulated, high risk 
dams in the nation. Unfortunately, the demand and need for this program 
is currently far greater than the appropriated funding.

    <bullet>  ASFPM urges the Committee to pay special attention to 
assuring these provisions are timely and adequately implemented. 
Additionally, the committee should monitor demand for this program and 
make adjustments to the authorization level as appropriate.
Adjustments to P.L. 84-99
    ASFPM particularly would like to highlight WRDA 2020, Sec. 119. 
``Permanent measures to reduce emergency flood fighting needs for 
communities subject to repetitive flooding.'' This provision is 
potentially an important bridge and piloting effort to help with a 
seriously needed updating and improvement in the Corps' P. L. 84-99 
Emergency Assistance and Rehabilitation program. Where an enrolled 
community has a history of repetitive flooding and has received Corps' 
emergency flood fighting assistance (including temporary barriers), and 
the Corps and the community has a properly studied and documented 
solution for reducing flood risks, which would have a federal cost of 
less than $17.5 million, this new provision allows the Corps to proceed 
to construction or implementation, without the standard project-
specific congressional authorization (more like a continuing 
authorities-type project). We are especially encouraged at the 
inclusion of the requirements in this new process that, in planning, 
substantive consideration will be made ``to the maximum extent 
practicable'' for utilizing nonstructural and/or natural or nature-
based features, including levee realignments.
    Currently, the P.L. 84-99, the Corps' disaster assistance 
authority, is legislatively built on language that was first adopted in 
1941. In recent WRDAs we have generally seen only incremental changes, 
while costs of flood disasters are increasing dramatically, and 
simultaneously we are recognizing our overall approaches to flood-risk 
management require substantial new direction. As an example, P.L. 84-99 
provides by far the most generous cost-sharing formula of all the 
Corps' activities, to assist in repair and rehabilitation of disaster-
damaged levees and hurricane and storm damage reduction projects. In 
many cases, the repairs are coming at high federal taxpayer expense and 
are being repeated over and over without serious review because current 
policy constrains or bars the Corps from studying and recommending 
changes (and makes even the consideration of nonstructural approaches 
subject to a non-federal sponsor's consent).
    Under P.L. 84-99, the Chief of Engineers, acting for the Secretary 
of the Army, is authorized to undertake activities including disaster 
preparedness, advance measures, emergency operations (flood response 
and post flood response), rehabilitation of flood control works 
threatened or destroyed by flood, protection or repair of federally 
authorized shore protective works threatened or damaged by coastal 
storms, and provisions of emergency water due to drought or 
contaminated source. P.L. 84-99, which is the principle Corps program 
to repair and rehabilitate, incorporates a significant bias against 
nonstructural and integrated approaches combining structural and 
nonstructural approaches) to rehabilitation and repair of flood control 
works (FCWs).
    We look forward to seeing how the new Section 119 provision of WRDA 
2020 works in practice, and urge the Committee to look toward 
additional efforts to modernize and update the Corps emergency and 
rehabilitation programs in the future.
      Implementing Principles, Requirements and Guidelines (PR&G)
    ASFPM applauds the inclusion of Section 110 of WRDA 2020, 
``Implementation of the Water Resources Principles and Requirements,'' 
which directs the Secretary to issue final agency-specific procedures 
to implement the Principles, Requirements and Guidelines (PR&G) for 
planning Corps projects. We recommend that this be a top priority for 
WRDA 2020 implementation, and that any new guidance be updated to 
include responsiveness to additional principles reflecting resiliency 
provisions articulated in several of WRDA 2020's provisions, including 
environmental and social equity considerations, climate change, sea-
level rise and other anticipated future conditions, best available 
science-based planning, and long-term public safety concerns. ASFPM 
would expect that implementing Section 110 will include a process to 
update the 2013/2014 Principles & Requirements, as well as new 
requirements in WRDA 2020 and elements of other WRDA's since 2014, 
including new opportunities for public review and comment. This 
implementation must be coordinated with other federal water resources 
development and management agencies' PR&G implementation, as well.
    Federal activities and Corps investments in water resources and 
flood-control projects have been guided by a process that has remained 
largely unchanged for 30 years, despite a growing record of disastrous 
floods. The first set of ``Principles and Standards'' was issued in 
September 1973 to guide the preparation of river basin plans and to 
evaluate federal water projects. Following a few attempts to revise 
those initial standards, the current principles and guidelines went 
into effect in March 1983. Since then, the national experience with 
flood disasters has identified the need to update federal policy and 
practice to reflect the many lessons learned and advancements in data, 
information and practice.
    Section 2031 of the Water Resources Development Act of 2007 (WRDA 
2007) called for revision to the 1983 Principles and Guidelines (P&G) 
for use in the formulation, evaluation, and implementation of water 
resources and flood control projects. WRDA 2007 further required that 
revised principles and guidelines consider and address the following:
    1.  The use of best available economic principles and analytical 
techniques, including techniques in risk and uncertainty analysis.
    2.  The assessment and incorporation of public safety in the 
formulation of alternatives and recommended plans.
    3.  Assessment methods that reflect the value of projects for low-
income communities and projects that use nonstructural approaches to 
water resources development and management.
    4.  The assessment and evaluation of the interaction of a project 
with other water resources projects and programs within a region or 
watershed.
    5.  The use of contemporary water resources paradigms, including 
integrated water resources management and adaptive management.
    6.  Evaluation methods that ensure that water resources projects 
are justified by public benefits.

    In general, these requirements represented important goals for 
updating the P&G to respond to changes in the nation's values and 
increasingly looming concerns for our water resources nationally. In 
December 2014, the Obama Administration published an updated set of 
guidelines called the Principles, Requirements and Guidelines, which 
some federal agencies have implemented, but since the FY 2015 
Consolidated Appropriations legislation, the Corps was barred from 
implementing the revised P&G, or to make much in the way of needed 
changes in approaches or technical aspects of project planning. While 
Congress had some questions about the specific proposed revisions, we 
believe that an updating of project planning and evaluation procedures 
continues to be a strong current and future need to respond to present 
and changing priorities.
    As an example, a major weakness of past benefit-cost analysis for 
water resources projects has been the failure of project planners to 
realistically account for the full life-cycle project costs over 
project lifetimes. This results in a bias for structural projects that 
require significant long-term O&M and rehabilitation costs, whereas 
nonstructural designs often have little or no maintenance, masking the 
true costs of alternatives.

    <bullet>  ASFPM recommends that in developing the implementation 
guidance for the Principles and Requirements, agencies must require a 
full accounting of long-term operations, maintenance, repair, 
rehabilitation and replacement costs be included in benefit-cost 
analyses for all structural and nonstructural projects, and identify 
which costs are a federal responsibility or the responsibility of non-
federal sponsors or other interests.

    Additionally, another weakness of past benefit-cost analysis for 
water resources projects is the failure to recognize or give 
significant weight to the inherent societal benefits of non-structural 
projects that remove people from high risk areas, thereby saving lives.
    The 1983 P&G requires selection of water resources projects that 
maximize net National Economic Development (NED), regardless of total 
costs to taxpayers or the social or environmental impacts.

    <bullet>  ASFPM recommends that the Corps and other agencies 
develop and transition federal planning principles to a National 
Economic Resilience and Sustainability standard instead of the current 
National Economic Development standard to explicitly incorporate the 
values of multiple ecosystem services, including the non-market public 
values provided by the nation's floodplains and ecosystems.

    Floodplain management, public safety and long-term environmental 
quality and sustainability would, in many instances, improve by 
expanding to a resilience/sustainability standard approach.
    Another major concern with water resources projects is that they 
should be designed and analyzed on conditions that will exist at the 
end of their design life. For example, if a levee is designed for a 50-
year life, the level of protection it will provide must be calculated 
using the hydrology (rainfall and runoff) and sea level rise that can 
be projected for the end of that design life. As extreme rainfalls 
increase and sea level rises, it is foolhardy to not use these future 
conditions in design and BCA analysis. We are currently seeing levees 
that no longer provide the design level of protection because design 
rainfalls have increased from 25-45%, thus the design flood height is 
much higher. In those cases, levee overtopping and failure result in 
excessive damage because development in the ``protected area'' now 
experiences flooding at great depths and damages. Nonstructural options 
like elevation of buildings or relocation would not experience that 
catastrophic damage. All such information needs to be factored in the 
BCA analysis.
                               Conclusion
    The Corps is uniquely positioned, with Congressional support, to 
help transform itself and take a different, much more inclusive, 
holistic and collaborative approach. WRDA 2020 is a step in that 
direction. Rare among agencies, the Corps allocates significant 
resources for research and development through entities like the 
Institute for Water Resources and ERDC, and has a long history of 
expertise in all aspects of flood-loss reduction--both structural and 
nonstructural. Centers of expertise such as the USACE National 
Nonstructural Floodproofing Committee focus on measures to reduce the 
consequences of flooding versus reducing the probability of flooding. 
The successful Silver Jackets program is putting the Corps into a new 
``convener'' role, bringing other federal agencies together with state, 
local, and tribal governments and other entities to find flood risk 
management solutions. Initiatives like Engineering with Nature and the 
USACE partnership with ASFPM in the National Flood Barrier Testing and 
Certification Program continue to forge new paths; leveraging new 
technologies and approaches to tackle long-standing flood problems. We 
are encouraged by the direction set by WRDA 2020 and its provisions 
focusing on resiliency, non-structural and nature-based approaches to 
flood risk management and at the same time are concerned that these 
approaches will not be implemented in a way to realize their full 
potential. We urge careful and continued oversight.
    Thank you for the opportunity to share our observations with you. 
We hope you find them helpful in your continued oversight of the U.S. 
Army Corps of Engineers and the implementation of WRDA 2020. If you 
have any questions, please contact ASFPM Executive Director Chad 
Berginnis.

    Mrs. Napolitano. Thank you very much, sir. I appreciate 
your testimony, and all of you. Thank you to all the witnesses. 
We will now hear questions for the witnesses and, again, we 
will use the timer for each Member. If there are additional 
questions, we may have a second round or more as necessary.
    I will begin the questioning with Mr. DeFazio. I will defer 
to him for questions.
    Mr. DeFazio. Thank you, Madam Chair. To Secretary 
Strickler, something you said in your testimony about the 
current estimated sea level rise by the Corps you find to be 
totally inadequate. Could you address that a bit more?
    Mr. Strickler. Yes, Mr. Chairman. Thank you for the 
question. It is my understanding that the Army Corps is using 
its own intermediate sea level rise curve for engineering and 
planning purposes and evaluation of projects. That curve 
estimates and projects significantly less sea level rise than 
the other curves, particularly the NOAA intermediate high 
curve, but even lower NOAA curves that are being used for 
planning.
    In Virginia, we are using the NOAA intermediate high curve, 
which shows that in the next 20 years in our Hampton Roads 
area, we are going to be seeing, at least, another 18 inches of 
sea level rise with closer to 4 feet by about 2060, and there 
is a significant gap there, about a 2-foot difference between 
that and the Corps' intermediate projections. So that is a 
pretty big deal, the lifespan of some of these larger projects.
    Two feet can be the difference between having houses and 
businesses being protected and having their first floor be 
covered with water during floods. So that is a concern for us, 
and it is one that we would like to see updated and synced, 
hopefully, across the Federal Government and that is something 
that we think that you all in the Biden-Harris administration 
can work together on.
    Mr. DeFazio. Well, thanks for bringing that up and it is 
certainly something I will raise with Jane Lubchenco when she 
gets into her new job, and she is somewhat of an expert on 
these issues, and have the administration address that 
generally, both through the Corps and other agencies.
    To Professor Piehler, if I could kind of distill down what 
you said. The way you are measuring, and setting up for 
resilience measures is kind of a new way of a cost-benefit 
ratio looking at it, don't you think, compared to what the 
Corps currently uses?
    Mr. Piehler. I do think that is accurate. It is work being 
done on the Center on Financial Risk in Environmental Systems 
at our university. And what it does is directly couple the 
environmental models to the financial models, so then, rather 
than feeding in relatively simple scenarios, like a 1-percent 
likelihood of an event occurring into a financial model, you 
are coupling the two models, and you are able to capture the 
dynamics of both the environment and whatever the financial 
system is that you are interested in.
    Mr. DeFazio. Right. And you are looking, specifically--I 
mean, you said you were going down to essentially the 
individual parcel level for people?
    Mr. Piehler. That is accurate, yes. There are a lot of data 
out there that I think have not been fully utilized, and in 
this individual project, for sure, that is the level of 
resolution.
    Mr. DeFazio. That is really interesting. I think that is 
something the committee should be looking at, and, perhaps, 
modeling for the future. There would also be a public benefit 
far beyond that, since many of these losses, or the financial 
things you are measuring, would be under the flood insurance 
program. Isn't that correct?
    Mr. Piehler. That is absolutely correct, yes, and that is a 
source of some of the data, but I also think it is a comparison 
between the data that we are using in our study, and those that 
have been used in NFIP.
    Mr. DeFazio. Great. OK. Thank you, Madam Chair.
    I yield back.
    Mrs. Napolitano. Thank you, sir, very much.
    The next, we have, Mr. Rouzer. Mr. Rouzer, you are 
recognized.
    Mr. Rouzer. Thank you, Madam Chair, and thank you, again, 
Dr. Piehler, for joining us here today. I am, as most folks 
know, I am an NC State Wolfpack alumnus, but today I am a 
Carolina fan and I really, really appreciate you being here.
    Now, you mentioned the term ``convergence research'' in 
your testimony, and you note that, quote, ``flooding is a 
transdisciplinary challenge and cannot be solved with 
individual expertise, but rather requires the integration of 
multiple concepts to develop new perspectives.''
    There is a lot packed into that. How would you describe how 
convergence research can be applied to reduce damage from 
floods and storms, and as a result, create economic, 
environmental, and social benefits?
    Mr. Piehler. So moving away from the academic definition of 
convergence, there is a practical definition, and what it 
involves is getting the necessary experts together ahead of 
time, and not forming individual concepts for investigating a 
problem independently, but, rather, working as a group.
    And there is a lot of conversation around developing a 
shared language, and I think that is really true, that working 
in individual disciplines, the perspectives are so focused that 
you don't necessarily have a sense of all of the allied issues 
that other experts are thinking about.
    So the breadth of our group was established through those 
original funding sources that I described and we have been able 
to work together collectively for almost 2 years now, and have 
gotten to the point where our engineers understand the things 
that our natural scientists are saying and understand the 
things that our social scientists are saying and are able to 
frame the whole of the question.
    For me, flooding is an issue where if you know where the 
water is going, how deep it is, and how long it is there, that 
is great, but that doesn't tell you what the impacts are on the 
community, and that doesn't give you a really clear sense of 
the financial implications.
    So convergence is a popular term right now to describe 
bringing together these groups, developing this deep 
integration and working towards specific problem-solving so we 
have identified minimizing damage from flood and storms as the 
problem we want to tackle, and are looking at it from our 
multiple disciplinary perspectives, and then our shared group 
understanding.
    Mr. Rouzer. In North Carolina we have had tremendous 
population growth. Now, it is not uncommon if we have a huge 
rain event in Raleigh, North Carolina, further east, southeast, 
in particular, my district can sometimes become a flooding 
event. There are a lot of constituents that I have that look at 
the rivers, the creeks, the streams and say, you know, it seems 
to us that if we would just clean these out, if we would keep 
them up, the water would have somewhere to go and we wouldn't 
endure the flooding events that we have had the last several 
years.
    Now, I certainly understand that things can be more 
complicated than they seem, but it does strike me that there is 
an element of common sense here that suggests that many of my 
constituents are dead on. What type of research, what type of 
analysis is being done in that regard as it relates to cleaning 
out the rivers, creeks, and streams? And do we have an ability? 
And is this what you are really working on?
    I am finding the targeted areas where it would be most 
beneficial to remove debris, et cetera.
    Mr. Piehler. So that is not a core focus of the things we 
are doing right now, but it is certainly something that we 
think about. And I think you are right, that in some cases, 
there are opportunities to improve the situation if there are 
huge debris dams that are entirely blocking creeks and streams, 
that that can be a way to prevent that obstruction from causing 
flooding.
    But it is the case that a lot of the streams and creeks are 
really flowing fairly well, and that debris removal, in and of 
itself, I don't think is a key answer. I think it is a tool 
that can be used to solve some problems. People also think 
about dredging as a tool, and that has been shown to not really 
develop the new volume of water-moving capacity to combat the 
huge floods that we see now.
    So certainly--I think we need to consider circumstances 
where there is really acute blockage of streams and creeks and 
even rivers, but I don't think that that is probably a core 
tool for the things that we are thinking about, the magnitudes 
of the flooding that we are looking at. And an important thing 
as you get closer to the coast, is to remember that removing 
those obstructions and improving the flow works both ways.
    So as you have storm surge, or as you have water level 
rise, it is also going to bring the water back up into the land 
just as well as it takes it off.
    Mr. Rouzer. Thank you, Madam Chair.
    I yield back.
    Mrs. Napolitano. Thank you, Mr. Rouzer.
    I will yield myself 5 minutes to begin the questioning.
    Mr. Seroka, you acknowledged that it is now up to the 
administration and the budget process to implement the spend-
down of the Harbor Maintenance Trust Fund balance, the 
equitable allocation formulas, and the expanded use provisions. 
But can you discuss why there is a need to act quickly, and 
what does it mean for job creation, addressing the huge backlog 
of maintenance needs, our economy, and our trade?
    Mr. Seroka. Thank you, Madam Chair. Acting with urgency in 
providing certainty will allow for private investment to also 
happen quicker; provide faster benefits to America's farmers 
and exporters who need certainty and lower freight cost to 
compete in the global marketplace. And please remember with 9.5 
million Americans still out of work, this means jobs. Ports 
around the Nation are economic enablers for their surrounding 
communities and regions.
    The Port of Los Angeles as 1 port supports 1 in 9 jobs in 
southern California, and 1.6 million nationwide. Expediting 
these projects for the Nation's ports will allow them to more 
fully support America's recovery and resurgence.
    Mrs. Napolitano. Thank you, sir.
    Mr. Strickler, in your testimony you discuss the great role 
your State plays in developing, managing, and operating flood 
control, resiliency, and water resource projects by partnering 
with the community. How important is community consultation in 
resiliency planning and on projects, especially in communities 
historically neglected or disenfranchised?
    Mr. Strickler. Madam Chair, thank you for the question, and 
it is critically important. These communities, many communities 
along our coasts, are--in both rural and urban areas--
communities that have traditionally been disadvantaged, 
disenfranchised, whether through redlining, or other policies, 
or simply through economic considerations, and sometimes the 
lowest lying land and the most vulnerable land is the least 
expensive land. Getting into those communities doing 
significant outreach, not only to inform them about the work 
that we are doing at the Commonwealth level, but also to get 
buy-in from the community and understand the types of solutions 
that those communities want to see in order to survive and 
thrive into the future is really a core focus of our coastal 
master planning work.
    Mrs. Napolitano. Thank you very much.
    Mr. Berginnis, your testimony addresses the diverse needs 
of communities around the country. Do you believe the Corps 
needs to do more to implement modern science and technology to 
address all the modern problems, such as expanded flooding in 
the east and longer droughts in the west?
    Mr. Berginnis. Madam Chairwoman, yes, indeed. And the 
Corps, as I believe your statement had made it clear earlier, 
they are the preeminent water resource agency in the United 
States. Yet, we have a hurdle of getting that technical 
assistance to communities. And, so, while it was a great 
provision in the WRDA 2020 where there is going to be some 
intentionality on working with rural and economically 
disadvantaged communities, that is only 10 communities, and 
that expertise is needed literally by hundreds or thousands of 
communities.
    So, we need to operationalize that technical assistance by 
having that disassociated from projects and having Corps 
expertise available on the ground when it is needed.
    Mrs. Napolitano. Well, then, would you agree--to all the 
witnesses--much of your testimony concerns the problem that the 
Corps is underfunded to perform many of their necessary 
concerns and projects across the country? Can you discuss what 
impact a lack of funding has on flood protection, navigation, 
and environment? Anybody? Underfunding of the Corps?
    Mr. Seroka. Absolutely, Madam. And that is why we pushing 
for these-- it has been over a decade that we have had these 
conversations, and with so much great support of House T&I, as 
well as this subcommittee. So we support that effort as well.
    Mrs. Napolitano. Anybody else?
    Mr. Berginnis. One thing I would add is that the Corps does 
do a lot of robust research and development. So, again, they 
are continually sharpening their skills, and giving us new 
information. And so that is an area also that is not as funded 
robustly is making sure that the Corps itself understands and 
can use the latest technology.
    Mrs. Napolitano. So it needs to be reprogrammed. Anybody 
else?
    Mr. Strickler. Madam Chair, I would just agree, States like 
Virginia don't have the benefit of large dedicated funding 
sources like some of our friends on the gulf coast, for 
example, do. And, so, increased Corps funding, and importantly 
increasing Corps funding for States that have taken the 
proactive steps, like we have, putting together thoughtful, 
forward-looking master planning efforts is really important for 
us.
    Mrs. Napolitano. Well, thank you very much, everybody. Now, 
I yield to Dr. Babin. You may proceed.
    Dr. Babin. Thank you, Madam Chair. I want to say thank you 
to all you witnesses as well. We really appreciate this very 
important hearing. And thank you, again, Madam Chair, for 
having this. I would also want to thank our ranking member, Mr. 
Rouzer, as well. The successful passage of WRDA 2020 is a good 
example of what we can achieve when we all work together. And I 
am very pleased to be talking about it today. As a 
Representative of southeast Texas, basically, from Houston, 
Texas, over to Louisiana, nine counties it is comprised of, as 
well as the critical elements of my district, as well as the 
economic health of the State and, really, the entire country.
    Without efficient ports, strong inland waterways, and well-
built pumps and levees, this country down here would not 
experience the level of economic success that it has been 
seeing up to today. My district has four ports, including one 
of the Nation's biggest ones, which is the Port of Houston and 
the Houston Ship Channel is the busiest U.S. deepwater draft 
waterway in the country. It is the top export port in the 
Nation, biggest energy port, largest petrochemical refining 
complex, and largest container port on the gulf coast, and the 
number one breakbulk port in the country. And that is why I am 
very pleased to have helped join in the efforts to ensure that 
provisions supporting the widening and dredging of the Houston 
Ship Channel passed in 2020 WRDA.
    This is a critical milestone for this region, and from 
conversations with the port and companies who utilize this 
channel, to meetings with Secretary James of the Army Corps, 
and leaders at the previous administration's OMB, the Houston 
delegation, and I have bipartisanly supported the channel's 
expansion project in every way that we possibly could have. And 
to help complete the approval process, we also secured a ``new 
start'' designation at the beginning of this year, allowing 
construction to begin, and that means that we are able to get 
authorization, appropriation, and a ``new start'' designation 
all within 1 year.
    Very rarely does that happen. We were so happy. But this 
means that we were able to get this huge win, not only for 
advancing our country's energy independence, but also improving 
our national security, providing goods, services, and what have 
you for our support of our growing economy.
    One of the challenges, however, that we face down in this 
southeast Texas region is the repetitive flooding that so many 
of my constituents experience on an annual basis now. We have a 
great opportunity to help mitigate this problem with stronger 
and improved infrastructure. So, I have a question that I would 
like to address to Dr. Piehler and also to Mr. Berginnis.
    Is it not an exaggeration to say that by spending $1 
million today on hurricane and flooding prevention 
infrastructure, that we can save $1 billion on damages down the 
road from another storm or hurricane like Hurricane Harvey? If 
you could both, please, share your thoughts on this, I would 
appreciate it.
    Mr. Piehler. Sure. I think I would certainly agree with the 
investment upfront providing a huge return on the back end. The 
million/billion numbers I wouldn't be entirely certainly about. 
I think it would depend on your investments.
    But I think it is clear that prevention is a very good 
investment and that we are in a place where we have a good 
understanding of what those investments might be.
    Dr. Babin. Right. Thank you.
    And, Mr. Berginnis.
    Mr. Berginnis. Yes. And I would also concur as well. FEMA 
continues to do updated studies to show the investment in flood 
mitigation activities, infrastructure, and such, and they show 
an excellent return on investment. For flooding measures, I 
believe it is 8 to 1 in terms of doing that.
    And the other thing that we need to take into account, and 
your district certainly knows that well, is to pull out every 
tool we have in the toolbox. It is infrastructure, it is 
nonstructural, some of it even could be codes and standards. We 
have to use an all-the-above approach.
    Thank you.
    Dr. Babin. Great. Great answers, both of you. Thank you so 
much.
    And, Madam Chair, I will yield back.
    Mrs. Napolitano. Thank you very much, Mr. Babin.
    Next, we have Mr. Huffman.
    You may proceed.
    Mr. Huffman. Thank you very much, Madam Chair, for this 
very important hearing.
    Last week in the Committee on Natural Resources' 
Subcommittee on Water, Oceans, and Wildlife, I chaired a 
hearing on building back better with a focus on building 
resiliency for the economy, for climate, and for ecosystems. 
This is the way we have to approach it these days, with climate 
change, a warming ocean, acidification of our ocean, and of 
course rising sea levels.
    The good news I see is that many of these nature-based 
solutions we have been talking about will help us solve and 
confront the climate crisis and get people back to work at the 
same time.
    I believe we can promote investments in blue carbon 
ecosystems and restoration projects that are going to sequester 
and store carbon, while also protecting our coasts from storms. 
We have an opportunity to build up our working waterfronts, our 
wetlands, our oyster beds, and living shorelines. And 
restorative aquaculture is very promising.
    So I have a question for Secretary Strickler.
    And let me say, Secretary Strickler, it is great to see you 
again. You were a terrific staffer in the Natural Resources 
Committee for many years. It is good to see you continue in 
your great work. And great to have you back in the House of 
Representatives.
    You discussed in your testimony the importance of 
protecting and enhancing green or natural infrastructure, like 
natural coastal barriers and fish and wildlife habitats.
    But I want to talk a little more specifically about fishing 
communities and what this means for communities like many of 
yours in Virginia, like a lot of the ones I represent on the 
north coast of California.
    Can you talk about the multiple economic benefits of how 
natural infrastructure can provide both coastal resiliency, but 
also improve aquatic ecosystems, and what that means for fish 
habitat and fishing communities?
    Mr. Strickler. Mr. Huffman, it is good to see you as well, 
and thank you for your kind words.
    The things that you mentioned here, green infrastructure, 
blue carbon, enhancing these resources in concert with our 
resilience efforts, are incredibly important for all of coastal 
Virginia, but specifically for our fishing communities and the 
folks who depend on ecotourism, coastal tourism, and the like.
    For example, one of the things you mentioned was oyster 
reef restoration. We, as part of our Chesapeake Bay restoration 
effort, have a significant initiative underway to restore 
oysters in a number of tributaries along the Chesapeake. And 
those obviously provide the cobenefits of habitat for juvenile 
fish, but also for wave attenuation and coastal resilience as 
well.
    The most significant problem we face in Virginia is 
something that is, I guess, most easily described as coastal 
squeeze, where you have got sea level rise and increased 
coastal hazards on one side versus what has traditionally been 
thought of as a fixed infrastructure, whether it is homes, 
businesses, roads on the other side.
    And as the sea level comes up, it pinches that really, 
really important coastal habitat, whether it is wetlands, 
dunes, beaches, or riparian forests. They are our most 
productive ecosystems for fisheries in particular, but also for 
wildlife habitat.
    And that is where we are really going to get hurt. Virginia 
is incredibly dependent on blue crabs, which are very important 
for the commercial fishery, but also as forage for a number of 
other fisheries, including striped bass, which depends heavily 
on not just the estuary, but the rivers as well for spawning.
    And so our fisheries ecosystem in the Chesapeake Bay and 
the coastal Atlantic Ocean would completely collapse if this 
habitat were to go away. And so what we need to figure out is 
ways to restore and protect those flood plains, those coastal 
barriers, those estuarine habitats, while at the same time 
making our communities more adaptive and resilient to climate 
change.
    Mr. Huffman. I appreciate that. And those fragile estuarine 
habitats are just as important on the west coast to our salmon 
fisheries.
    So that is it. Before I yield back, Madam Chair, let me 
just tell the witness, Mr. Berginnis, who brought up Eureka, 
Missouri, I represent Eureka, California. And it is great to 
see natural solutions being put to work in Missouri. We are 
certainly doing our part in California.
    But from one Eureka Representative to another, I 
appreciated your testimony.
    And I yield back, Madam Chair.
    Mrs. Napolitano. Thank you very much, Mr. Huffman. That was 
very nice of you.
    Next we have Mr. LaMalfa.
    You may proceed, sir.
    Mr. LaMalfa. Thank you, Madam Chair.
    And thanks to our witnesses in committee today.
    Dr. Piehler, I have a couple of questions for you at this 
moment on issues concerning how Army Corps is working under a 
new program to investigate installing more hydropower.
    Now, we have seen issues where hydropower is not treated 
very fairly as a form of renewable energy. It seems to be the 
emphasis is so heavily upon wind and solar, yet those are not 
24/7 available sources of power. So Army Corps was instituting 
a program to promote more of it in rural areas, seeing if 
existing dams could be refitted or upsized on their hydropower 
programs.
    It certainly would mean a lot for the rural economy in 
places like mine, which have a lot of opportunities for 
expanding hydropower or creating hydropower and the rural jobs 
that go with those. Once you build other types of green power, 
those jobs dwindle down to virtually nil as opposed to the 
powerplants, which are permanent infrastructure.
    So, Dr. Piehler, in the WRDA 2020 there was a provision 
that would allow non-Federal interests to evaluate and plan for 
whether existing dams could be upgraded, modified to include 
more hydropower.
    Do you think that investment in these areas would be 
something Congress should be emphasizing in comparison to other 
types of renewable energy?
    Mr. Piehler. So I will say that is outside the scope of my 
expertise and the things that we are focused on in our current 
work. But I do think that, like any of these proposed projects, 
it is really important to look at the comprehensive situation 
and consider everything there is, from environmentals to 
financial, and weigh the decision.
    Mr. LaMalfa. All right. Let's shift gears then.
    We have had some disaster issues in this area. You might 
recall Oroville Dam where a spillway infrastructure broke and a 
lot of erosion was allowed to get into the river, Feather River 
between Oroville and largely the Yuba City/Marysville area, and 
other issues like that where, post-forest fires, we have a 
tremendous amount of erosion that can get into the water, run 
down the watershed into rivers and streams, et cetera.
    Yet there is not much that seems to be done about that. We 
should be doing more forest management and more issues to help 
prevent those things from happening in our waterways.
    So what I am getting at is that in the WRDA 2020 there was 
a section 118 pilot program that can be used to help work on 
that. Do you believe that would be a very productive way of 
using that program in WRDA 2020?
    Mr. Piehler. So from the environmental perspective excess 
sediment can be really problematic in aquatic systems. And I 
think you alluded to the solutions almost always being front-
end investment and on-land activities to prevent it from 
happening. Obviously, in cases like forest fires it is hard to 
do, there is not a lot of mitigation against that.
    But I do think that considering sediment management is 
critical. As you get to the coast, the dynamic gets a little 
more complicated because so many of the habitats that we value 
there rely on a supply of sediment, so it becomes a little more 
like Goldilocks, where you want the perfect spot, a little bit 
of sediment, but not too much.
    But I certainly believe that sediment is a critical factor 
in aquatic systems and advancing its management is an important 
investment.
    Mr. LaMalfa. Yeah, I don't think we are running short of 
sediment around here. So our rivers and streams have less 
capacity. Well, the rivers, especially with the levees, have 
less capacity to carry floodwater because they are soaking up 
more and more.
    And the forest situation, for example, up in the upper 
Placer County area, fire residue has caused one of the dams, at 
least one of them up there to have problems being able to run 
their hydroelectric system on there because of silting up at 
the bottom of that.
    So it indeed does have a big effect. I know there is much 
to be done to prevent silting along roadway construction 
projects with all the wattles and stuff you see.
    But, interestingly, they want to remove the dams up on the 
Klamath, three of them in my district, and they are not 
accounting for the amount of silt already sitting behind those 
that would be released into the Klamath River all the way to 
the ocean, thereby having a devastating impact on the 
fisheries.
    They don't seem to be talking about that much. So we have 
to look at silt from all angles here.
    So with that, Madam Chair, I will yield back.
    Mrs. Napolitano. Thank you, Mr. LaMalfa.
    Now we have Ms. Johnson from Texas.
    You are on, Eddie Bernice.
    Ms. Johnson of Texas. Thank you very much, Madam Chair, 
Ranking Member, and Chair of the full committee.
    This has been a very interesting hearing, and I would like 
to ask unanimous consent to put my opening statement in the 
record. And I simply want to make a statement.
    I hosted a meeting over a year ago with our North Central 
Texas COG and all of the stakeholders with FEMA, with the Corps 
of Engineers, and our State, city, county level officials to 
talk about flooding and prevention, because what we find 
ourselves doing is constantly cleaning up behind flooding.
    I am in north Texas, but we have lots of tributaries from 
major water streams, and we deal with a lot of flooding. And we 
have found in working together, which we are still working 
together, that we can avoid so much cost if we focus on 
prevention rather than cleanup.
    And so that is ongoing. And perhaps sometime we can have a 
hearing that includes some of the Texas activity that is really 
focused on prevention. And I just wanted to share that with the 
full committee.
    We have the largest ports. We have many water streams as we 
are a border State. And I think that we have started to look at 
something very useful for the entire country for our area, with 
bringing all these stakeholders together, Federal, State, city, 
and county, as well as two major Federal agencies, with both 
FEMA and the Corps of Engineers, to look at saving money and 
attempting to work together to avoid some of the flooding 
damage.
    So thank you very much. And I yield back.
    Mrs. Napolitano. Thank you very much. And, yes, your 
testimony will be entered into the record.
    [The information follows:]

                                 <F-dash>
 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Please allow me to thank Chairwoman Napolitano and my fellow 
colleagues on the subcommittee for their diligent work to address the 
urgent water resources needs of our communities. The purpose of this 
hearing allows us to continue to monitor and implement the policies and 
principles included in WRDA 2020. As we seek to address the multitude 
of water resources needs of disadvantaged communities across America, 
we should also seek to include minority and women owned businesses in 
providing services to address these needs.
    As noted by the committee, the Corps is the Federal Government's 
largest water resources development and management agency and is 
comprised of 38 district offices within eight divisions. The Corps 
operates more than 700 dams; has constructed 14,500 miles of levees; 
and maintains more than 1,000 coastal, Great Lakes, and inland harbors, 
as well as 12,000 miles of inland waterways. Given the size of the 
Corps, I wonder what minority contractors are able to participate with 
Corps projects.
    The committee also notes that the Corps continues to respond to the 
challenges of extreme weather events, strengthening storms, and sea 
level rise--each of which create unique strains on water 
infrastructure, and require diverse approaches to meet the complex 
needs of communities relying on it.
    Given the recent extreme weather challenges in Texas and across the 
Nation it is my hope that, as we seek to implement sound water 
resources principles, requirements and guidelines, we make sure we are 
able to include all of our communities of color and design water 
systems with them in mind.
    As the committee continues to focus on environmental justice 
policies as they relate to future corps projects, it is without 
question that the inclusion of minority businesses must be a strong 
part of this effort. History has shown us that we cannot adequately 
address needs of economically distressed communities while excluding 
them from the very process that is meant to provide economic help.
    Madam Chair, I am encouraged that, as the committee notes, WRDA 
2020 makes important strides to better enable communities of all 
affordability levels and economic status to participate in the Corps 
process and access the expertise or water infrastructure they need. It 
also helps ensure that the Corps provides wider community engagement 
and consultation with such communities in the Corps process.
    Examples of provisions in WRDA 2020 that address access and 
affordability concerns, include:
    <bullet>  Section 112 requires the Corps to update its 
environmental justice policies and ensures that the Corps provide 
meaningful consultation with minority communities, low-income 
communities, and tribal communities affected by water resources 
development projects.
    <bullet>  Sections 117, 118, and 165 provide the Corps with 
additional flexibility in addressing the water resources needs of 
rural, small, or economically disadvantages communities.
    <bullet>  Section 119 authorizes the Corps to work with communities 
facing repetitive flooding in developing and implementing permanent 
measures to reduce emergency flood fighting needs.

    The provisions, along with the pilot and technical assistance 
programs that are included in WRDA 2020 are most encouraging. Thank you 
again for holding this hearing. I yield back the balance of my time.

    Mrs. Napolitano. Next, we have Mr. Mast.
    You may proceed.
    Mr. Mast. Thank you, Chairwoman. I appreciate the time.
    Thank you, everybody, for your testimony.
    Dr. Piehler, my questions are going to go to you today. I 
was reading your written testimony, as well as listening to 
you. You spoke about something of particular interest to me, 
which is what you labeled as harmful algal blooms. I speak to 
them more so in the terms of toxic algal blooms.
    I don't know, are you aware that the EPA has put some 
specific numbers on algal blooms identifying when they are too 
toxic for human contact?
    Mr. Piehler. I am, yes.
    Mr. Mast. You are? Are you familiar with those numbers the 
EPA put out there?
    Mr. Piehler. I couldn't--no, I could not provide them right 
now. But I am certainly familiar with the new guidance.
    Mr. Mast. For microcystin, which is quite often what you 
get in this blue-green algae, it is 8 parts per billion or 8 
micrograms per liter. It is too toxic for human contact, 
leading to things from liver failure to death, depending on how 
much you might ingest for that, and certainly has killed 
wildlife as well.
    Do you have any idea of what kind of numbers your area has 
seen?
    Mr. Piehler. I think that--no, not specifically. But 
certainly we have had problems with toxin-producing species. 
And I have done some work in Florida on similar species.
    Mr. Mast. Where did you do that work in Florida? Obviously, 
that is my backyard.
    Mr. Piehler. Lake George. So leading up to Jacksonville.
    Mr. Mast. Sure. There are a lot of folks that deal with 
this issue, from Louisiana, to Ohio, Michigan, Florida, and 
other places. Not always [inaudible] that this issue is dealt 
to you by the U.S. Army Corps of Engineers.
    So in my community I actually have a situation where every 
year we can pretty much count on the U.S. Army Corps of 
Engineers taking algal blooms--and you already talked about the 
numbers of where they are toxic at 8 parts per billion--that 
are measuring somewhere around 400 to 600 parts per billion, so 
extremely toxic, taking them out of one water body and moving 
them to an entirely separate body of water and community by 
canals that they dug.
    How would you feel if that was going on in your community?
    Mr. Piehler. I think that is one of those tough situations 
where we have a solution to a past problem that is creating a 
new challenge and we need to rethink the solution.
    Mr. Mast. Can you expand on that a little more? That seemed 
like a lot of ambiguous terms, not terribly specific.
    Mr. Piehler. Well, I think about our work where we look at 
things like stormwater drainage systems, which were a 
remarkable early resilient strategy. And now, as water level is 
high, some of the stormwater drains don't work as they once 
did, and so they end up being a problem that creates new 
flooding.
    So if you have a situation where you are managing water in 
one way, thinking about, like, an estuary, where originally in 
the 1980s we were looking at phosphorus, if you do a really 
great job managing phosphorus you can end up moving your 
problem farther downstream in an estuary or you have the same 
algal blooms and they are then limited by nitrogen.
    So I think it is a case where occasionally solutions create 
unexpected problems.
    Mr. Mast. I think we are all experienced to that on the 
Water Resources and Environment Subcommittee. Previous 
solutions creating future problems is probably one of the most 
bipartisan issues that we all deal with on this committee.
    I'm going to ask you this pointed question. Do you think 
the Corps of Engineers has the right to poison communities?
    Mr. Piehler. I think that that is not a--I mean, I don't 
know that I think anybody should be poisoning anyone. But I 
would have to understand the situation a little more 
specifically.
    Mr. Mast. No doubt all these situations have their 
different idiosyncrasies.
    But we should be able to agree at a certain level that 
nobody has the right to poison us as individuals. And certainly 
as an overseer of Government, that should be a basic premise of 
good Government, that we not allow [inaudible] Government to 
poison communities [inaudible].
    Mr. Piehler. I definitely--I subscribe to the ``do no 
harm'' philosophy for sure.
    Mr. Mast. Very good.
    Do you think that the Corps of Engineers should be allowed 
to exempt themselves from different provisions of the Clean 
Water Act?
    Mr. Piehler. Again, I would need more context. I do think 
that there are reasons for all sorts of decisions. And I 
wouldn't want to say specifically.
    Mr. Mast. Very good. I appreciate your answering my 
questions today.
    I just [inaudible] one quick question, Madam Chairwoman, if 
you know the answer to this, as we are speaking about WRDA. Are 
the Clean Water Act and ``waters of the U.S.'' planning to be 
opened up in WRDA 2022?
    Mrs. Napolitano. That I would have to defer to staff to see 
where they are with that.
    Mr. Mast. Thank you, ma'am. I appreciate your time.
    Mrs. Napolitano. Thank you, Mr. Mast.
    Mr. Garamendi, you may proceed.
    Mr. Garamendi. Thank you, Madam Chair, and for you and your 
leadership, Peter and the ranking members. Thank you for last 
year's WRDA. We are going to have a big task this year 
monitoring the implementation of a whole series of very, very 
important elements in that legislation.
    I want to speak to two of them in the next few moments.
    First of all, the harbor maintenance program, really good 
work. We are going to get the money. How are we going to use 
it?
    And this is a question for Mr. Seroka.
    Should we allow that money to be used beyond the immediate 
water, beyond the actual structures on the water dealing with 
some of the access, as well as acquisition of property to 
maintain the integrity of the ports?
    Mr. Seroka. In short, Congressman Garamendi, no. We believe 
that the funds should be used in the water for maintenance.
    And those examples would include specifically the 
replacement elements to our berthing structures; the timber 
fender piles replacement that not only need maintenance but 
upgrading and modernization; and of course the seismic work 
that we need to do, like we are doing with marine oil terminals 
here in the State of California, across all cargo terminals.
    Mr. Garamendi. Very good. Then I suppose sea level rise 
should also fit into that same equation.
    Thank you very much for your answer.
    Mr. Seroka. That is correct.
    Mr. Garamendi. The next question goes to Mr. Berginnis of 
the Association of State Floodplain Managers.
    I was taken by your testimony and, frankly, quite 
enthusiastic about all of the additional ways we can deal with 
flooding, setbacks, and so forth.
    It turns out that you may be in a situation where you want 
to do something on one hand and then the other hand going in a 
different direction.
    Specifically, we have introduced legislation, Mr. LaMalfa 
and I introduced legislation on the flood plain insurance 
programs for farmers, that the National Flood Insurance Program 
be designed in such a way as to encourage agriculture in the 
flood plains. However, you opposed that legislation.
    Could you explain why?
    Mr. Berginnis. To my recollection on that legislation one 
of the components that was problematic was to exempt certain 
buildings, like farmstead buildings, for example, not 
necessarily equipment, from things like the elevation 
requirement. And one of the things that we have to draw a line 
for is ensuring the public health and safety.
    And farmers are not unlike anybody else in the country who 
are facing threats from climate change and sea level rise. And 
we need to, instead of exempting them, what we need to do is 
provide them assistance through mitigation programs or 
something to actually help them comply with those types of 
things.
    Mr. Garamendi. Perhaps you ought to come to the Sacramento 
Valley and take a look at what you just described. We could 
probably take--some of these are historic buildings, farm 
buildings, houses that have been there for generations, and you 
want us to put them maybe 15 feet into the air. I think you 
need to take a look at this.
    I would appreciate very much working with you so that you 
gain a full understanding of what your opposition really means. 
If we cannot provide flood insurance for agriculture in all of 
its various ways, not only the farm buildings, but also the 
homesteads, then you are simply going to drive agriculture out 
of the flood plain.
    Now, maybe that is what you want to do. But I would suggest 
that one of the best uses for the flood plains, aside from 
setbacks and natural environments, is agriculture.
    Mr. Berginnis. Absolutely. And we would welcome working 
with you and understanding the unique problem there, because 
there are a lot of solutions that can at least even get you 
partially protected and partial resiliency. And partial is even 
better than nothing.
    The point is that we definitely want to ensure some level 
of resiliency and protection so that they survive the next 
storm. And so we would be happy to work with you on that.
    Thank you.
    Mr. Garamendi. Good. I am sure Mr. LaMalfa and I would 
welcome you when the COVID pandemic allows us. We will show you 
a flood plain where your policy is exactly in the wrong 
direction.
    Mr. Berginnis. OK.
    Mr. Garamendi. With that, I am going to thank you, Madam 
Chair, for what is a very important hearing. I look forward to 
working with you and the committee on the implementation of the 
extraordinary work that was done in WRDA, in the last WRDA.
    Thank you. I yield back.
    Ms. Napolitano. Thank you for your part in it, Mr. 
Garamendi. I appreciate it.
    Now we move to Ms. Mace.
    You are recognized.
    Is Ms. Mace available?
    If not, we will proceed to Mr. Westerman.
    Mr. Westerman. Thank you, Madam Chair. Good to see you. And 
it was such a pleasure to work with you on the WRDA 2020 as the 
ranking member on the subcommittee. And I know Ranking Member 
Rouzer will do probably a much better job than I did working 
with you to get WRDA 2022.
    Mr. Berginnis, you talked about the need for the Corps to 
share their expertise, to consult with folks, with communities, 
even if the projects they are working on aren't part of a 
specific authorized project.
    And I know we are again barely a few months into WRDA 2020, 
but thinking about the future of WRDA 2022, can you further 
outline how you think Congress should direct the Corps to 
undertake more of this technical assistance, sir?
    I am especially interested in how we can assist the Corps 
in doing that when I hear all the time about current backlog 
maintenance and other projects sitting on the shelf waiting for 
money and manpower to complete.
    Mr. Berginnis. Certainly.
    So in our written testimony, in fact, one of the things 
that we were struck by is something on the Corps website that 
even talked about this uniqueness.
    But we actually have some good models in Federal Government 
right now. The Natural Resources Conservation Service is one 
that comes to mind.
    So in NRCS you actually have staff funded through the NRCS 
that are your district conservationists, that they are your 
area conservationists. These are people that, if you have one 
of those communities that just had a flood and say, ``Hey, I am 
looking at some solutions, I don't need a big study,'' they 
could call them up and they could actually go to a public 
meeting or to a council meeting.
    And right now the dynamic that we have is that you really 
can't do that with Corps staff. And yet, they need to be at the 
table.
    And so whether it is NRCS, USGS also has water science 
centers in a lot of the States, and again they have staff that 
are able do that.
    I think what it requires from the Corps standpoint is to 
provide the funding generally for technical assistance and 
making sure that every district actually has staff that are 
able to provide that as needed.
    Mr. Westerman. So how do we address that manpower issue 
with the Corps? Do you think they have the resources there to 
do this extra work if they had the funding or do we need to 
look at that in more detail?
    Mr. Berginnis. Well, I believe, like Chairwoman Napolitano 
had indicated, the Corps does not have the funding right now to 
do that. And they certainly need extra resources. On the 
authority, I will leave it for you all to figure that out, but 
certainly extra resources to do that.
    Mr. Westerman. And could that even be something that is 
maybe contracted out to other professionals through the Corps 
to provide the community assistance?
    Mr. Berginnis. Looking at other Federal agencies where this 
is successful, they typically don't contract that out, because 
they are contracting out the larger projects and the work.
    For instance, in NRCS, and I was a county planner in a 
rural county in Ohio, and your NRCS people actually become 
trusted resources in the community.
    So, as you know, solving flood issues also requires an 
amount of trust between the Government and the community. And 
so, by having it as staff, I think you end up building a 
history and some trust as well.
    Mr. Westerman. All right. That is all I have, Madam Chair. 
I yield back the balance of my time.
    Mrs. Napolitano. Thank you very much, Mr. Westerman. I 
agree with you, funding is a big issue.
    Mr. Lowenthal, you may proceed.
    Mr. Lowenthal. Thank you, Madam Chair. And I would like to 
thank you and the bipartisan members of this committee, and you 
and Chairman DeFazio, for WRDA 2020, especially the part around 
the Harbor Maintenance Trust Fund. You did an excellent job.
    And, Mr. Seroka, you explained it very clearly in your 
presentation. You explained clearly about the expanded use, the 
importance of the expanded use, about a fair and equitable 
distribution. You also talked about how the distribution of the 
funds was fair for everyone in the process. And it was a very, 
very good presentation.
    But I have a few other questions while we have you here, 
Mr. Seroka. And I want to thank you for your great work at the 
Port of Los Angeles. You know, I also represent the Port of 
Long Beach.
    And one of the interesting questions that I have here, 
while I have you here, is that there have been some recent 
articles about the backups at our Nation's ports, and 
especially stories about ships that are out at anchor outside 
of both the Port of L.A. and the Port of Long Beach. I can 
actually see them as I leave my house. I live right near Ocean 
Boulevard in Long Beach.
    But we also have ships returning, reports of ships 
returning to Asia without agriculture. And Chairman DeFazio 
recently wrote with the leadership, bipartisan leadership of 
the Transportation and Infrastructure Committee, sent a letter 
to the Federal Maritime Commission to express our concern about 
ocean carriers prioritizing foreign goods and leaving limited 
shipping capacity for U.S. exports.
    So the backlog, what is taking place potentially, we are 
not sure. Do you have any recommendations, both short term and 
long term, to help address this tremendous surge of imports and 
what that has done in terms of our national supply chain and 
how we are going to deal with this tremendous rise in imports?
    Mr. Seroka?
    Mr. Seroka. Thank you, Congressman Lowenthal. Always good 
to see you.
    Yes, we do have some specific recommendations. These past 
months we have seen an import buying surge that has been 
pandemic induced. Internet sales have doubled over the last 
year, where it took 10 years to reach only 10 percent of 
national retail sales.
    So we have seen the change in the American consumer, and 
that probably won't go away any time soon. But we are looking 
into the future for when the country begins to open up and we 
start spending discretionary income on services.
    But to answer your question directly, number one, we must 
vaccinate all of our portworkers. There are about 100,000 folks 
that come to work at this port complex every day and we have 
only begun to scratch the surface. And these, in addition to 
dockworkers, are truck drivers, warehouse workers, terminal 
operators, construction and maintenance teams across the board.
    So much more has to be done in this area to get inventory 
and qualifications supported to get shots in these arms.
    Secondly, we have to ask our importers to pick up their 
cargo. Warehouses from the shores of the Pacific to the Mojave 
Desert, more than 2 billion square feet of space, are 
overflowing with cargo, partially because we don't have enough 
workers on the job.
    But more importantly, we have to push this cargo through 
the system to the interior of the United States, and that 
starts with importers of record picking up their cargo here at 
the Port of Los Angeles.
    And lastly, we have to segment our cargo to make sure that 
the products that are moving out to the Inland Empire can be 
done with lower times of congestion and traffic on our roadways 
and freeways. We have to be more succinct.
    And all of that is accomplished by increasing participation 
in our Nation's only port community system, the Port Optimizer. 
Sharing data across stakeholder groups and participants of 
private and public sector both are the answer to times like 
this when port congestion slows down.
    But in finally answering this question, sir, what we also 
have seen is a 50-percent increase in productivity of our 
vessel work. Prepandemic, we were averaging about 10 ships at 
the Port of Los Angeles every day. Today, we are averaging 15 
ships. And on this very Tuesday we have 17 containerships in 
port that our longshoremen and longshorewomen are working 
around the clock to get the cargo out to U.S. consumers.
    Mr. Lowenthal. Thank you for that very complete answer and 
understanding of where our ports are today, especially the 
major ports of the west coast.
    Thank you. And I yield back.
    Mrs. Napolitano. Thank you, Mr. Lowenthal.
    And we will now proceed to Mr. Weber.
    You may proceed.
    Mr. Weber. Thank you, Madam Chair. Lots of good stuff here 
today, lots of good stuff.
    One of the questions I have for the whole panel is that 
resilience has been suggested that it equals natural or 
nonstructural solutions to future risk. But it is clear that 
resilience can mean a whole lot more than that and it is 
basically not what we would call a one-size-fits-all approach.
    So I will give this over to the panel. I am going to ask a 
couple of things. Well, first of all, let's just do it this 
way. Talk about this, and then I will ask you a followup 
question. So we will start with whoever wants to start with 
that question.
    It is not a one-size approach. Do we work with local 
communities? Is it critical that we work with local 
communities? Do we have project sponsors? Do we bring them all 
together? I know our great chairwoman from the Committee on 
Science, Space, and Technology talked about having meetings in 
Texas with flood people.
    Can we do that with the resilience with local communities? 
What do you all say about that approach?
    Mr. Berginnis. Yes, sir. So resilience, as you said it, is 
not a one-size-fits-all approach, and it really is all the 
tools in the toolbox. It can certainly be nonstructural and 
nature based, but it also can be structures and it can be--and 
protecting buildings and critical infrastructure and so on.
    The importance, I think, of having that dialogue with the 
community is to exchange understanding, because what we are 
seeing in resilience is there is a lot of active research going 
on. There are new technologies being applied. There are new 
techniques of resilience being invented. And we need to 
understand all the resilience techniques so that we can apply 
the right tools to a given community situation.
    Mr. Weber. Well, I will go on to the next witness, then I 
will ask a followup question. Who wants to weigh in?
    Mr. Strickler. I also think, sir, that we need----
    Mr. Weber. [Inaudible.]
    Mr. Strickler. All right. Sorry about that.
    Congressman, I appreciate your question.
    In Virginia we have a lot of different coastal environments 
and inland environments, and we know that there are certain 
critical infrastructure assets and certain communities that the 
only option is to shelter those in place.
    And we are going to have to have massive engineering 
solutions in order to protect those assets and protect the 
local and regional economies and the communities that they 
support.
    At the same time, there is not enough money and there will 
never be enough money to pour enough concrete for us to armor 
our whole shoreline, nor would we want to.
    And that is why Virginia is actually building its approach 
to coastal resilience after the Texas Coastal Resiliency Master 
Plan. There were a lot of great ideas in that plan, and we 
really like the regional approach, we really like the balance 
and the ranking of projects, both green infrastructure 
solutions and green-gray concepts as well as traditional harden 
projects that we need to make coasts more resilient.
    Mr. Weber. All right.
    And, Mr. Seroka, I think you wanted to weigh in.
    Mr. Seroka. Yes, Congressman.
    In addition to what some of us traditionally talk about 
with respect to resilience on energy and our environmental 
stewardship, two other pieces also come to mind for 
consideration of this body.
    One is cyber resilience. As we look at the threats that we 
have received, they have doubled now since the beginning of the 
pandemic to an average of 40 million cyber intrusion attempts 
per month here at the Nation's largest port.
    And lastly, we need labor resilience as well. We need to 
make sure that we can build, skill, and train the next 
generation of worker in and around the supply chain, from the 
docks, to the administrators, to those who will design, 
develop, and build our Nation's infrastructure.
    Mr. Weber. All right. I am running out of time so I want to 
go back to the three of you.
    I want a grade. How are we doing on getting that word out, 
resilience, working with local communities, and moving that 
process forward? Are we getting a report card? Is it a C, a D-
minus, a B-minus?
    What do you think, Mr. Seroka. I will come back to you.
    Mr. Seroka. C-minus at this point. We need more traction, 
and it begins at the Federal level to help set the tone for us 
at the local level.
    Mr. Weber. All right.
    Mr. Berginnis, how about you?
    Mr. Berginnis. I would give about the same grade. You hear 
excellent examples like in Virginia right now. But those 
examples are too few, and the need is too great. We have got to 
accelerate it.
    Mr. Weber. Mr. Strickler, did you ever have a teacher that 
graded on the curve? I am hoping you did.
    Mr. Strickler. I did. Yes, sir.
    But I would tend to agree, we are a little below average 
here. It is off the board. We have some communities in Virginia 
that are out in front, Virginia Beach, Norfolk, with robust 
plans. Many, many other communities that lack the capacity but 
that are nowhere right now.
    Mr. Weber. I appreciate that.
    Madam Chair, thank for your indulgence. I yield back.
    Mrs. Napolitano. Thank you, Mr. Weber, for your part in it.
    Next we have Mr. Pappas.
    You may proceed.
    Mr. Pappas?
    If not, we move on to Mr. Carbajal.
    Mr. Carbajal. Thank you, Madam Chair.
    My question is to Mr. Berginnis.
    In 2019, one of your colleagues, Mr. Pineda, came before 
our subcommittee and talked about the need for the Army Corps 
of Engineers to take an enhanced role in providing technical 
assistance to help local sponsors move forward with their 
projects and incorporate resiliency into their planning.
    As a former local government official, this was something 
that really resonated with me. And I was proud to work with 
Chairwoman Napolitano and Chairman DeFazio to include a 
provision in the 2020 WRDA bill, under section 111, to allow 
the Corps to provide technical assistance to non-Federal 
partners for resiliency planning.
    How can we build on this provision to ensure we are 
achieving our goal of building back better and promoting more 
resilient infrastructure in order to withstand the threat of 
climate change?
    Mr. Berginnis. I think the primary way you could do this--
and this was in Ricardo's testimony and it is in our testimony 
even today--is to better operationalize that through technical 
assistance that is not associated with specific projects.
    Again, the demand is great out there. I have worked with 
the NFIP and I know, for instance, there are over 22,000 NFIP 
communities. There is a tremendous need out there, as was 
stated just earlier, in the Commonwealth of Virginia. There are 
some areas that are leading the Nation and some areas that 
haven't started.
    So we need to make the ability to provide that resilience 
planning assistance, we need to make that something where 
literally that local official could call their local district 
who might be trusted and say, ``You know what? Can you come to 
a meeting with our planning team? Can you do this?'' And they 
can do that without having to deal with charging it to a 
specific project.
    Mr. Carbajal. Thank you.
    Mr. Berginnis, to continue with you, I also want to ask 
about the importance of including resilience and natural 
infrastructure in how the Army Corps calculates benefit-cost 
ratio.
    As you know, the Army Corps of Engineers has a significant 
backlog. In my district alone, the Mission Creek Flood Control 
Project has been in the works since the late 1960s. However, my 
community has struggled to receive Federal construction dollars 
despite the numerous benefits the project would provide.
    Do you have any suggestions as to how Congress can help 
tackle this problem to ensure that we are accounting for the 
numerous environmental benefits a project may bring?
    Mr. Berginnis. Yes, sir, Congressman.
    I think one of the things, and it was a comment made 
earlier but really resonated with me, that a reason to address 
and evaluate the existing backlog is to ensure that we are 
accounting for all the environmental benefits in the way we 
know how to today. That backlog has spanned--I believe the 2020 
WRDA put a cutoff at 1985.
    But I just think about all the advances even in the last 10 
years when it comes to being able to quantify and to calculate 
environmental benefits and how many of those projects are 
``pre'' that time where we might need to go back and 
recalculate those.
    And I suspect that in the case of Mission Creek, if all 
that backlog was evaluated and you had multiple other 
environmental benefits, that would put it higher in the queue.
    Mr. Carbajal. Thank you.
    Well, can you elaborate a little bit more on that? Because 
that has been the challenge, coming up with a new framework or 
an additional value priority that would raise those 
environmental benefits.
    How specifically might we be able to do that?
    Mr. Berginnis. Well, I think in one way the 2020 WRDA 
started that by providing some congressional direction in 
evaluating and reevaluating the backlog.
    But then I think the second way is really bringing to 
fruition the PR&G, where the PR&G is really that vehicle, I 
think, to account for those newest approaches in counting 
environmental benefits and making sure those are part of 
projects.
    So, again, the 2020 WRDA did that, addressed, I think, that 
issue in two important ways.
    Mr. Carbajal. Great. Thank you.
    And lastly, Mr. Seroka, I have limited time, but I want to 
ask my question.
    Our subcommittee, under Chairwoman Napolitano and Chairman 
DeFazio, has prioritized fair and equitable distributions of 
the Harbor Maintenance Trust Fund. This is particularly 
important for ports throughout California and in my district.
    Can you discuss the priorities you think would be helpful 
to ports throughout the country as many are also under 
additional stress due to the COVID pandemic?
    Mr. Seroka. Yes, Congressman.
    What we see is the Port of Los Angeles as a jobs 
multiplier. As we build and develop this port, it makes us more 
competitive to move more cargo, passenger ships, and bulk 
products, which also create more jobs for those in and around 
the port complex and the supply chain.
    Part of our STEM outreach is to get kids in the younger 
brackets of school, train them up, and make them aware of what 
opportunities may exist here at this port and beyond.
    So we believe that equitable distribution of work carries 
on to our communities as well.
    Mr. Carbajal. Thank you very much.
    Madam Chair, I yield back.
    Mrs. Napolitano. Thank you, Mr. Carbajal, for your 
comments. And you went over a little time, but that is OK.
    Next, we have Mr. Garret Graves.
    Mr. Graves you may proceed.
    Mr. Graves of Louisiana. Thank you, Madam Chair. It is nice 
to see you again.
    So my first question is for Mr. Berginnis.
    The Disaster Recovery Reform Act made some modifications to 
the utilization of HMGP funds to allow for those funds to be 
used for authorized Corps of Engineers projects, which, as we 
know, are the most scrutinized projects in the Federal 
Government.
    I understand that NEMA opposed that, and I am really 
curious as to why you would oppose commingling funds that were 
available to advance whatever priorities a State decides are 
the top priorities.
    Mr. Berginnis. Just one thing. We are not NEMA. We are 
ASFPM. So I just wanted to say that for the record.
    Mr. Graves of Louisiana. Excuse me. That was my bad. I was 
thinking of our hearing last week. I apologize. Yes, you all, 
you guys did. So could you please explain?
    Mr. Berginnis. So what we know with HMGP in every State is 
that we have an oversubscribed program. And so what that means 
is, even in those States where there is a backlog of Corps 
projects, we also have a huge demand for the traditional things 
that HMGP has funded, primarily a lot of the nonstructural type 
activities, as well as some of the small structural activities.
    And so our concern and our opposition came from the 
standpoint that you have an authority through WRDA and through 
the Corps of Engineers to fund those kinds of projects. And we 
are just trying to still address the need that exists out there 
in HMGP for those other preferences within those States.
    Mr. Graves of Louisiana. Thank you. I appreciate the 
answer. As a former practitioner on these types of projects and 
having spent many years on the ground addressing this, I 
couldn't disagree more with the position. I think that it is a 
myopic view.
    And where this decision needs to be made, as we discussed 
in our hearing last week where NEMA actually was, it was 
discussing how there are so many different funding sources and 
we need to allow the States to prioritize what is most 
important to them, regardless of the funding stream.
    And we shouldn't have all these disjointed funding streams. 
If you get a better return on investment, whether it is green, 
gray, whatever it is, States should be able to make the 
decision to prioritize those dollars in that direction and 
commingling the funds.
    Similarly, Corps of Engineers has a backlog of, by some 
estimates, $95 billion, which I think would probably exceed 
some of the other needs in other programs.
    But let me pivot over.
    Mr. Strickler, it is nice to see you again. Mr. Secretary, 
I want to verify that you are under oath right now. I am just 
kidding. Don't answer that.
    Mr. Strickler. Yes, sir.
    Mr. Graves of Louisiana. No, seriously, I am curious, you 
talked about some of the needs for the State of Virginia in 
taking on this very audacious goal of developing a resiliency 
program, a coastal master plan.
    In regard to implementation, looking across the Federal 
Government, which program do you see as being most efficient in 
actually delivering results?
    Mr. Strickler. So, Congressman Graves, it is good to see 
you again. And I just want to ask, are you sure you don't want 
to ask me about red snapper? With Congressmen Lowenthal and 
Huffman here, I thought maybe we would get into that today.
    But, anyway, no, it is a great question. And to your first 
question, aligning all of these programs is important. You have 
got Hazard Mitigation Grant Program, you have got Community 
Development Block Grant resilience program, you have got the 
direct spending from the Corps, you have got the NOAA coastal 
programs. All of these are important.
    And aligning those in a way that States can leverage all 
that money together, to your point, particularly States that 
have these well thought out resilience plans, in a way that we 
can prioritize that funding to meet those needs that have been 
identified by States in consultation with the communities. Also 
our Federal partners.
    So I hate to give you a nonanswer, but there are many 
different programs we would like to leverage. And the point I 
guess I want to make is that we want to try to align all of 
those to get the maximum benefit.
    Mr. Graves of Louisiana. Thank you. I appreciate the 
response.
    Look, I just want to make note that we in Louisiana, 
unfortunately, as you know, as a result of Hurricane Katrina, 
we had some really brutal lessons learned there. And we are 
probably 15 years or so ahead. We have dedicated billions of 
dollars in State funds, as I think you indicated, to our 
coastal program.
    I really would encourage you to look at implementation 
issues problems because it is going to be one thing to have a 
plan, but if you can't implement it, it is going to be another 
pretty big problem.
    Ms. Bucci, just very quickly, could you quickly address 
your thoughts on implementation of Corps of Engineers projects 
and perhaps efficiencies that could be incorporated?
    Ms. Bucci. Well, I think that it is very important that the 
industry gets full and efficient funding in terms of the 
projects that are out there, so that we are getting projects 
done in years instead of decades.
    So with this new 65-35 cost change, we need to make sure we 
use the entire trust fund balance and get all the projects. We 
are going to have some openings in the next couple years as 
Lower Mon gets done and Chickamauga and Kentucky Lock and Dam 
shortly thereafter.
    We want to make sure that we keep moving down the capital 
development strategy, the 15 projects, and just get them done 
in a matter of years instead of decades. So full and efficient 
funding is probably the best thing they need to do.
    Mr. Graves of Louisiana. Great, great. Thank you.
    Madam Chair, I want to thank you for the extra few seconds 
there.
    And I want to make note, all these people keep talking 
about Texas. Louisiana has the best coastal master plan in the 
country.
    Dr. Piehler, check it out.
    Mrs. Napolitano. Thank you very much, Mr. Graves.
    Now we will proceed to Ms. Norton.
    You are recognized.
    Ms. Norton. Thank you very much, Madam Chair, for this very 
important hearing.
    I have got several questions. Let's see how many of them I 
can get in.
    First for Ms. Bucci. I am interested in our waterways, 
because I live here of course, I represent the District, and 
the whole National Capital region is full of congestion.
    What do you see as the biggest roadblock to achieving the 
goal of using the waterways to reduce congestion, given your 
experience with our inland waterways system?
    Ms. Bucci. Well, first of all, I think you are absolutely 
right. We need to find a way to get those domestic trailers and 
international trailers on the international waterways.
    It is going to take a little bit of infrastructure at 
different terminals. A lot of the inland river terminals are 
only used to handling bulk.
    We are working closely. MARAD is very proactive on this. 
And if we can find freight that is not moving on the rivers, we 
can get into different programs with some Federal assistance in 
handling container or palletized cargo at different terminals.
    I think it is important to look at the distances that the 
containers travel. A lot of times people have talked about 
container on barge and going from Pittsburgh to New Orleans, 
which is a long distance and a long travel time, that maybe you 
shorten and go from Pittsburgh to Morgantown, West Virginia, or 
East Liverpool, Ohio, where you are taking it off local 
highways and shorter distances and the freight is arriving a 
little more efficiently.
    But I think it is going to take some training and the 
proper equipment and obviously educating the public that handle 
these containers and these shippers that there is a mode that 
is underutilized in our system that can take trucks off the 
road and save some of the highway construction costs.
    Ms. Norton. Thank you.
    Mr. Strickler, you are the secretary of natural resources 
in Virginia, so this question is for you. It is about regional 
cooperation to address flooding and resiliency.
    Are there any ongoing regional efforts in the District and 
Maryland that you could highlight? If not, should there be?
    Mr. Strickler. Congresswoman Norton, thank you for your 
question.
    The answer is that we collaborate with Maryland and the 
District on a number of initiatives, particularly in 
transportation infrastructure.
    Our biggest collaboration and an area in my secretariat 
that we are trying to build more resilience and more flood 
protection type activities into is the work that we do together 
under the Chesapeake Bay Program.
    As you know, things like stormwater infrastructure, 
riparian buffers, restoration of wetlands and flood plains are 
as critical to water quality and habitat for bay species as 
they are to coastal resilience.
    So I am actually the chair right now of the Principals' 
Staff Committee and Governor Northam is the chair of the 
Executive Council and we are working very closely with Mayor 
Bowser and others to try to build those priorities into the bay 
program work; and, importantly, build in a stronger 
acknowledgment of the challenges that we face because of 
climate change in general.
    So, yes, we are working hard on all of that.
    Ms. Norton. Thank you for that answer.
    Mr. Piehler, my friends on the other side seem to think 
that there is no financial cost to inaction, to failing to act 
on climate change. Of course we have seen in this region that 
is not true, because some of our Federal buildings have been 
damaged by flooding, including the National Archives.
    In your testimony, you say your organization uses models 
that link environmental change to financial risk. I would love 
to hear more about that and how we can learn how that 
information could be used in practice, those models can be used 
in practice.
    Mr. Piehler. Sure. I would be happy to provide more 
information.
    So the example that I am talking about today is around 
flooding in mostly coastal systems, but some of the inland 
systems in North Carolina, and thinking about ways to fully 
describe the impacts and the costs of those events.
    And so I alluded to incorporating social science, which is 
really important, because the water alone doesn't tell the 
story of the impacts of flooding, you need to know what people 
are experiencing.
    But the coupling of the financial models and the 
environmental systems is a great way when you have really 
dynamic systems.
    We talked about hydropower a little bit earlier. That 
system has been applied to looking at environmental change that 
supplies the water to areas in and around hydropower facilities 
and the financial connections to the energy sector.
    So it is, I think, a pretty portable system and can be 
applied to a range of different questions, but it is a really 
great direct connection between those financial systems, 
whether they be things like insurance or whether they be things 
like a private industry to a very variable environmental 
setting.
    And so, clearly, flooding is something that has a lot of 
variability around it and is something that we really benefit 
from understanding both the natural side of it and then its 
connection to financial systems.
    Ms. Norton. Thank you, Madam Chair.
    Thank you for that answer.
    Mrs. Napolitano. You are very welcome, Ms. Norton.
    And last but not least, Mr. Katko, you may proceed.
    Mr. Katko. It is very good to see you again, my friend, 
Mrs. Napolitano.
    And it is good to see everyone here on this hearing.
    It is a very important topic for my area. Part of my 
district has the southern shore of Lake Ontario. And due to 
some policy changes in the previous administration we have 
experienced some catastrophic flooding over the last several 
years.
    Mr. Berginnis, in your testimony you touch on the impact 
that resiliency measures in one community can have on the 
surrounding region. In my district, this may be even more 
complicated because resiliency measures deployed in Canada have 
to inform our response on Lake Ontario's southern shoreline, 
which includes part of my district.
    Can you discuss why Federal leadership is important to 
addressing the issues throughout the Great Lakes? And what do 
you think can be done to promote a coordinated approach 
throughout our region?
    Mr. Berginnis. Absolutely.
    One of the philosophical underpinnings of a cooperative 
approach to flood plain management is Federal leadership, 
because Federal leadership then enables, it sends a signal to 
States and also to communities that this is the direction we 
need to be going, whether it is investments, whether it is 
programs, and those kinds of things.
    And certainly in the Great Lakes. I have spent all my 
career in Great Lakes States, either in Ohio and Wisconsin. And 
I recall when the Great Lakes Compact was first conceived, I 
believe in the late 1990s or 2000s, and then having that bi-
country coordination becomes important as well.
    So it is one of those things we absolutely concur. And 
given, again, where your district is also, you essentially are 
dealing with a border of another country, it is absolutely 
critical.
    Mr. Katko. So what can be done, what can we do to make it a 
better process than we have right now? Is there something we 
can help you with in that regard?
    Mr. Berginnis. Well, I think, in terms of Federal 
leadership, one of the things that can be strengthened and that 
has fallen off in recent years is Federal interagency 
coordination.
    So you have interagency mechanisms like the Federal 
Interagency Floodplain Management Task Force, the Mitigation 
Framework Leadership Group, and also I think day one in 
President Biden's administration is the reinstatement of 
Executive Order 13690 on flood plain management. Each of those 
requires Federal agencies to work and to talk with each other.
    And I have to say, it was difficult before COVID, and 
probably during COVID right now it is really difficult to 
foster interagency coordination.
    So I think one thing that can be done and can be done 
rapidly is to be intentional in making sure our Federal 
agencies are coordinating and working with each other.
    Mr. Katko. All right. Great. I appreciate that.
    Mr. Seroka, I appreciate that you discussed the importance 
of Great Lakes funding in your testimony. And as I brought up, 
my district has seen a significant shortfall in Federal 
resources for port and harbor maintenance in recent years, 
including for projects that were already underway. And the Port 
of Oswego, which is in my district, is a great example of that.
    In your conversations with the other ports, how common are 
these problems? And do you expect WRDA 2020 will make 
significant strides in addressing them?
    Mr. Seroka. Yes, I do, for the following reasons. And good 
to see you, again, Congressman.
    The framework, we believe, addresses the traditional dredge 
ports as well as respecting the needs of the emerging harbors, 
donor and energy ports, as well as the Great Lakes port system.
    Mr. Katko. OK. And, for example, my port, Oswego, we are 
simply trying to get the darn thing dredged so we can have 
bigger ships come in and it has been like pulling teeth. So is 
there something more that we can be doing using some of the 
help from WRDA 2020? Is there something else we should be doing 
to help them?
    Mr. Seroka. Yeah. I believe, and this is an aspiration, but 
moving forward we need a national freight strategy, including 
dedicated funding for multimodal infrastructure, investment in 
digital infrastructure and cyber, as well as clean technology 
and workforce development.
    This is a great first step from the port community into 
what we need overall as a Nation to raise our level of 
competitiveness.
    Mr. Katko. All right. Thank you very much to the gentleman, 
and thank you all for your testimony.
    And thank you, Mrs. Napolitano, for having this great 
hearing.
    And I yield back.
    Mrs. Napolitano. Thank you, Mr. Katko.
    It is wonderful testimony. It brings up a lot of points 
that we need to ponder and make sure that we address in the 
future.
    In closing, I ask unanimous consent to add into the record 
the statements by the National Wildlife Federation and the 
National Stone, Sand, and Gravel Association.
    [The information follows:]

                                 <F-dash>
 Statement of Melissa Samet, Senior Water Resources Counsel, National 
    Wildlife Federation, Submitted for the Record by Hon. Grace F. 
                               Napolitano
    Chair Napolitano, Ranking Member Rouzer, and Members of the 
Subcommittee, thank you for the opportunity to present this statement 
on the status of essential provisions enacted in the Water Resources 
Development Act of 2020.
    The National Wildlife Federation is the nation's largest 
conservation education and advocacy organization with more than 6.3 
million members and supporters, and affiliate conservation 
organizations in 53 states and territories. Our members represent the 
full spectrum of people who care deeply about wildlife: they are bird 
and wildlife watchers, hikers, gardeners, anglers, hunters, foresters, 
and farmers. The National Wildlife Federation has championed clean and 
healthy rivers and streams since our founding in 1936. Conserving our 
wetlands, streams, rivers, and shorelines for wildlife and communities 
is at the core of our mission.
    The National Wildlife Federation has extensive experience with all 
aspects of U.S. Army Corps of Engineers (Corps) planning, including 
ecosystem restoration, flood damage reduction, navigation, and 
reservoir operations. We have a long history working to advance large-
scale ecosystem restoration efforts around the country that involve the 
Corps, including in the Everglades and Mississippi River Delta. The 
Federation has also derived substantial knowledge through working with 
organizations across the country to improve water resources projects 
and policies, including by leading the Water Protection Network which 
is a coalition of more than 250 local, regional, and national 
organizations working to ensure that America's water resources policies 
and projects are environmentally and economically sound.
    In the Water Resources Development Act of 2020, Congress sent a 
very clear, bipartisan message: the Corps must shift its approach to 
project planning and management to improve the resilience of the 
nation's water resources, ensure resilient and sustainable protections 
for communities, and allow the nation's fish and wildlife to thrive. To 
advance this transformation, WRDA 2020 provided a critical array of 
tools and authorities to drive the development of smarter projects that 
will increase resilience and equitable outcomes.
    The National Wildlife Federation urges Congress to ensure full and 
effective implementation of the full suite of WRDA 2020 resilience 
provisions, with a particular focus on the essential provisions 
highlighted in this statement. The Federation respectfully urges 
Congress to engage in robust oversight and provide the funding and 
resources needed to ensure swift and effective implementation of these 
essential provisions. We also urge this Committee to carefully oversee 
the Corps' compliance with the letter and spirit of the National 
Environmental Policy Act, Clean Water Act, Endangered Species Act, and 
Fish and Wildlife Coordination Act when planning, constructing, and 
operating projects. These laws provide essential safeguards for the 
nation's water resources and the public's ability to provide meaningful 
input into activities that can have a profound impact on their lives 
and livelihoods.
 Effective Implementation of Essential WRDA 2020 Planning Improvement 
    and Resilience Provisions Will Make Communities Safer and Allow 
                           Wildlife to Thrive
    The Water Resources Development Act of 2020 enacted a suite of 
planning reforms that collectively provide the tools and authorities 
needed to ensure that Corps planning addresses the nation's most 
pressing water resources needs, prioritize solutions for underserved 
communities, and improve the resilience of the nation's vital natural 
infrastructure--the rivers, streams, floodplains and wetlands that 
provide essential habitat for the nation's treasured fish and wildlife.
    These provisions elevate consideration of nature's potential to 
improve our nation's resilience. They also level the playing field for 
use of natural infrastructure (also known as natural and nature-based 
solutions) to reduce flood and storm damages while protecting and 
restoring fish and wildlife habitat and providing vital co-benefits for 
communities. The diverse environmental benefits provided by sustainable 
and cost-effective natural infrastructure can be particularly valuable 
for under-served communities suffering from flooding and multiple other 
environmental assaults.
    Protecting and investing in our natural infrastructure makes 
communities safer and more resilient by absorbing floodwaters, 
buffering storm surges, and giving rivers room to spread out without 
harming homes and businesses. Natural infrastructure reduces the need 
for new, often expensive structural flood projects, and provides an 
important extra line of defense when levees or other structures are 
required. Natural infrastructure also avoids unintended adverse impacts 
such as diverting floodwaters onto other communities and inducing 
development in high risk areas.
    The value of natural systems for protecting communities is well 
recognized, and evidence of its effectiveness in reducing flood and 
storm damages continues to mount as highlighted in the National 
Wildlife Federation's report on The Protective Value of Nature \1\ and 
our November 2019 Testimony \2\ before this subcommittee on promoting 
the resilience of the nation's water resources. As aptly noted by the 
Reinsurance Association of America: ``One cannot overstate the value of 
preserving our natural systems for the protection of people and 
property from catastrophic events.'' \3\
---------------------------------------------------------------------------
    \1\ Glick, P., E. Powell, S. Schlesinger, J. Ritter, B.A. Stein, 
and A. Fuller. 2020. The Protective Value of Nature: A Review of the 
Effectiveness of Natural Infrastructure for Hazard Risk Reduction. 
Washington, DC: National Wildlife Federation (available at www.nwf.org/
protective-value-of-nature).
    \2\ Testimony of the National Wildlife Federation, Melissa Samet, 
Senior Water Resources Counsel, before the Subcommittee on Water 
Resources and Environment of the U.S. House of Representatives 
Committee on Transportation and Infrastructure regarding ``Concepts for 
the Next Water Resources Development Act: Promoting Resiliency of our 
Nation's Water Resources Infrastructure'', November 19, 2019 (available 
at https://transportation.house.gov/imo/media/doc/
Samet%20Testimony.pdf).
    \3\ Restore America's Estuaries, Jobs & Dollars BIG RETURNS from 
coastal habitat restoration (September 14, 2011) (http://
www.estuaries.org/images/81103-RAE_17_FINAL_web.pdf).
---------------------------------------------------------------------------
    For example, wetlands prevented $625 million in flood damages in 
the 12 coastal states affected by Hurricane Sandy, and reduced damages 
by 20 to 30 percent in the four states with the greatest wetland 
coverage.\4\ Coastal wetlands reduced storm surge in some New Orleans 
neighborhoods by two to three feet during Hurricane Katrina, and levees 
with wetland buffers had a much greater chance of surviving Katrina's 
fury than levees without wetland buffers.\5\ Natural infrastructure 
also has the significant added benefits of being self-sustaining and 
avoiding the risk of catastrophic structural failures.
---------------------------------------------------------------------------
    \4\ Narayan, S., Beck, M.B., Wilson, P., et al., The Value of 
Coastal Wetlands for Flood Damage Reduction in the Northeastern USA. 
Scientific Reports 7, Article number 9463 (2017), doi:10.1038/s41598-
017-09269-z (available at https://www.nature.com/articles/s41598-017-
09269-z).
    \5\ Bob Marshall, Studies abound on why the levees failed. But 
researchers point out that some levees held fast because wetlands 
worked as buffers during Katrina's storm surge, The New Orleans Times-
Picayune (March 23, 2006).
---------------------------------------------------------------------------
    In addition, natural infrastructure is also often more cost-
effective than structural measures. A recent study documents that using 
natural infrastructure solutions for reducing coastal flood risks in 
Texas, Louisiana, Mississippi, and Florida would have a benefit-cost 
ratio of 3.5 compared to just 0.26 for levees and dikes. Restoring 
wetlands in this region could prevent $18.2 billion in losses while 
costing just $2 billion to carry out.\6\
---------------------------------------------------------------------------
    \6\ Borja G. Reguero et al., ``Comparing the Cost Effectiveness of 
Nature-Based and Coastal Adaptation: A Case Study from the Gulf Coast 
of the United States,'' PLoS ONE 13, no. 4 (April 11, 2018), https://
doi.org/10.1371/journal.pone.0192132.
---------------------------------------------------------------------------
       Essential Planning Improvements and Resilience Provisions
    Full and effective implementation of the essential WRDA 2020 
provisions highlighted below will improve the planning process for all 
Corps projects, increase the resilience of the nation's water resources 
including through increased use of natural infrastructure where 
appropriate, and achieve equitable outcomes for vulnerable communities.
    The Federation respectfully urges Congress to engage in robust 
oversight of the Corps' implementation of these essential provisions 
and to provide the funding and resources needed to ensure swift and 
effective implementation. Congress should clarify that compliance with 
the planning and study directives in these sections is mandatory, and 
is not dependent on the Corps' receipt of line item funding and is not 
subject to any prohibition on new starts. To ensure prompt advancement 
of equitable outcomes, Congress should also exempt the important 
Section 118 pilot programs and Section 119 program from any limitations 
on new starts. Key recommendations for the Corps' implementation of 
these essential provisions are outlined below.
Sec. 110--Implementation of Water Resources Principles and Requirements
    Section 110 directs the Corps to issue final agency procedures for 
the Principles, Requirements, and Guidelines (PR&G) within 180 days and 
to provide regular updates to those procedures. In developing and 
updating these procedures, the Corps must provide an opportunity for 
public comment and input. Effective implementation of the PR&G will 
produce smarter, more resilient, and more environmentally protective 
water resources projects.
    Congress directed development of the PR&G in the Water Resources 
Development Act of 2007, which was enacted with overwhelming bipartisan 
support. The PR&G do not dictate any particular project outcome. 
Instead, they identify the full suite of project costs and benefits 
that must be accounted for when the Corps plans a water resources 
project, including the benefits of a healthy environment. The PR&G also 
direct a full and careful consideration of a project's compliance with 
the National Water Resources Planning Policy which was also established 
by Congress in WRDA 2007.\7\ The PR&G elevate consideration of nature's 
potential to address problems, which is a preferred approach where 
possible because it provides other vital co-benefits for communities, 
protects fish and wildlife habitat, and avoids unintended adverse 
impacts such as diverting floodwaters onto other communities and 
inducing development in high risk areas. In the absence of the final 
agency procedures, the Corps continues to rely on outdated planning 
guidelines that have not been updated in 38 years.\8\
---------------------------------------------------------------------------
    \7\ The Congressionally established National Water Resources 
Planning Policy states: ``It is the policy of the United States that 
all water resources projects should reflect national priorities, 
encourage economic development, and protect the environment by--(1) 
seeking to maximize sustainable economic development; (2) seeking to 
avoid the unwise use of floodplains and flood-prone areas and 
minimizing adverse impacts and vulnerabilities in any case in which a 
floodplain or flood-prone area must be used; and (3) protecting and 
restoring the functions of natural systems and mitigating any 
unavoidable damage to natural systems.'' 42 USC 1962-3.
    \8\ The Corps continues to rely on the 1983 ``Economic and 
Environmental Principles and Guidelines for Water and Related Land 
Resources Implementation Studies'' which direct the Corps to focus 
solely on maximizing national economic development benefits when 
planning water resources projects. These 1983 Principles and Guidelines 
prohibit the Corps from considering all economic and environmental 
values and impacts, and severely limit the Corps' ability to select a 
less environmentally damaging alternative or one that could contribute 
to the national interest in ways other than economic development.
---------------------------------------------------------------------------
    To effectively implement the PR&G, the Corps' final agency 
procedures should adopt clear criteria to drive development and 
selection of plans that: (1) satisfy the Congressionally established 
National Water Resources Planning Policy; (2) advance national 
priorities including increasing resilience to more frequent and intense 
floods, storms, and droughts; (3) increase equitable outcomes; and (4) 
avoid environmental harm. For example, the procedures could direct 
development and full consideration of an alternative that protects and 
restores the functions of natural systems (a National Water Resources 
Planning Policy objective) to address the identified problem. Such an 
approach would also facilitate compliance with the Clean Water Act, 
which requires use of the least environmentally damaging practicable 
alternative, and the nation's other critically important environmental 
laws.
    The National Wildlife Federation encourages swift implementation of 
Section 110. However, the development of agency procedures that will 
effectively implement the PR&G will require a thorough and thoughtful 
process that includes a robust opportunity for input from resource 
agencies, outside experts, and the public. The Corps should also 
carefully coordinate the development of their agency procedures with 
the Council on Environmental Quality. Undertaking this thoughtful 
process is essential, even if that ultimately requires extending the 
deadline beyond 180 days.
Sec. 115--Flood Protection Projects
    Section 115 incentivizes use of natural and nature-based measures 
and helps ensure full evaluation of such measures by placing them on a 
level playing field with nonstructural measures. This provision builds 
on section 1149(c) of WRDA 2018, which directs the Corps to consider 
the use of natural infrastructure, alone or in combination with 
structural measures, whenever those solutions ``are practicable.'' \9\
---------------------------------------------------------------------------
    \9\ America's Water Infrastructure Act of 2018, Pub. Law 115-270, 
Sec.  1149(c).
---------------------------------------------------------------------------
    Section 115(a) clarifies that natural infrastructure is one of the 
nonstructural measures to be considered under 33 U.S.C. 701b-11(a). To 
ensure effective implementation of section 115(a), the Corps should 
issue implementing regulations (and amend existing planning rules and 
manuals) that explicitly direct the consideration of natural and 
nature-based features in the nonstructural plan that must be carried 
through the final array of alternatives for flood and storm risk 
management studies.\10\ The Corps should also provide comprehensive 
training to planning staff on how to develop and assess natural and 
nature-based measures, the documented effectiveness of such measures, 
and the cost-effectiveness of such measures.
---------------------------------------------------------------------------
    \10\ See, e.g., 33 U.S.C. 701b-11; January 5, 2021 USACE Policy 
Directive--Comprehensive Documentation of Benefits in Decision 
Document.
---------------------------------------------------------------------------
    Section 115(b) clarifies that the cost-share for natural and 
nature-based features is the same as for non-structural flood and storm 
damage reduction measures, 65% Federal and 35% non-Federal. To ensure 
effective implementation of section 115(b), the Corps should undertake 
a robust outreach effort to inform nonfederal sponsors, stakeholders, 
and the public about this important cost-share clarification and the 
requirement to fully consider the use of natural and nature-based 
measures in flood and storm damage reduction studies. The Corps should 
also establish a formal process for notifying future non-federal 
sponsors and study partners about these requirements.
Sec. 118--Pilot Programs on the Formulation of Corps of Engineers 
        Projects in Rural Communities and Economically Disadvantaged 
        Communities
    Section 118 directs the Corps to establish two pilot programs 
within 180 days to evaluate opportunities to reduce flood, hurricane, 
and storm risks for economically disadvantaged and rural communities. 
These pilot programs provide a critical opportunity for advancing 
equitable outcomes by increasing the resilience of vulnerable 
communities.
    The Corps should prioritize implementation of the Section 118(b) 
Pilot Program, request robust funding to implement that program, and 
ensure that Corps planners have the tools and resources they need to 
develop and evaluate effective and self-sustaining natural and nature-
based solutions that will protect the community while also providing 
other vital co-benefits to residents. Section 118(b) establishes a 
Pilot Program for Economically Disadvantaged Communities through which 
the Corps is to select 10 studies to be carried out at full Federal 
expense to address flooding, hurricane, or storm damages that have a 
disproportionate impact on a rural community, a minority community, or 
an Indian Tribe. These studies are required to incorporate significant 
use of natural or nature based features or a combination of such 
features to the maximum extent practical.
    The Corps should prioritize implementation of the Section 118(c) 
Pilot Program, request robust funding to implement that program, and 
ensure full consideration and incorporation of natural and nature-based 
features into projects recommended under this Pilot Program. Section 
118(c) establishes a Pilot Program for Rural and Economically 
Disadvantaged Communities through which the Corps may make a 
recommendation on up to 10 flood or storm damage reduction projects 
without demonstrating that the project is justified solely by national 
economic development benefits for economically disadvantaged or rural 
communities whose long-term life safety, economic viability, and 
environmental sustainability would be threatened without the project.
Sec. 111--Resiliency Planning Assistance
    Section 111 directs the Corps to prioritize resiliency planning 
assistance to economically disadvantaged communities and communities 
subject to repetitive flooding (via 33 U.S.C. 709a), and emphasizes the 
need for the Corps to provide technical assistance to non-Federal 
interests for greater resiliency planning. This provision prioritizes 
critically important resiliency planning assistance to communities most 
in need.
    The Corps should ensure that the planning assistance staff have the 
training and resources they need to provide effective technical 
assistance on resiliency planning, which should prioritize development 
and consideration of self-sustaining natural and nature-based solutions 
that will protect communities while also providing other vital co-
benefits. The Corps should work with the Federal Emergency Management 
Agency and others to identify communities that could benefit from 
resiliency planning, and should develop strategies for effectively 
educating those communities about the availability of resiliency 
planning technical assistance. The Corps should also consider a 
communities' ability to pay in establishing the cost to a community for 
obtaining these services.
Sec. 112--Project Consultation
    Section 112 requires the Corps to update its policies on 
environmental justice considerations; directs the Corps to strengthen 
its Tribal consultation requirements; and directs the Corps to promote 
meaningful involvement with minority communities, economically 
disadvantaged communities, and Indian Tribes in carrying out water 
resources development projects. This section also requires the Corps to 
submit long overdue reports on: (a) ``any potential disproportionate 
and adverse health or environmental effects of programs, policies, and 
activities of the Corps of Engineers related to water resources 
development projects on minority communities, low-income communities, 
rural communities, and Indian Tribes (required by WRDA 2018 Sec.  
1214); and (b) the ``results of a review by the Secretary of existing 
policies, regulations, and guidance related to consultation with Indian 
tribes on water resources development projects or other activities that 
require the approval of, or the issuance of a permit by, the Secretary 
and that may have an impact on tribal cultural or natural resources'' 
(required by WRDA 2016 Sec.  1120(a)(3)).
    The Corps should prioritize this important work that is essential 
for developing and implementing projects that address the needs and 
priorities of minority communities, economically disadvantaged 
communities and Indian Tribes. The Corps should work with Tribes, state 
and local governments, community groups, and NGOs to develop processes 
and procedures that will allow the Corps to effectively and 
authentically engage with Tribes and communities. The Corps should also 
coordinate with the Environmental Protection Agency and other agencies 
that regularly work with Tribes and vulnerable communities to build on 
the lessons learned by those agencies. The Corps must invest the time, 
cultural respect, and regard required to build authentic relationships 
to learn from and engage Tribes, indigenous communities, communities of 
color, and economically disadvantaged communities.
Sec. 113--Review of Resiliency Assessments
    Section 113 requires the Corps to update existing planning guidance 
related to sea level rise based on the best available, peer-reviewed 
science, in coordination with Federal and state agencies within 180 
days. It also reiterates the Corps' discretion to consider benefits 
accrued over time as a result of sea level rise, and when requested by 
the non-Federal interest, requires the Secretary to consider whether 
the need for the project is predicated upon or exacerbated by 
conditions related to sea level rise.
    The Corps should prioritize this update to its sea level planning 
guidance, which is fundamental to developing and operating effective 
and resilient projects that are located in, or affect, coastal areas. 
In carrying out this update, the Corps should also engage with climate 
experts from academia and the NGO community, in addition to experts in 
other federal and state agencies.
Sec. 116--Feasibility Studies; Review of Natural and Nature-Based 
        Features
    Section 116 requires each feasibility study for a flood or storm 
damage reduction project to include a summary of: (1) any natural or 
nature-based feature alternatives considered, including their long-term 
costs and benefits; and (2) if such alternatives are not included in 
the recommended plan, an explanation of why they were not included in 
the recommended plan.
    The Assistant Secretary of the Army (Civil Works) and the Chief of 
Engineers should ensure strict compliance with Section 116, and require 
that the Section 116 summary clearly describes the flood or storm 
damage reduction benefits and the quantified and unquantified co-
benefits that would have been provided by a rejected natural or nature-
based feature alternative.
Sec. 119--Permanent Measures to Reduce Emergency Flood Fighting Needs 
        for Communities Subject to Repetitive Flooding
    Section 119 provides new authority to study, design, and construct 
water resources projects for communities that have experienced 
repetitive flooding events and have received emergency flood fighting 
assistance under the P.L. 84-99 program. Such projects are to 
incorporate significant use of natural or nature based features to the 
maximum extent practical. The maximum Federal share for a project 
planned under this section is $17.5 million, and the Corps is required 
to consider a community's ability to pay in determining whether to 
require a non-Federal cost share.
    The Corps should prioritize implementation of Section 119, request 
robust funding to implement that program, and ensure that Corps 
planners have the tools and resources they need to develop effective 
and self-sustaining natural and nature-based features, including levee 
setbacks.
Sec. 123--Review of Corps of Engineers Assets
    Section 123 directs the Corps to develop an inventory of projects: 
(1) which are no longer necessary for the Corps' mission 
responsibilities; (2) where long-term cost savings or increased 
resiliency could be achieved through incorporation of natural or 
nature-based features, or (3) which no longer meet the authorized 
purposes due to deferred maintenance requirements. This assessment must 
be completed within 18 months.
    The Corps should prioritize implementation of the Section 123, 
which will provide information on opportunities to increase the 
resiliency of the nation's water resources, restore the environment, 
and save taxpayer dollars. In developing this inventory, the Corps 
should also identify projects that could be re-operated (e.g., through 
changes to reservoir water control manuals or changes to lock and dam 
operation) to increase resiliency and allow wildlife to thrive.
Sec. 125--Beneficial Use of Dredged Material; Dredged Material 
        Management Plans
    Section 125 facilitates strategic use of clean and appropriately 
sourced dredged materials to maximize environmentally sound flood and 
storm damage reduction measures by: (1) establishing a national policy 
to maximize the beneficial use of material obtained from Corps 
projects; (2) increasing the number of authorized beneficial use 
demonstration projects and prioritizing projects in economically 
disadvantaged communities; (3) improving assessment of the ``federal 
standard'' by requiring the Corps to calculate environmental benefits 
of the beneficial use; (4) directing the Corps to develop five-year 
regional dredged material management plans; and (5) emphasizing greater 
coordination across the Corps' dredging contracts.
    This provision provides an important opportunity for facilitating 
vital ecological restoration in key regions, including the Mississippi 
River Delta where lack of sufficient sediment transport is severely 
aggravating coastal wetland losses. The Corps should prioritize 
development of the required regional dredged material management plans, 
improvements to assessing the federal standard, and prioritization of 
projects in economically disadvantaged communities. The Corps should 
also establish formal sidebars to beneficial reuse projects to protect 
public safety and the environment, including requiring that the 
sediments being beneficially reused are uncontaminated and fully 
compatible with the restoration site and that the sediments are being 
used for a sustainable and legally-compliant restoration project.\11\
---------------------------------------------------------------------------
    \11\ Adverse impacts from beneficial reuse can include: re-
suspending significant quantities of toxic sediments that harm people 
and wildlife, burying vital fish and wildlife habitat by placing 
sediment in an inappropriate location, harming fish and wildlife 
habitat by reusing sediments that are incompatible with the sensitive 
habitats upon which they are placed, and causing significant adverse 
impacts at the project providing the sediment source.
---------------------------------------------------------------------------
Sec. 160--Definition of Economically Disadvantaged Community
    Section 160 directs the Corps to define the term `economically-
disadvantaged community' for purposes of this Act within 180 days and 
provide for public notice and comment on this definition.
    The Corps should prioritize this important work that is essential 
for developing and implementing projects that address the needs and 
priorities of economically disadvantaged communities. The Corps should 
work with Tribes, state and local governments, academia, community 
groups, and NGOs to ensure robust public input into this definition. 
The Corps should also carefully coordinate with the Council on 
Environmental Quality and Environmental Protection Agency in developing 
this definition to advance alignment with definitions established for 
other federal programs as appropriate.
Sec. 301--Deauthorization of Inactive Projects
    Section 301 establishes a unified process for the deauthorization 
of $10 billion in antiquated or inactive water resources development 
projects. This provision well help ensure that limited taxpayer 
resources are not spent on water resources projects that are no longer 
needed; do not make sense in light of current conditions, and modern 
science and resource management; or would undermine the resilience of 
the nation's water resources, communities, and wildlife.
    The Assistant Secretary of the Army (Civil Works) and Chief of 
Engineers should ensure full compliance with Section 301, including the 
important restudy provisions in Section 301(g). The Corps' implementing 
guidance for Section 301(g) should ensure reevaluation of projects 
where construction has not taken place for 20 years, even if minor 
construction had been initiated before that date.
                               Conclusion
    The National Wildlife Federation appreciates the Committee's 
commitment to improving Corps planning to increase resilience and 
protect and restore the nation's vital water resources. We respectfully 
urge Congress to carry out robust oversight and provide the funding and 
resources needed to swiftly and effectively implement the essential 
planning improvement and resilience provisions highlighted in this 
statement. The National Wildlife Federation is convinced that effective 
implementation of these provisions will make communities safer and 
allow the nation's treasured wildlife to thrive.

                                 <F-dash>
 Letter of March 23, 2021, from Michael W. Johnson, President and CEO, 
National Stone, Sand, and Gravel Association, Submitted for the Record 
                      by Hon. Grace F. Napolitano
                                                    March 23, 2021.
Hon. Grace Napolitano,
Chairwoman,
House Committee on Transportation and Infrastructure, Subcommittee on 
        Water Resources and Environment, 1610 Longworth House Office 
        Building, Washington, DC 20515.
Hon. David Rouzer,
Ranking Member,
House Committee on Transportation and Infrastructure, Subcommittee on 
        Water Resources and Environment, 2439 Rayburn House Office 
        Building, Washington, DC 20515.
    Dear Chairwoman Napolitano and Ranking Member Rouzer,
    On behalf of the National Stone, Sand & Gravel Association (NSSGA) 
and the aggregate industry we represent, we welcome today's hearing 
titled The Water Resources Development Act of 2020: Status of Essential 
Provisions. NSSGA supports efforts to improve and invest in all levels 
of our nation's infrastructure network, including critical navigable 
waterways that is essential to America's economic competitiveness.
    NSSGA is the leading advocate for the aggregates industry, which 
provides the critical raw materials found in virtually every surface 
transportation project, including roads, highways, bridges, runways, 
pipelines and much more. Our membership represents more than 90 percent 
of the crushed stone and 70 percent of the sand and gravel produced 
annually in the United States. We were pleased with Congress' passage 
of the Water Resources Development Act of 2020 (WRDA) in its end-of-
year package and the legislative success of opening the full resources 
available within the Harbor Maintenance Trust Fund (HMTF). Aggregate is 
a critical material used in various WRDA projects, including dredging, 
port enhancements, shoreline protection, flood mitigation and so much 
more. These projects are critical to our waterway infrastructure 
improvements and combating climate change across the country. 
Leveraging the HMTF to its full capacity, especially given the 
pandemic's impact on local economies, will help advance current WRDA-
related projects and create thousands of jobs throughout the 
construction supply chain.
    Given the success of WRDA 2020, we hope the 117th Congress 
continues its leadership on this issue by passing WRDA 2022 
reauthorization on time and approve funding necessary for many vital 
Army Corps of Engineers projects. NSSGA looks forward to your 
Subcommittee's discussion on WRDA projects impacts past, present and 
future. Please consider our industry a resource as WRDA 2022 evolves.
    Thank you for your time, and we look forward to partnering with 
your offices as we work to improve our nation's navigable waterway 
infrastructure network.
        Sincerely,
                     Michael W. Johnson, President and CEO,
                      National Stone, Sand, and Gravel Association.

cc: Members of the Transportation and Infrastructure Committee

    Mrs. Napolitano. I also ask unanimous consent that the 
record of today's hearing remain open until such a time that 
witnesses have provided answers to any questions that may have 
been submitted to them in writing. And also unanimous consent 
that the record remain open for 15 days for any additional 
comments and information submitted by the Members or witnesses 
to be included in the record of today's hearing.
    And without objection, so ordered.
    I would very much like to thank Chairman DeFazio, Mr. 
Rouzer, and our respective staffs for a bipartisan effort on 
all the past WRDAs. This is marvelous, as you have heard the 
proceeds, the benefits, and the great work that is being done 
by the Corps.
    I also want to thank all the witnesses for their valuable 
testimony and lots of insight that we need to look at.
    I thank the Members for participating today. All Members 
that attended, I am very grateful to you.
    So with that, without objection, if no other Members have 
anything to add, the committee stands adjourned.
    Thank you and goodbye.
    [Whereupon, at 1:04 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Napolitano and Ranking Member Rouzer, for holding 
this important hearing.
    In each of the past four Congresses, this Committee has passed a 
bipartisan Water Resource Development Act (WRDA), and I look forward to 
working together to enact another WRDA into law in 2022.
    America's inland water transportation networks and flood protection 
infrastructure are especially important to Missouri, where we 
experienced devastating floods in 2019--dangers that continue to 
threaten many of the same areas.
    In fact, many are still working to recover and will be for some 
time to come.
    That is why we worked to ensure WRDA 2020 directed the Corps to 
evaluate ways to reduce flood risks in the Lower Missouri River Basin 
and elsewhere.
    WRDA 2020 also provides new authority for the construction of 
permanent flood control structures in communities that experience 
repetitive losses as a result of flood events.
    Likewise, WRDA provisions streamlining the P.L. 84-99 program so 
flood control projects can be done efficiently and effectively will be 
critical to the survival of many communities.
    Another provision included in WRDA ensures the Corps does not build 
any more Interception-Rearing Complexes (IRCs) on the Missouri River 
until they can prove these structures will not negatively impact 
critical navigation and flood protection for our many towns, farms, and 
businesses.
    Many of the provisions included in WRDA 2020 will have positive 
impacts throughout the country and our economy, and I look forward to 
hearing about how the Corps is implementing these new measures.
    I yield back.

                                 <F-dash>
 Letter of March 23, 2021, from James D. Ogsbury, Executive Director, 
 Western Governors' Association, Submitted for the Record by Hon. Sam 
                           Graves of Missouri
                                                    March 23, 2021.
Hon. Grace F. Napolitano,
Chairman,
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, House of Representatives, 
        2165 Rayburn House Office Building, Washington, DC 20515.
Hon. David Rouzer,
Ranking Member,
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, House of Representatives, 
        2164 Rayburn House Office Building, Washington, DC 20515.
    Dear Chairman Napolitano and Ranking Member Rouzer:
    In advance of the Subcommittee's March 23, 2021, hearing on ``The 
Water Resources Development Act of 2020: Status of Essential 
Provisions,'' attached please find three Western Governors' Association 
(WGA) policy resolutions that address provisions contained in the Act:
    <bullet>  WGA Policy Resolution 2019-06, Biosecurity and Invasive 
Species Management;
    <bullet>  WGA Policy Resolution 2018-12, Water Quality in the West; 
and
    <bullet>  WGA Policy Resolution 2018-08, Water Resource Management 
in the West.

    Western Governors appreciate your oversight of this important 
legislation, which helps support water infrastructure construction and 
maintenance, as well as invasive species management, across the West.
    Please contact me if you have any questions or require further 
information. In the meantime, with warm regards and best wishes, I am
        Respectfully,
                      James D. Ogsbury, Executive Director,
                                    Western Governors' Association.

Attachments
                               __________
 policy resolution 2019-06--biosecurity and invasive species management
A. BACKGROUND
1.  Per Executive Order 13751, ``invasive species'' means ``with regard 
to a particular ecosystem, a non-native organism whose introduction 
causes or is likely to cause economic or environmental harm or harm to 
human, animal, or plant health.'' This definition can include aquatic 
and terrestrial plants and animals, forest and agricultural pests, and 
pathogens.
2.  The 2017-2027 Hawai'i Interagency Biosecurity Plan defines 
biosecurity as ``the set of measures taken to manage the risk from 
invasive species to the economy, environment, and health and lifestyle 
of the people.'' This includes pre-border measures, border measures, 
post-border measures, and measures that increase public awareness about 
invasive species.
3.  The Plant Protection Act of 2000 (Pub. L. 106-224) defines 
``biological control'' (biocontrol) as the use of biological control 
organisms as an ``enemy, antagonist, or competitor used to control a 
plant pest or noxious weed.'' When used properly, biocontrol can be an 
effective tool in efforts to manage and eradicate invasive species.
4.  States have different definitions of biosecurity, biological 
control and invasive species. They also may use regulatory and 
nonregulatory terms that are related to, but not synonymous with, the 
term invasive species, including pest, nuisance species, noxious weed, 
and injurious wildlife.
5.  Invasive species have substantial negative effects on ecosystems, 
economies, and communities in the West. Studies have found that 
invasive species cost the U.S. more than $120 billion ever year, and 
the National Wildlife Federation estimates that 42 percent of 
threatened or endangered species are at risk due to invasive species. 
Invasive annual grasses such as cheatgrass, medusahead, fountain grass, 
and ventenata pose a major threat to western rangelands by increasing 
the risk of wildfire, outcompeting native grasses, and diminishing soil 
and water quality. Aquatic nuisance species, including invasive quagga 
and zebra mussels, decrease water quantity and quality, impair native 
wildlife, harm hydroelectric and irrigation systems, and can impede 
maritime transport by fouling vessel hulls. Invasive pathogens affect 
human health and welfare, and invasive species, such as mosquitoes, can 
vector human diseases. Invasive species damage multiple types of 
environments, from virgin forests to urban tree canopies. Invasive 
species harm a wide variety of economies dependent on natural 
resources, including agriculture, ranching, tourism, energy production 
and transmission, and forest products. Invasive species threaten many 
native plants central to western life and the cultures of Native 
Americans, Native Hawai'ians, Alaska Natives, and other indigenous 
peoples.
6.  The spread of invasive species results from a combination of human 
activities, susceptibility of invaded environments, climate change, 
biology of the invading species, and dispersal. These characteristics 
are not dictated by geopolitical boundaries, but rather by ecosystem-
level factors, which cross state and national borders. Scientists, 
private landowners, and state and federal land managers across the West 
have expressed the need to develop a more aggressive and cohesive 
strategy for invasive species management that includes prevention, 
monitoring, control, and eradication.
7.  The impacts of invasive species on natural resources and human 
health and welfare are similar in scope and intensity to the threats 
posed by wildfire. Wildfire management on federal, state, tribal, and 
local land is coordinated through a sophisticated planning and response 
network, which includes the National Interagency Fire Center (NIFC).
8.  Many invasive species were introduced, or their distribution was 
expanded, due to inadequate federal and state regulations dealing with 
interstate transport, international trade and interstate commerce, and 
a lack of communication and coordination between land management 
agencies.
9.  Early Detection and Rapid Response (EDRR) is a coordinated set of 
actions to find and eradicate potential invasive species in a specific 
location before they spread and cause harm. The Incident Command System 
(ICS) is a management system designed to enable effective and efficient 
incident management, including invasive species rapid response, by 
integrating a combination of facilities, equipment, personnel, 
procedures, and communications operating within a common organizational 
structure.
10.  In the West, biosecurity and invasive species management is the 
responsibility of a wide network of state, federal, and local agencies. 
Federal agencies manage invasive species on federal lands and waters 
under a complex system of mandates and authorities.
11.  Cooperative agreements, grants, and procurement contracts between 
federal agencies and state and local invasive species management 
authorities are effective in establishing structured partnerships for 
collaborative invasive species management. The use of cooperative 
agreements lessens the burden on local federal land managers, while 
increasing the efficiency of invasive species management programs 
utilizing local collaborative goal setting. Additionally, cooperative 
agreements simplify project-based contracting utilizing the authorities 
of state and local government agencies. This can be extremely useful, 
especially where infestations extend across multiple landownerships or 
EDRR is the management objective.
12.  Good Neighbor Authority (GNA) allows states to enter into 
agreements with the U.S. Forest Service (USFS) or Bureau of Land 
Management (BLM) permitting them to perform various land management 
activities on federal lands. These tools have been successfully used by 
forest and rangeland managers to achieve various land management 
objectives across federal, state and local government, and privately-
owned lands
13.  U.S. Department of Agriculture (USDA) regulation of interstate 
movement of commodities via airlines is focused on the protection of 
agricultural industries in the contiguous United States. This is 
particularly evident in Hawai'i, where baggage destined for the U.S. 
mainland is subject to federal inspection, while baggage moving from 
the mainland to Hawai'i is not.
14.  Environmental DNA (eDNA) is DNA present in an environmental 
sample, as differentiated from traditional sampling of DNA directly 
from an intact organism. eDNA frequently is thought of as DNA in tissue 
and cells that have been shed by an organism but can also refer to DNA 
within an intact organism, if that organism is collected in the 
environmental sample. eDNA can be used to detect a wide range of 
organisms, including those that are endangered or invasive, and be used 
for both research and monitoring purposes.
15.  The West includes a number of highly important seaports on the 
U.S. mainland and across the Pacific region. Maritime vessels represent 
a primary pathway for the movement of aquatic invasive species. With 
the passage of the Vessel Incidental Discharge Act in 2018, regulations 
regarding ballast water and other discharges are centralized under 
Section 312 of the Clean Water Act with the Environmental Protection 
Agency setting environmental standards, the U.S. Coast Guard (USCG) 
setting vessel requirements to meet those standards, and the USCG and 
interested states enforcing those requirements.
16.  State invasive species councils and invasive plant councils 
provide policy level direction, planning, and coordination for state-
level biosecurity and invasive species prevention and management 
actions in the West. Councils are led by state agencies, non-profit 
organizations, industry, private landowners, and public-private 
partnerships. These groups empower those engaged in the prevention, 
detection, and eradication of invasive species, and serve as forums for 
invasive species education, communication, and strategic planning. 
Invasive species councils can collaborate on regional-level issues and 
benefit from mechanisms that help them to coordinate and solve cross-
boundary, cross-jurisdictional challenges.
B. GOVERNORS' POLICY STATEMENT
1.  Western Governors support the creation of a Western Invasive 
Species Council (WISC) to help enhance coordination between existing 
state invasive species councils, improve communication and 
collaboration on regional biosecurity and invasive species control 
efforts, and to advocate for regional needs at the federal level. The 
WISC should be initially coordinated through the Western Governors' 
Association and should work to address cross-boundary and cross-
jurisdictional challenges identified in this resolution.
2.  Western Governors urge Congress and the Administration to support 
state, territorial, and tribal invasive species prevention, control and 
management programs and redouble efforts on federal lands. This should 
be accomplished through accountability and oversight of programs 
administered by the USDA, the U.S. Department of the Interior, the U.S. 
Department of Defense, the USCG, and the National Oceanic and 
Atmospheric Administration. These programs provide valuable services in 
the detection and elimination of invasive species, as well as 
coordination, public outreach, and communication.
3.  Western Governors support research as needed to provide 
understanding of invasive species life potential range distribution, 
and to develop geographically-appropriate control measures. Western 
Governors urge Congress and the Administration to support much-needed 
research on biosecurity and invasive species, including programs under 
the National Institute of Food and Agriculture and to facilitate 
funding mechanisms that enable land grant universities to conduct 
research and development of new pesticides. Institutions conducting 
research on biosecurity, biocontrol and invasive species control 
methods should look for opportunities to pool funding resources and 
exchange information across administrative lines. Invasive species 
managers and policymakers should be encouraged to develop new decision-
making tools and economic analyses, as well as build and improve upon 
the decision-making tools and analyses currently in use. Invasive 
species managers should strive to incorporate economic analyses and 
regional-level, science-based decision-making tools into management 
decisions.
4.  Western Governors strongly encourage expansion and creation of 
partnerships `` such as invasive species councils with representation 
from local weed and pest districts, conservation districts, county 
governments, non-profit and industry organizations, local stakeholders, 
state, island, tribal, federal, regional and international agencies `` 
committed to preventing the spread of invasive species, averting new 
unauthorized introductions, responding rapidly to new introductions, 
and working together to find creative regional approaches for 
protecting and restoring natural, agriculture, power and water 
conveyance infrastructure, and recreational resources. Federal agencies 
should build a more sophisticated and centralized biosecurity and 
invasive species management network, including a National Biosecurity 
and Invasive Species Management Center based on the model of the NIFC.
5.  Congress and the federal government should ensure that invasive 
species funding, including support for emergency response, is 
sustainable, flexible and able to be maximized by federal, state and 
local agencies with pooled resources and collaborative funding 
mechanisms. Federal funding, cooperative agreements grants, and 
procurement contracts for state and local biosecurity and invasive 
species management should be structured in a deliberate and transparent 
way that allows for the greatest amount of flexibility and long-term 
planning. When possible, federal agencies should look for collaborative 
projects and funding opportunities that multiply state resources and 
support state-led biosecurity and invasive species management projects.
6.  Western Governors call upon Congress to promote state-directed 
programs to combat invasive species. Regional leadership and state-
directed programs provide place-based solutions tailored to unique 
regional or local conditions in land and aquatic ecosystems. The 
federal role should be one of partnership and policy-making that 
strengthen states' on-the-ground efforts and mitigates risks associated 
with the movement of invasive species between states.
7.  Federal agencies are encouraged to expand the use of cooperative 
agreements with state and local governments and should ensure that they 
are approved in a timely manner and in collaboration with implementing 
state agencies. Federal agencies can also support invasive species 
management efforts by encouraging contract recipients to coordinate 
with state and local invasive species management agencies, regulatory 
programs, and cooperative weed and invasive species management areas. 
State invasive species managers should consider using Good Neighbor 
Authority on USFS and BLM lands for cross-boundary collaborative 
invasive species control, management and eradication programs.
8.  Federal actions should support state biosecurity and invasive 
species management efforts by ensuring the timely approval of state 
permits for biosecurity, quarantine, biocontrol, and rapid response 
actions. Federal agencies should consult with Governors early and 
substantively regarding biosecurity or invasive species management 
decisions that affect state resources and state actions.
9.  Federal agencies should identify individuals within district and 
region offices that can be contacted and assist in the planning and 
implementation of local cross-boundary invasive species management 
programs.
10.  The threats that invasive species pose to western landscapes and 
communities are serious and should be met with a sophisticated and 
coordinated response commensurate with the level of their impacts.
11.  Prevention is the most efficient and cost-effective method of 
invasive species management. Effective biosecurity, prevention, and 
containment methods can mitigate the need for more expensive and 
burdensome control and eradication programs. Prevention strategies 
should be coordinated across state, national, and international lines. 
Federal and state agencies should increase the use of innovative 
biosecurity prevention and detection programs, including increased use 
of electronic manifesting in interstate shipments for the purposes of 
inspection, and the use of canine detection resources.
12.  Western Governors support the EDRR framework as a method to limit 
or eliminate new introductions and existing species expansion. Programs 
for the control and/or eradication of invasive species must result in 
more on-the-ground prevention, management and eradication. The ICS 
should be evaluated for use in instances of fast-spreading invasives 
and used as part of EDRR; state, federal, and local agencies can opt to 
practice and implement the ICS as part of rapid response. The Federal 
Emergency Management Agency can support these efforts by working with 
western states to create an ICS training module for invasive species 
rapid response. The Executive Branch can support state-led rapid 
response programs by: 1) increasing federal funding for state-led 
aquatic invasive species rapid response programs, including those that 
provide mechanisms for flexible, long-term support of state early 
detection rapid response efforts; 2) streamlining federal permitting 
and approval processes for treatment and management actions for new 
mussel detections; 3) creating a single federal authority for aquatic 
invasive species treatment permitting and approval in freshwater 
systems; and 4) simplifying reporting on new invasive mussel 
infestations by creating a single federal point of contact for new 
mussel detections.
13.  Federal agencies should support states' effort to identify, study 
and approve the use of biological control organisms. Federal permitting 
models should be structured to ensure biocontrol can be utilized by 
states in a safe and timely manner. Biocontrol research is encouraged 
at a regional level, with biocontrol research information being 
encouraged to move freely between institutions and across state lines. 
Invasive species managers in the West would benefit from the creation 
of a new, state-of-the-art biological control facility, as well as a 
collaborative, multi-agency plan for maintaining and staffing new 
biocontrol facilities at a level that more adequately meets the 
expanding needs of the region. Furthermore, effective biocontrol, 
biosecurity, and invasive species research depends upon a highly-
skilled workforce. State and federal agencies should collaborate with 
universities to support programs essential to biosecurity and invasive 
species management, such as botany, zoology, plant pathology, taxonomy, 
systematics, and related fields.
14.  The containment of invasive quagga and zebra mussels at infested 
waters in the West depends upon the collaboration and mutual effort of 
federal, state and local agencies. Many state-led containment programs 
benefit from federal cooperation and funding, and state and federal 
agencies should be encouraged to sustain and expand these effective 
partnerships as necessary. However, to adequately protect the West from 
the movement of aquatic invasive species, federal agencies must be able 
to act as full partners in invasive species containment efforts and 
must have the funding and authorities necessary to contain invasive 
species within lands and waters under their jurisdiction. To this end, 
federal agencies, including the National Park Service and BLM, should 
be vested with clear authority to manage watercraft upon their 
departure from infested waterbodies under federal jurisdiction.
15.  Integrated pest management, biocontrol, outcome-based grazing, and 
targeted grazing can be effective tools to control the spread of 
invasive annual grasses. Federal, state, and local agencies should view 
invasive annual grasses as a regional threat and strive to identify and 
implement cross-boundary projects to control invasive annual grasses at 
a regional level. Such projects should include those utilizing 
alternative management techniques such as outcome-based grazing.
16.  Agricultural industries in the Pacific Islands need to be 
similarly protected from the risk of interstate movement of invasive 
species as the contiguous U.S. mainland. USDA quarantines and commodity 
inspections should incorporate the priorities of the West, including 
non-contiguous states and territorial islands in the western region. 
This includes maintaining federal quarantines on pests that have not 
yet reached the West, like the emerald ash borer, and adopting policies 
that adequately protect Pacific states and territories, such as 
inspection of baggage moving from the contiguous U.S. to non-contiguous 
areas.
17.  State, federal and local agencies and regional coordinating groups 
should develop and implement a set of best practices for conducting 
eDNA monitoring and incorporating positive detection results into rapid 
response strategies.
18.  To effectively prevent, contain, and control invasive species, 
federal, state and local invasive species managers need federal laws 
that support on-the-ground action. Western Governors support a states-
led review of federal biosecurity and invasive species statutes, 
including the Lacey Act and the National Invasive Species Act, to 
evaluate how they support on-the-ground management, identify any gaps 
in their application, and ensure that their structure and 
implementation are able to address 21st century biosecurity and 
invasive species challenges. Of particular interest are opportunities 
to expand the taxonomic scope of the Lacey Act to benefit U.S. 
biosecurity.
19.  As directed by the Vessel Incidental Discharge Act, the U.S. Coast 
Guard and the Environmental Protection Agency should consult with 
Western Governors and work closely and collaboratively with states on 
the implementation of that act to ensure that state and regional 
aquatic resource protection needs are met across the West and the 
Pacific. Federal and state partners should collaborate on the 
development of evidence-based risk assessments and should work together 
to assess the efficacy of policies and tools that may be used in 
mitigating the impact of various types of discharges, including hull 
biofouling. Western Governors believe that protecting the diversity of 
marine habitats in western states and Pacific territories is best 
accomplished by working with states that have the greatest knowledge of 
their ecosystems and invasive risks.
20.  Accurate, standardized, and accessible geospatial data is 
essential to biosecurity and invasive species management in the West. 
Western Governors support efforts to standardize and centralize 
invasive species occurrence data, streamline the exchange of data 
between the nation's major invasive species data aggregators, and 
increase the accessibility of data to federal, state, and local land 
and resource managers.
C. GOVERNORS' MANAGEMENT DIRECTIVE
1.  The Governors direct WGA staff to work with Congressional 
committees of jurisdiction, the Executive Branch, and other entities, 
where appropriate, to achieve the objectives of this resolution.
2.  Furthermore, the Governors direct WGA staff to consult with the 
Staff Advisory Council regarding its efforts to realize the objectives 
of this resolution and to keep the Governors apprised of its progress 
in this regard.

    Western Governors enact new policy resolutions and amend existing 
resolutions on a bi-annual basis. Please consult westgov.org/
resolutions for the most current copy of a resolution and a list of all 
current WGA policy resolutions.
          policy resolution 2018-12--water quality in the west
A. BACKGROUND
1.  Clean water is essential to strong economies and quality of life. 
In most of the West, water is a scarce resource that must be managed 
with sensitivity to social, environmental, and economic values and 
needs. Because of their unique understanding of these needs, states are 
in the best position to manage the water within their borders.
2.  States have federally-recognized authority to manage and allocate 
water within their boundaries. The Clean Water Act (CWA) Section 101(g) 
expressly says that ``the authority of each state to allocate 
quantities of water within its jurisdiction shall not be superseded, 
abrogated, or otherwise impaired by this Act.''
3.  States and the Environmental Protection Agency (EPA) work together 
as co-regulators under the CWA and the Safe Drinking Water Act (SDWA). 
Congress has delegated to states, by statute, the authority to obtain 
approval to implement certain federal program responsibilities. When a 
state has been approved to implement a program and the state is meeting 
minimum program requirements, the role of federal agencies like EPA 
should be funding, technical assistance, and research support. States 
should be free to develop, implement, and enforce those requirements 
using an approach that makes sense in their specific jurisdiction, 
subject to the minimum requirements of the federal acts.
4.  The CWA was last reauthorized in 1987; attempts to reauthorize the 
Act since then have failed. Current federal regulations, guidance, and 
programs pertaining to the CWA do not always recognize the specific 
conditions and needs of most of the West, where water is scarce and 
even wastewater becomes a valuable resource to both humans and the 
environment. The West includes a variety of waters; small ephemeral 
washes, large perennial rivers, effluent-dependent streams, and wild 
and scenic rivers. In addition to natural rivers, streams and lakes, 
there are numerous man-made reservoirs, waterways and water conveyance 
structures. States need more flexibility to determine how to best 
manage these varying resources.
B. GOVERNORS' POLICY STATEMENT
Clean Water Act (CWA)

1.  State Authority and Implementation of CWA: States have jurisdiction 
over water resource allocation decisions and are responsible for how to 
balance state water resource needs within CWA objectives. New 
regulations, rulemaking, and guidance should recognize this state 
authority.
  a)  CWA Jurisdiction: Western Governors urge EPA and the Corps to 
engage the states as co-regulators and ensure that state water managers 
have a robust and meaningful voice in the development of any rule 
regarding CWA jurisdiction, particularly in the early stages of 
development before irreversible momentum precludes effective state 
participation.
  b)  Total Maximum Daily Loads (TMDLs)/Adaptive Management: States 
should have the flexibility to adopt water quality standards and set 
total maximum daily loads (TMDLs) that are tailored to the specific 
characteristics of Western water bodies, including variances for unique 
state and local conditions.
  c)  Anti-degradation: CWA Section 303 gives states the primary 
responsibility to establish water quality standards (WQS) subject to 
EPA oversight. Given the states' primary role in establishing WQS, EPA 
should directly involve the states in the rulemaking process for any 
proposed changes to its existing regulations. Before imposing new anti-
degradation policies or implementation requirements, EPA should 
document the need for new requirements and strive to ensure that new 
requirements do not interfere with sound existing practices.
  d)  Groundwater: States have exclusive authority over the allocation 
and administration of rights to use groundwater located within their 
borders and are primarily responsible for allocating, protecting, 
managing, and otherwise controlling the resource. The regulatory reach 
of the CWA was not intended to, and should not, be applied to the 
management and protection of groundwater resources. The federal 
government should not develop a groundwater quality strategy; instead, 
it must recognize and respect state primacy, reflect a true state-
federal partnership, and comply with current federal statutory 
authorities.
2.  Permitting: Actions taken by EPA in its CWA permitting processes 
should not impinge upon state authority over water management or the 
states' responsibility to implement CWA provisions.
  a)  State Water Quality Certification: Section 401 of the CWA 
requires applicants for a federal license to secure state certification 
that potential discharges from their activities will not violate state 
water quality standards. Section 401 is operating as it should, and 
states' mandatory conditioning authority should be retained without 
amendment.
  b)  General Permits: Reauthorization of the CWA must reconcile the 
continuing administrative need for general permits with their site-
specific permitting requirements under the CWA. EPA should promulgate 
rules and guidance that better support the use of general permits where 
it is more effective to permit groups of dischargers rather than 
individual dischargers.
  c)  Water Transfers: Water transfers that do not involve the addition 
of a pollutant have not been subject to the permitting requirements of 
the CWA's National Pollutant Discharge Elimination System (NPDES). 
States already have authority to address the water quality issues 
associated with transfers. Western Governors believe that transporting 
water through constructed conveyances to supply beneficial uses should 
not trigger NPDES permit requirements simply because the source and 
receiving water contain different chemical concentrations and physical 
constituents. Western Governors support EPA's current Water Transfers 
Rule, which exempts water transfers between waters of the United States 
from NPDES permitting requirements.
  d)  Pesticides: Western Governors generally support the primary role 
of the Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA) in 
regulating agriculture and public health related pesticide applications 
to waters of the U.S. and will seek state-based solutions that 
complement rather than duplicate FIFRA in protecting water supplies.
3.  Nonpoint Source Pollution: Nonpoint source pollution requires state 
watershed-oriented water quality management plans, and federal agencies 
should collaborate with states to carry out the objectives of these 
plans. The CWA should not supersede other ongoing federal, state, and 
local nonpoint source programs. Federal water policies must recognize 
that state programs enhanced by federal efforts could provide a firm 
foundation for a national nonpoint source policy that maintains the 
non-regulatory and voluntary nature of the program. In general, the use 
of point source solutions to control nonpoint source pollution is also 
ill-advised.
  a)  Forest Roads: Stormwater runoff from forest roads has been 
managed as a nonpoint source of pollution under EPA regulation and 
state law since enactment of the CWA. Western Governors support 
solutions that are consistent with the long-established treatment of 
forest roads as nonpoint sources, provided that forest roads are 
treated equally across ownership within each state.
  b.  Nutrient Pollution: Nitrogen and phosphorus (nutrient) pollution 
is a significant cause of water quality impairment across the nation, 
and continued cooperation between states and EPA is needed. However, 
nutrients produced by non-point sources fall outside of NPDES 
jurisdiction and should not be treated like other pollutants that have 
clear and consistent thresholds over a broad range of aquatic systems 
and conditions.
         States should be allowed sufficient flexibility to utilize 
their own incentives and authorities to establish standards and control 
strategies to address nutrient pollution, rather than being forced to 
abide by one-size-fits-all federal numeric criteria. Successful tools 
currently in use by states include best management practices, nutrient 
trading, controlling other water quality parameters, and other 
innovative approaches.
4.  CWA Reauthorization: The Western Governors support reauthorization 
of the CWA, provided that it recognizes the unique hydrology and legal 
framework in Western states. Further, any CWA reauthorization should 
include a new statement of purpose to encourage the reuse of treated 
wastewater to reduce water pollution and efficiently manage water 
resources.
5.  Good Samaritan Legislation: Congress should enact a program to 
protect volunteering remediating parties who conduct authorized 
remediation of abandoned hardrock mines from becoming legally 
responsible under the CWA and/or the Comprehensive Environmental 
Response, Compensation, and Liability Act for any continuing discharges 
after completion of a remediation project, provided that the 
remediating party--or ``Good Samaritan''--does not otherwise have 
liability for that abandoned mine or inactive mine site.
6.  Stormwater (Wet Weather) Pollution: In the West, stormwater 
discharges to ephemeral streams in arid regions pose substantially 
different environmental risks than do the same discharges to perennial 
surface waters. The Western Governors emphasize the importance of state 
primacy in water management, including management of ephemeral streams. 
State water agencies are well-equipped to provide tailored approaches 
that reflect the unique management needs of ephemeral streams.
7.  State-Tribal Coordination: Western Governors endorse government-to-
government cooperation among the states, tribes and EPA in support of 
effective and consistent CWA implementation. While retaining the 
ability of the Governors to take a leadership role in coordination with 
the tribes, EPA should promote effective consultation, coordination, 
and dispute resolution among the governments, with emphasis on lands 
where tribes have treatment-as-state status under Section 518 of the 
CWA.

Safe Drinking Water Act (SDWA)

8.  Federal Assistance in Meeting SDWA Standards: Western Governors 
believe that the SDWA and its standards for drinking water contaminants 
have been instrumental in ensuring safe drinking water supplies for the 
nation. It is essential that the federal government, through EPA, 
provide adequate support to the states and water systems to meet 
federal requirements. Assistance is particularly needed for small and 
rural systems, which often lack the resources needed to comply with 
federal treatment standards.
9.  Drinking Water Standards: Contaminants such as arsenic, chromium, 
perchlorate, and fluoride often occur naturally in the West. Western 
Governors support EPA technical assistance and research to improve both 
the efficiency and affordability of treatment technologies for these 
contaminants. In any drinking water standards that the EPA may revise 
or propose for these and other contaminants, including disinfection 
byproducts, EPA should consider the disproportionate impact that such 
standards may have on Western states and give special consideration to 
feasible technology based on the resources and needs of smaller water 
systems.
10.  Risk Assessments: Analysis of the costs of treatment for drinking 
water contaminants should carefully determine the total costs of 
capital improvements, operation, and maintenance when determining 
feasible technology that can be applied by small systems. These costs 
should be balanced against the anticipated human health benefits before 
implementing or revising drinking water standards.
11.  Emerging Contaminants/Pharmaceuticals: The possible health and 
environmental impacts of emerging contaminants and pharmaceuticals are 
of concern to Western Governors. Although states have existing 
authorities to address possible risks associated with emerging 
contaminants and pharmaceuticals, there is a need for more reliable 
science showing impacts on human health as more information regarding 
these contaminants becomes available.
12.  Hydraulic Fracturing: States currently employ a range of effective 
programmatic elements and regulations to ensure that hydraulic 
fracturing does not impair water quality, including but not limited to 
requirements pertaining to well permitting, well construction, the 
handling of exploration and production waste fluids, the closure of 
wells, and the abandonment of well sites.
         Federal efforts to study the potential impacts of hydraulic 
fracturing on water quality should leverage state knowledge, expertise, 
policies, and regulations. Such efforts should also be limited in 
scope, based upon sound science, and driven by the states. Western 
Governors oppose efforts that would diminish the primary and exclusive 
authority of states over the allocation of water resources necessary 
for hydraulic fracturing.

Compliance with Federal Water Quality and Drinking Water Requirements

13.  State Revolving Funds: Western Governors support EPA's Clean Water 
State Revolving Fund (SRF) and Drinking Water SRF as important tools 
that help states and local communities address related water 
infrastructure needs and comply with federal water quality and drinking 
water requirements. Western Governors also urge Congress and the 
Administration to ensure that the SRF Programs provide greater 
flexibility and fewer restrictions on state SRF management.
14.  Restoring and Maintaining Lakes and Healthy Watersheds: 
Historically, the Section 314 Clean Lakes Program and the Section 319 
Nonpoint Source Management Program provided states with critical tools 
to restore and maintain water quality in lakes and watersheds. Western 
Governors urge the Administration and Congress to support these 
programs. Such support should not come at the expense of other federal 
watershed protection programs.
15.  EPA Support and Technical Assistance: The federal government, 
through EPA, should provide states and local entities with adequate 
support and technical assistance to help them comply with federal water 
quality and drinking water requirements. EPA should also collaborate 
with and allow states to identify and establish priority areas, 
timelines, and focus on programs that provide the largest public health 
and environmental benefits.
16.  EPA Grant Funding for Primary Service--Rural Water Programs: Some 
rural communities still lack basic water and sanitary services needed 
to assure safe, secure sources of water for drinking and other domestic 
needs. Adequate federal support, including but not limited to the Rural 
Utilities Service programs of the Department of Agriculture and SRFs 
through EPA, are necessary to augment state resources.

Water Quality Monitoring and Data Collection

17.  Water Data Needs: Western water management is highly dependent 
upon the availability of data regarding both the quality and quantity 
of surface and ground waters. EPA should provide support to the states 
in developing innovative monitoring and assessment methods, including 
making use of biological assessments, sensors and remote sensing, as 
well as demonstrating the value to the states of the national 
probabilistic aquatic resource surveys.
B. GOVERNORS' MANAGEMENT DIRECTIVE
1.  The Governors direct WGA staff to work with Congressional 
committees of jurisdiction, the Executive Branch, and other entities, 
where appropriate, to achieve the objectives of this resolution.
2.  Furthermore, the Governors direct WGA staff to consult with the 
Staff Advisory Council regarding its efforts to realize the objectives 
of this resolution and to keep the Governors apprised of its progress 
in this regard.

    Western Governors enact new policy resolutions and amend existing 
resolutions on a bi-annual basis. Please consult www.westgov.org/
policies for the most current copy of a resolution and a list of all 
current WGA policy resolutions.
    policy resolution 2018-08--water resource management in the west
A. BACKGROUND
1.  Water is a crucial resource for communities, industries, habitats, 
farms, and western states. Clean, reliable water supplies are essential 
to maintain and improve quality of life. The scarce nature of water in 
much of the West makes it particularly important to our states.
2.  States are the primary authority for allocating, administering, 
protecting, and developing water resources, and they are primarily 
responsible for water supply planning within their boundaries. States 
have the ultimate say in the management of their water resources and 
are best suited to speak to the unique nature of western water law and 
hydrology.
3.  Many communities in the West anticipate challenges in meeting 
future water demands. Supplies are nearly fully allocated in many 
basins across the West, and increased demand from population growth, 
economic development, and extreme weather and fire events places added 
stress on those limited water resources. Sustainability of our natural 
resources, specifically water, is imperative to the foundations upon 
which the West was developed. Growth and development can only continue 
upon our recognition of continued state stewardship of our unique 
resources and corresponding responsibilities.
4.  Strong state, regional and national economies require reliable 
deliveries of good-quality water, which in turn depend on adequate 
infrastructure for water and wastewater. Investments in water 
infrastructure also provide jobs and a foundation for long-term 
economic growth in communities throughout the West. Repairs to aging 
infrastructure are costly and often subject to postponement.
5.  Western Governors recognize the essential role of partnership with 
federal agencies in western water management and hope to continue the 
tradition of collaboration between the states and federal agencies.
6.  Tribal governments and western states also share common water 
resource management challenges. The Western Governors Association and 
Western States Water Council have had a long and productive partnership 
with tribes, working to resolve water rights claims.
B. GOVERNORS' POLICY STATEMENT
1.  State Primacy in Water Management: As the preeminent authority on 
water management within their boundaries, states have the right to 
develop, use, control and distribute the surface water and groundwater 
located within their boundaries, subject to international treaties and 
interstate agreements and judicial decrees.
  a.  Federal Recognition of State Authority: The federal government 
has long recognized the right to use water as determined under the laws 
of the various states; Western Governors value their partnerships with 
federal agencies as they operate under this established legal 
framework.
         While the Western Governors acknowledge the important role of 
federal laws such as the Clean Water Act (CWA), the Endangered Species 
Act (ESA), and the Safe Drinking Water Act (SDWA), nothing in any act 
of Congress or Executive Branch regulatory action should be construed 
as affecting or intending to affect states' primacy over the allocation 
and administration of their water resources.
         Authorization of water resources development legislation, 
proposed federal surplus water rulemakings, and/or storage reallocation 
studies should recognize natural flows and defer to the states' legal 
right to allocate, develop, use, control, and distribute their waters, 
including but not limited to state storage and use requirements.
  b.  Managing State Waters for Environmental Purposes: States and 
federal agencies should coordinate efforts to avoid, to the extent 
possible, the listing of water-dependent species under the ESA. When 
ESA listings cannot be avoided, parties should promote the use of 
existing state tools, such as state conservation plans and in-stream 
flow protections, to conserve and recover species.
2.  Infrastructure Needs: Aging infrastructure for existing water and 
wastewater facilities and the need for additional water projects cannot 
be ignored. Infrastructure investments are essential to our nation's 
continued economic prosperity and environmental protection, and they 
assist states in meeting federally-mandated standards.
  a.  Federal Support for Infrastructure Investment: Congress should 
provide adequate support for the CWA and SDWA State Revolving Funds. 
Further, Congress should fully utilize the receipts accruing to the 
Reclamation Fund for their intended purpose in the continuing 
conservation, development and wise use of western resources to meet 
western water-related needs, including the construction of 
Congressionally-authorized Bureau of Reclamation rural water projects 
and facilities that are part of a Congressionally-authorized Indian 
water rights settlement.
         Congress should authorize water resources development 
legislation on a regular schedule and appropriate funding so all 
projects and studies authorized in such legislation can be completed in 
a timely manner.
         Congress also should consider facilitating greater investment 
in water infrastructure, utilizing such tools as loan guarantees, 
revolving funds, infrastructure banks and water trust funds.
         Capital budgeting and asset management principles should be 
used to determine funding priorities based on long-term sustainability 
and not annual incremental spending choices. It should be accompanied 
by dedicated sources of funding with appropriate financing, cost-
sharing, pricing and cost recovery policies.
  b.  Alternatives to Direct Federal Investment: Federal and state 
policymakers should also consider other tools to promote investment in 
water infrastructure and reduce financing costs, including: public-
private partnerships, bond insurance, risk pooling, and credit 
enhancements.
         Congress should remove the state volume caps for private 
activity bonds used for water and wastewater projects, provide 
guaranteed tax-exempt status for bonds issued by state or local 
agencies to finance water infrastructure, provide loan guarantees, and 
otherwise support and encourage alternatives to direct federal 
investment of limited general funds.
  c.  Hydropower: Congress and the Administration should authorize and 
implement appropriate hydropower projects and programs through 
efficient permitting processes that enhance renewable electric 
generation capacity and promote economic development, while ensuring 
protection of important environmental resources and indigenous people's 
rights.
  d.  Infrastructure Planning and Permitting: Infrastructure planning 
and permitting guidelines, rules and regulations should be coordinated, 
streamlined and sufficiently flexible to: (1) allow for timely 
decision-making in the design, financing and construction of needed 
infrastructure; (2) account for regional differences; (3) balance 
economic and environmental considerations; and (4) minimize the cost of 
compliance.
3.  Western States Require Innovative and Integrated Water Management: 
Western Governors believe effective solutions to water resource 
challenges require an integrated approach among states and with 
federal, tribal and local partners. Federal investments should assist 
states in implementing state water plans designed to provide water for 
municipal, rural, agricultural, industrial and habitat needs, and 
should provide financial and technical support for development of 
watershed and river basin water management plans when requested by 
states.
     Integrated water management planning should also account for flood 
control, water quality protection, and regional water supply systems. 
Water resource planning must preserve state authority to manage water 
through policies which recognize state law and financial, environmental 
and social values of water to citizens of western states today and in 
the future.
  a.  Water Transfers: Western Governors recognize the potential 
benefits of market-based water transfers, meaning voluntary sales or 
leases of water rights. The Governors support water transfers that 
avoid or mitigate damages to agricultural economies and communities 
while preventing injury to other water rights, water quality, and the 
environment.
  b.  Energy Development: Western Governors recognize that energy 
development and electricity generation may create new water demands. 
Western Governors recommend increased coordination across the energy 
and water management communities, and support ongoing work to assess 
the interconnection of energy and water through the Regional 
Transmission Expansion Planning Project for the Western Interconnection 
and similar efforts.
  c.  Conservation and Efficiency: Because of diminished water 
resources and declining and inconsistent snowpack, Western Governors 
encourage adoption of strategies to sustain water resources and extend 
existing water supplies further through water conservation, water reuse 
and recycling, desalination and reclamation of brackish waters, and 
reductions in per capita water use. The Governors encourage the use of 
and research into promising water-saving strategies.
  d.  Local Watershed Planning: Western Governors encourage federal 
agencies and Congress to provide resources such as technical support to 
states and local watershed groups. States may empower these watershed 
groups to address local water issues associated with water quality, 
growth and land management to complement state water needs.
  e.  Intergovernmental Collaboration and Conflict Resolution: Western 
Governors support the negotiated settlement of interstate water 
disputes, Indian and Hawaiian water rights claims, and other federal 
water needs and claims, the settlement of which are in the best 
interest of western states.
  f.  State-Federal Coordination: Western Governors recognize the 
important role of federal agencies in water resource management in the 
western states. Governors appreciate the efforts of federal agencies to 
coordinate water-related activities, particularly through the Western 
States Water Council, and support the continuation of these key state-
federal partnerships.
4.  Western States Need Reliable Water Resource Information: Basic 
information on the status, trends and projections of water resource 
availability is essential to sound water management.
  a.  Basic Water Data: Western Governors support the U.S. Geological 
Survey's Groundwater and Streamflow Information Program, the Natural 
Resources Conservation Service's Snow Survey and Water Supply 
Forecasting Program, the National Oceanic and Atmospheric 
Administration's weather and hydrology-related data collection, 
monitoring, and drought information programs, and the National 
Aeronautics and Space Administration's National Land Imaging (Landsat) 
Program with its thermal infrared sensor. Western Governors support 
federal efforts to coordinate water data gathering and information 
programs across multiple agencies.
  b.  Extreme Weather Events Planning: Western Governors recognize the 
significant potential impacts of extreme weather events and variability 
in water supplies. Western Governors urge Congress and the 
Administration to work closely with states and other resource managers 
to improve predictive and adaptive capabilities for extreme weather 
variability and related impacts. We specifically urge the federal 
government to place a priority on improving the sub-seasonal and 
seasonal precipitation forecasting capabilities that could support 
water management decision-making.
  c.  Water Data Exchange: The Western Governors' Association and the 
Western States Water Council have worked together to create the Water 
Data Exchange, an online portal that will enable states to share their 
water data with each other, federal agencies, and the public via a 
common platform. The Governors encourage the use of state water data in 
planning for both the public and private sectors.
5.  Drought Preparedness and Response: As exceptional levels of drought 
persist across the West, Governors are leading on drought preparedness 
and response through the Western Governors' Drought Forum. The Drought 
Forum provides a framework for leaders from states, businesses, non-
profits, communities, research organizations and federal agencies to 
share best practices and identify policy options for drought 
management. The Governors have identified several areas in need of 
additional attention from Drought Forum partners, including:
  a.  Data and Analysis: Basic data on snowpack, streamflow and soil 
moisture is essential to understanding drought. Though a great deal of 
information already exists, enhanced drought data collection and real-
time analysis at a higher resolution is essential. Governors support 
state and federal efforts to maintain adequate collection of drought 
and water data, enhance data networks where appropriate, and facilitate 
better use of existing information.
         The Governors appreciate the collaborative efforts on drought 
provided through NOAA's National Weather Service River Forecast Centers 
and Weather Forecast Offices, and the Office of Atmospheric Research's 
labs and programs, such as the National Integrated Drought Information 
System (NIDIS).
  b.  Produced, Reused, and Brackish Water: Technology exists to use 
produced, reused, recycled and brackish water-sources traditionally 
considered to be marginal or wastewater. Adoption of this technology 
has been limited by inadequate data, regulatory obstacles, financial 
barriers, public attitudes and logistical uncertainties. Governors 
support regulatory streamlining and policy options to encourage use of 
produced, brackish, and reused water where appropriate.
  c.  Forest Health and Soil Stewardship: Better land management 
practices for forests and farmland may help improve availability and 
soil moisture retention. Wildfires can cause sediment runoff in water 
systems, leading to problems for reservoir management and water 
quality. Governors support policies and practices that encourage 
healthy and resilient forests and soils in order to make the most of 
existing water supplies.
  d.  Water Use Efficiency and Conservation: Public awareness of 
drought has directed increasing attention to water conservation 
strategies, both in-home and on-farm. Governors encourage municipal, 
industrial and agricultural water conservation strategies as drought 
management strategy.
  e.  Infrastructure and Investment: Water infrastructure to store and 
convey water is crucial to drought management, but maintenance and 
expansion of that infrastructure is often difficult to fund. Governors 
support efforts to make the most of existing infrastructure, while 
seeking creative solutions to add more infrastructure with limited 
resources.
  f.  Working within Institutional Frameworks to Manage Drought: Legal 
frameworks and regulatory regimes can sometimes limit the ability of 
state, local and federal agencies to respond quickly to drought 
conditions. Governors believe that innovative, flexible policy 
solutions, such as streamlined processing of temporary water transfers, 
should be considered when managing drought.
  g.  Communication and Collaboration: Communication among state 
officials, federal agency representatives, water providers, 
agricultural users and citizens is a crucial component of effective 
drought response. The Western Governors' Drought Forum will continue to 
provide a framework for sharing best practices through its online 
resource library, informational webinars, and strategy-sharing meetings 
for the duration of this resolution.
C. GOVERNORS' MANAGEMENT DIRECTIVE
1.  The Governors direct the WGA staff, where appropriate, to work with 
Congressional committees of jurisdiction and the Executive Branch to 
achieve the objectives of this resolution including funding, subject to 
the appropriation process, based on a prioritization of needs.
2.  Furthermore, the Governors direct WGA staff to develop, as 
appropriate and timely, detailed annual work plans to advance the 
policy positions and goals contained in this resolution. Those work 
plans shall be presented to, and approved by, Western Governors prior 
to implementation. WGA staff shall keep the Governors informed, on a 
regular basis, of their progress in implementing approved annual work 
plans.

    Western Governors enact new policy resolutions and amend existing 
resolutions on a bi-annual basis. Please consult www.westgov.org/
policies for the most current copy of a resolution and a list of all 
current WGA policy resolutions.



                                Appendix

                              ----------                              


    Question from Hon. Grace F. Napolitano to Matthew J. Strickler, 
     Secretary of Natural Resources and Chief Resilience Officer, 
                        Commonwealth of Virginia

    Question 1. Your testimony highlights the backlog of unfunded Corps 
projects and how those might be outdated by the time they are fully 
funded for construction. Can you further discuss how increased Corps 
funding would help project delivery timelines, and how that may help 
states to prepare for climate impacts more holistically?
    Answer. A persistent challenge for USACE and decisionmakers is how 
to address the agency's backlog of $98 billion in authorized USACE 
construction activities. At any time, the Army Corps has more than 500 
active projects, some of which date back decades. As climate change 
creates a pressing need for swift action to improve flooding resilience 
and habitat restoration, the federal government must provide the needed 
funding, and prioritize funding for projects based on what's most 
important for resilience, and which projects provide co-benefits for 
environmental protection and community development.
    Increased funding would help reduce the Corps project backlog, 
however the backlog is so large that funding is only part of the 
problem.
    For example, many Corps projects continue to have unacceptably high 
environmental costs and fail to provide protection for environmental 
justice communities. These projects should be suspended until Corps 
studies can be subjected to independent review and revised cost-benefit 
analysis that better accounts for climate change, cumulative impacts, 
and historic injustices.
    All of these actions could expedite the implementation of 
resilience solutions across the nation.

Questions from Hon. Garret Graves of Louisiana to Matthew J. Strickler, 
     Secretary of Natural Resources and Chief Resilience Officer, 
                        Commonwealth of Virginia

    Question 1. Virginia is working on the completion of a 
Comprehensive Coastal Masterplan.
    <bullet>  How does Virginia intend to use this masterplan to inform 
its work with the Army Corps of Engineers and federal government at 
large?
    <bullet>  What indications have you had from the Corps on how they 
will treat this plan?
    <bullet>  Once this plan is developed, how will the commonwealth 
implement it? What will the implementation schedule be? Has funding 
been made available for implementing the plan? Which federal programs 
will be involved?
    Answer. In October 2020, Governor Northam released the Virginia 
Coastal Master Planning Framework. This Framework is the result of a 
nearly two-year process initiated by the Governor, involving state 
agencies, key stakeholders, and local and regional partners to develop 
mitigation strategies to reduce the near- and long-term impacts of 
natural hazards and extreme weather.
    The goal of the Master Planning exercise is to have a completed, 
project oriented Coastal master Plan by the end of 2021.
    Coastal resilience planning encompasses many policy initiatives, 
government agencies, and federal resources, and requires coordination 
among state and local leaders, scientists and engineers, and impacted 
stakeholders, including the Army Corps of Engineers. To ensure 
coordination and mutual support with all parties, Governor Northam 
recently signed Executive Order Seventy-One, which establishes the 
Virginia Coastal Resilience Technical Advisory Committee (TAC).
    The TAC is tasked with facilitating this coordination and 
developing recommendations for specific, place-based, coastal 
adaptation and protection strategies. Its members include 
representatives from Virginia's eight coastal Planning District 
Commissions, academic and technical experts, and state and federal 
agencies.
    The Norfolk District of the Corps is represented on the TAC, and 
our efforts are coordinated through that body. They have been active 
and helpful participants.
    To reduce climate pollution, the Commonwealth of Virginia became 
the first southern state to join the Regional Greenhouse Gas Initiative 
(RGGI), a market-based collaborative effort among Northeast and Mid-
Atlantic states to combat climate change and reduce greenhouse gas 
emissions from the power sector, while driving the clean energy 
economy.
    Legislation passed during the 2020 General Assembly session 
dedicates 45 percent of the proceeds generated from the auction for 
community flood preparedness and coastal resilience, while the 
remainder of funds will be directed towards energy efficiency programs.
    The RGGI proceeds directed towards resilience will fund project 
implementation, planning, research, and monitoring via the Community 
Flood Preparedness Fund. We generated more than $19m for the fund in 
our first RGGI auction earlier this year, and we expect to generate 
more than $75 million annually for flood preparedness and resilience.
    Virginia will look to leverage federal funds as well, including 
through aligning grant programs such as NOAA Coastal Resilience grants, 
HUD CDBG-DR and CDBG-MIT, and stateside LWCF. We are hopeful that 
Congress will pass an infrastructure package that provides significant 
additional funding for adaptation and resilience through these and 
other programs.
    Implementation schedule and specifics are under development, and 
will be detailed in the first iteration of the Master Plan, expected by 
the end of 2021.

    Question 2. You note that state and federal efforts to support 
resiliency are not aligned, and that there is not enough funding to go 
around.
    <bullet>  What are your recommendations to better align goals of 
each entity?
    <bullet>  One-third of the Army Corps' project backlog can be found 
in my state--I want to be on record that you can have as many 
authorizations and feasibility studies as you want--it doesn't 
necessarily result in new starts and project implementation.
      i.  What can the federal government do to achieve better 
efficiency and faster project implementation?
    <bullet>  Should it take a major disaster declaration for this to 
be a federal priority? What can be done at the federal level to 
increase the availability of resources for proactive investments in 
resiliency?
    Answer. First, and most importantly, it should NOT take a major 
disaster declaration for coastal resilience investment to be a federal 
priority. Risk management is based on forecasted future risk, not past 
events.
    Virginia's coastal region covers 8,950 square miles, or 
approximately one quarter of the state and has more than 10,000 miles 
of tidally influenced shoreline.
    Recent estimates show that 250,000 acres of land, 1,469 miles of 
roads, and property valued at $17.4 billion lie less than five feet 
above the high tide line in Virginia.\1\
---------------------------------------------------------------------------
    \1\ Ben Strauss, Claudia Tebaldi, and Scott Kulp, ``Virginia and 
the Surging Sea: A Vulnerability Assessment with Projections for Sea 
Level Rise and Coastal Flood Risk'' (Princeton, NJ: Climate Central, 
September 2014), https://sealevel.climatecentral.org/uploads/ssrf/VA-
Report.pdf.
---------------------------------------------------------------------------
    Coastal Virginia also has some of the highest relative sea level 
rise rates in the United States due to the combined effects of climate-
driven sea level rise and land subsidence.\2\
---------------------------------------------------------------------------
    \2\ Christopher G. Piecuch, ``Origin of Spatial Variation in US 
East Coast Sea-Level Trends during 1900-2017,'' Nature, 2018.
---------------------------------------------------------------------------
    The impacts of sea level rise and flooding are magnified by 
population density: Virginia's coastal region is home to more than 70 
percent of our population.\3\ Coastal regions across the United States 
are seeing population increases, with the U.S. Department of Commerce 
estimating that 47 percent of the U.S. population lives along 
coastlines, putting a significant portion of the public at risk.\4\
---------------------------------------------------------------------------
    \3\ Annual Estimates of the Resident Population for Counties in 
Virginia: April 1, 2010 to July 1, 2019 (COEST2019-ANNRES-51) Source: 
U.S. Census Bureau, Population Division. Release Date: March 2020
    \4\ ``National Coastal Population Report: Population Trends from 
1970 to 2020.'' (U.S. Department of Commerce, NOAA's Office of Coastal 
Management, 2018).
---------------------------------------------------------------------------
    It is not a matter of if, but when will Virginia be impacted by a 
climate disaster. The fact that the federal government has predicated 
many of its resilience decisions based on past disasters is evidence of 
the misalignment I mentioned in my testimony.
    But that is changing. The engagement ongoing engagement of the 
Corps in developing Virginia's Coastal Master Plan is encouraging. In 
addition, federal changes in WRDA 2020 support this engagement. For 
example, step in WRDA 2020 to ensure the Corps will accurately assess 
and quantify efforts to address potential sea level rise or inland 
flooding when doing cost-benefit analyses for future water resources 
projects will provide helpful in aligning the Army Corps' and 
Virginia's planning efforts.
    Reprioritizing Corps projects to address the resilience challenges 
of coastal states, reducing the backlog of outdated Corps projects, and 
increasing federal funding will all further align and hasten joint 
resilience efforts. Additionally, ensuring that other federal grant and 
direct spending programs, including those for transportation, housing, 
economic development, and military construction are required to factor 
in climate resilience will be extremely beneficial.

    Question 3. Your testimony notes Virginia's robust flood elevation 
standard. How is the Commonwealth communicating these standards to 
vulnerable communities?
    <bullet>  Have you encountered any concerns from Virginians who are 
more aware of the BFE requirements in their NFIP policy?
    <bullet>  How would the state respond to a situation where 
homeowners are not eligible for disaster aid made available through the 
CDBG-DR program because the BFE standard for CDBG differs from that of 
homeowner NFIP policies? Do you think this is confusing?
    Answer. Virginia's Flood Risk Management Standard allies to new and 
modified state buildings and facilities. It does not impact privately 
owned and ensured structures, though we are encouraging localities to 
adopt it.
    I am not aware of concerns regarding base flood elevations for 
state owned buildings or those adopted by local ordinance.
    I am also not aware of any conflicts with our existing state or 
local standards and CDBG-DR. We would not favor a situation where a 
stronger and more resilient standard disqualified Virginians from 
receiving federal disaster relief in any form.

  Questions from Hon. Grace F. Napolitano to Chad Berginnis, C.F.M., 
      Executive Director, Association of State Floodplain Managers

    Question 1. Your testimony concerns the problem that the Corps is 
underfunded to perform their many necessary projects across the 
country, as well as implement provisions from WRDA 2020 and past WRDA 
bills. Can you discuss what impact a lack of funding has on:
    a.  flood protection, navigation, and environmental mitigation 
projects so important to local communities;
    Answer. To this point, the Corps staff is occupied constructing 
traditional large flood control projects, which is what Congress has 
provided the majority of its funding for. Many communities, especially 
those that are small or economically disadvantaged, do not qualify for 
those projects because they have low value properties that are flooded, 
because they cannot provide the required cost share, or because they 
understand such projects are not sustainable in light of increasing 
future flood risk.

    b.  increasing resiliency and protection for communities already 
facing climate impacts;
    Answer. Communities in coastal areas or where rainfall is 
significantly increasing are among those already facing climate 
impacts. A vast majority of those communities need Corps technical 
assistance to even understand their current and future risk and 
understand the range of options they might have to address these 
issues.

    c.  implementing new policies that may improve Corps' projects and 
lead to better outcomes?
    Answer. ASFPM believes that the most impactful new approach that 
the Corps can implement is to have a robustly staffed technical 
assistance function not tied to any specific project. Corps staff 
provides assistance on large projects because they have a funding 
source they can charge their time and expenses to. The Corps struggles 
to provide technical assistance to communities outside of the 
congressionally authorized projects, because there is not a dedicated 
funding source to consistently have staff available for that function, 
nor has the Corps ever been organized and/or budgeted in this way. Such 
an approach will take both Congressional and Corps leadership--Congress 
providing funding and priority for general technical assistance 
programs/staffing, and for the Corps to build dedicated staff capacity 
and leadership to do this kind of technical assistance--and we are not 
talking about ``assigning'' staff with the function as an ``other duty 
as assigned.''. Corps leaders acknowledge this problem and seem 
interested in effectively addressing it, likely through the FPMS and 
PAS and other Continuing authorities. In WRDA 2020 Congress provided 
some positive direction for natural and nature-based approaches to 
managing flood risk as well as using non-structural approaches.

   Questions from Hon. Garret Graves of Louisiana to Chad Berginnis, 
  C.F.M., Executive Director, Association of State Floodplain Managers

    Question 1. Why should the Corps make completing the Lower 
Mississippi River Comprehensive Study a priority?
    Answer. Watershed based comprehensive studies are important to 
managing those systems as opposed to only looking at projects or 
solutions for part of a basin. In our testimony we highlighted the 
importance of the lower and upper Missouri River comprehensive projects 
for example.

    Question 2. The primary benefit of funding a USACE project is the 
decrease in flood risk, but a secondary benefit is the decrease in the 
costs of flood insurance for the surrounding community. However, in my 
experience, FEMA and USACE do not seem to have firm channels of 
communication to ensure that the federal right and left hands are in 
coordination--including ensuring that the decrease in flood risk is 
communicated to the NFIP through project implementation or improved 
credentialing for a levee--results in a change to insurance costs.
    Could you comment on the relationship between these two agencies? 
Do you see any opportunities to improve and formalize communications 
and goals of these two entities?
    Answer. Over time ASFPM has seen this relationship ebb and flow. At 
one point in the early 2000's ASFPM and another organization 
facilitated meetings between the Corps and FEMA in particular on levee 
issues. Over time that relationship has improved significantly. In a 
recent briefing, we learned that for Risk Rating 2.0, the Corps was 
instrumental in assisting with FEMA's methodology and approach for 
levees which we believe will provide a true risk-based rating for many 
levee scenarios. Also, we are pleased to give our impression that FEMA 
and the Corps are working together on other levee safety issues as 
FEMA. This progress in communication is good and welcome.

                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
